          SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





                Report of Inspection

       Bureau of Overseas 

       Buildings Operations



   Report Number ISP-I-08-34, August 2008




                            IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED



   PURPOSE, SCOPE AND METHODOLOGY OF THE 

                 INSPECTION

    This inspection was conducted in accordance with the Quality Standards for
Inspections, as issued by the President’s Council on Integrity and Efﬁciency, and the
Inspector’s Handbook, as issued by the Ofﬁce of Inspector General for the U.S. De-
partment of State (Department) and the Broadcasting Board of Governors (BBG).

   PURPOSE

    The Ofﬁce of Inspections provides the Secretary of State, the Chairman of the
BBG, and Congress with systematic and independent evaluations of the operations
of the Department and the BBG. Inspections cover three broad areas, consistent
with Section 209 of the Foreign Service Act of 1980:

•	 Policy Implementation: whether policy goals and objectives are being effectively
   achieved; whether U.S. interests are being accurately and effectively represented;
   and whether all elements of an ofﬁce or mission are being adequately coordi-
   nated.

•	 Resource Management: whether resources are being used and managed with
   maximum efﬁciency, effectiveness, and economy and whether ﬁnancial transac-
   tions and accounts are properly conducted, maintained, and reported.

•	 Management Controls: whether the administration of activities and operations
   meets the requirements of applicable laws and regulations; whether internal
   management controls have been instituted to ensure quality of performance and
   reduce the likelihood of mismanagement; whether instance of fraud, waste, or
   abuse exist; and whether adequate steps for detection, correction, and prevention
   have been taken.

METHODOLOGY

    In conducting this inspection, the inspectors: reviewed pertinent records; as ap-
propriate, circulated, reviewed, and compiled the results of survey instruments; con-
ducted on-site interviews; and reviewed the substance of the report and its ﬁndings
and recommendations with ofﬁces, individuals, organizations, and activities affected
by this review.




              SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

                      SENSITIVE BUT UNCLASSIFIED




                                        TABLE OF CONTENTS



KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

CUSTOMER SATISFACTION SURVEY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

CASE STUDIES OF NEC PROJECTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

CAPITAL SECURITY CONSTRUCTION PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

IMPROVING PROJECT DESIGNS AND ADDRESSING CUSTOMER CONCERNS . . . . . . . . . . . . 33

COMMISSIONING OF CAPITAL CONSTRUCTION PROJECTS . . . . . . . . . . . . . . . . . . . . . . . . . 37

PROJECT DOCUMENTATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

OPERATIONS AND MAINTENANCE FOR NEW AND EXISTING FACILITIES . . . . . . . . . . . . . 43

HUMAN RESOURCES MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

EXECUTIVE OFFICE FUNCTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

FINANCIAL MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

OVERSEAS BUILDINGS OPERATIONS CONTRACTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

CAPITAL SECURITY COST SHARING PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

FEDERAL REAL PROPERTY INITIATIVE – ACCOUNTABILITY AND REPORTING . . . . . . . . . . 83

REAL ESTATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 89

INFORMATION MANAGEMENT AND INFORMATION SECURITY . . . . . . . . . . . . . . . . . . . . . . 95

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 109

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 115

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 119

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 121

APPENDIX A: FUNDING AVAILABLE TO OBO IN FY 2007 FOR EMBASSY SECURITY

CONSTRUCTION AND MAINTENANCE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 123

APPENDIX B: OIG CUSTOMER SATISFACTION SURVEY . . . . . . . . . . . . . . . . . . . . . . . . . 125

APPENDIX C: CASE STUDIES OF NEW EMBASSY COMPOUNDS . . . . . . . . . . . . . . . . . . . 143





                          SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED





                                     KEY JUDGMENTS



    • 	 The Bureau of Overseas Buildings Operations (OBO) successfully com-
        pleted 54 new embassy compounds (NEC) and annex ofﬁce buildings under
        the Construction Security Program, placing over 17,000 embassy employees
        in secure facilities between 2001 and 2008. Current leadership endeavors to
        build on this record by maintaining the pace of construction while improv-
        ing relations with other Department of State (Department) bureaus and mis-
        sions abroad that felt left out of the planning process.

      • 	 The ultimate goal of the Department is to construct 150 NECs by 2018, at a
          total cost of $17.5 billion. Escalating construction, commodity, labor costs,
          and the depreciation of the dollar threaten to prevent the attainment of that
          very important goal. Either the program must be scaled back, additional
          resources identiﬁed, or the program stretched beyond 2018.

     •   	The Ofﬁce of Inspector General (OIG) conducted a global customer survey
          of diplomatic missions and a detailed analysis of 12 completed NECs. Posts
          commented favorably about their new facilities. Many have received positive
          feedback from their host governments that the facilities are architecturally
          attractive and appropriate. At the same time, posts expressed concern about
          commissioning, post-occupancy use, and NEC maintenance.

     • 	 OBO’s continuing use of the design-build and Standard Embassy Design
         (SED) concepts is effective. However, the organizational structure of OBO
         is overly complex with entities operating in semi-isolation resulting in the lack
         of effective coordination, communication, and accountability. The contract-
         ing process is cumbersome and complicated, and must be streamlined. Orga-
         nizational problems ultimately add to the cost of construction projects.

     • 	 The Department does not know the future costs of operating and maintain-
         ing its facilities overseas, although OBO is addressing the problem. Costs to
         support and maintain the Department’s legacy facilities are increasing. There
         are no effective systems in place to plan, budget, and track operation and
         maintenance costs. The Department must do a better job of identifying the
         resources necessary to protect its multibillion dollar investment.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   1 .


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




          • 	 The Director Ad Interim took charge in January 2008. He quickly corrected
              a number of organizational deﬁciencies and improved coordination and
              communication between regional bureaus, overseas posts, and other agen-
              cies. During the inspection, he was pursuing major realignments of func-
              tions and responsibilities, including efforts to ﬁx major operational prob-
              lems in information management and human resources. Progress has been
              slow and much remains to be done.

          The inspection took place in Washington, DC, between January 7 and
      May 31, 2008. Ambassador John C. Monjo (team leader), James Martino (deputy
      team leader), John Belz, Harrison Ford, Mary Ellen Gilroy, Martha Goode, Christo-
      pher Mack, Ruth McIlwain, Kristene McMinn, Robert Mustain, Walt Norko, Van-
      dana Patel, Matthew Ragnetti, Robert Ripley, Iris Rosenfeld, Peter Stella, Deborah
      Taylor, Moosa Valli, and Michael Yoder conducted the inspection.




2 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                                            CONTEXT



    OBO has approximately 1,340 employees worldwide and a $4 billion budget to
conduct operations in FY 20071 (see Appendix A). OBO has the broad and vital
mission of providing safe, secure, and functional facilities for the conduct of U.S.
diplomacy and the global promotion of U.S. interests.

     Congress, the Executive Branch, and the Foreign Affairs community have long
complained about the U.S. Government’s insecure and dilapidating inventory of dip-
lomatic facilities. In 1985, a Presidential Commission led by Admiral Bobby Inman
convened, following the attack against the U.S. Embassy in Beirut, to address the
problem.

    The Department convened accountability review boards chaired by Admiral
William Crowe to examine the 1998 bombings of Nairobi and Dar es Salaam2. The
Crowe report highlighted that the U.S. Government has placed too low a priority and
devoted inadequate resources to security concerns. The report urged the Depart-
ment to address security vulnerabilities in a sustained and ﬁnancially realistic manner,
otherwise the lives and safety of American employees in diplomatic facilities would
be at risk from further terrorist attacks.

     Both the Inman and Crowe panels recommended major building programs to
protect U.S. diplomatic missions. According to an article by Senator Rod Grams
in the Foreign Services Journal,3 progress was slow in the 1980s and 1990s as building
initiatives never received necessary funding. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2) Fourteen years later, after the
East African bombings, the Department, given available funding, built or enhanced
only 49 of the recommended facilities. A 1991 Government Accountability Ofﬁce
(GAO) report noted that of the 57 projects planned in 1986, only seven had been
1     The $4 billion included $1.49 billion appropriated by Congress, $1.28 billion carried over 

from FY 2006, $1.04 billion in reimbursements and proceeds of sale, and $0.2 billion in recover-
ies.

2     Report of the Accountability Review Boards, Bombings of the U.S. Embassies in Nairobi, Kenya and Dar 

es Salaam, Tanzania on August 7, 1998 (report dated January 8, 1999), www.state.gov/www/regions/africa/

board_letter.html.

3     Senator Rod Grams, “Vulnerable Embassies? Don’t Blame Congress,” Foreign Service Jour-
nal (June 2000); www.afsa.org/fsj/jun00/grams.cfm [as of 5/30/08].




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008             3 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



      completed by September 1991; eight were under construction; 14 were in site acqui-
      sition, under design, or out for architectural and engineering selection; and 28 were
      on hold, deferred, or canceled.4

           From FY 1987 to FY 1998, the Executive Branch requested $5.8 billion for se-
      curity purposes for various Department accounts. Congress appropriated $5 billion
      to implement the Inman security recommendations. According to the 1991 GAO
      report, nearly half the funds remained unobligated at the end of FY 1990 because of
      project-speciﬁc circumstances such as construction delays and the lack of building
      sites. Difﬁculties in using these appropriated funds continued. In FY 1995 and FY
      1996, according to Senator Grams, Congress rescinded a combined amount of $100
      million of unobligated funds in the Security and Maintenance of Overseas Missions
      account. 5

           In 2001, the previous OBO Director was appointed and dramatically altered the
      organization by initiating a new business model that emphasized design standardiza-
      tion, cost containment, and expedited construction schedules. With newly provided
      funding increases, the approach resulted in the completion of 54 NECs and new
      facilities between January 1, 2001, and December 31, 2007. The previous Director
      brought much needed discipline to the overseas buildings organization; but was per-
      ceived as not tolerating dissent or criticism. The emphasis was completing projects
      on time and within budget. This often resulted in friction with customers. Some
      projects were descoped (facilities and features were removed from the project) to
      stay within budget. OBO’s relations with other Department bureaus were strained
      during the previous Director’s tenure. The Director Ad Interim is quickly moving
      to improve relations with stakeholders and has taken the initiative to avoid late-year
      project descoping.

          This inspection focused on OBO’s central programmatic initiative, which is the
      Capital Security Cost Sharing Program (CSCSP) for the construction of NECs, but
      also addresses other key functions across the organization, including planning, real
      estate, human resources, information management, operations, facilities maintenance,
      resource management, and contracting. OIG conducted a global customer satis-
      faction survey of all diplomatic and consular posts to obtain the views of OBO’s
      ultimate customers; 122 missions and one Washington ofﬁce responded. OIG also
      prepared 12 detailed case studies of recently completed NEC projects to assess the
      efﬁciency and effectiveness of OBOs internal processes. OIG also tasked inspection
      teams visiting overseas posts during the course of the OBO inspection to review
      OBO programs at the inspected posts and used this information to inform its ﬁnd-
      ings.
      4   GAO Report No. GAO/NSIAD-92-2, State Department, Management Weaknesses in the Security
      Construction Program (November 1991), p. 3.
      5 Ibid.


4 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                               EXECUTIVE DIRECTION



    The Director Ad Interim assumed the responsibility for managing OBO in
January 2008. The previous Director served from 2001, and instituted a number
of sound management mechanisms including monthly project reviews of all OBO
activities, the establishment of ofﬁce-speciﬁc performance measures, an upgraded
annual Long-Range Overseas Buildings Plan, and a more streamlined process for
designing and constructing facilities than had previously existed. Perhaps the most
signiﬁcant development during his tenure was the establishment in 2004, of the
Capital Security Cost Sharing Program, which provides for a steady stream of funds
to construct future overseas facilities and requires all U.S. agencies to share in the
costs.

    The previous Director instilled much needed discipline at all levels of OBO in
managing projects, which is a crucial factor in containing costs and meeting con-
struction schedules. The previous Director was also willing to make tough decisions
to balance the needs of stakeholders within ﬁscal realities. The OIG team recog-
nizes the importance of discipline in the planning, development, and execution of
OBO projects.

    The Director Ad Interim inherited an organizational structure that was unortho-
dox and overly complex. For example, there was no executive director or principal
deputy assistant secretary equivalents; the human resources, management support,
and information management ofﬁcers reported to the Director, and coordination
among OBO ofﬁces suffered from these arrangements. The previous Director
emphasized completing projects on time and within budget—clearly responsible
objectives—but relationships among Department bureaus and overseas posts be-
came strained over a perceived autocratic management style and lack of consulta-
tion although OBO had historically conducted meetings with various stakeholders,
including mission-occupying agencies.

    Managers and most of the OBO staff are highly experienced, motivated, and
accomplished professionals who work effectively together. Yet there are signiﬁcant
morale problems, and work loads are not well-distributed throughout the organiza-
tion.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   5 .


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



          The Director Ad Interim moved quickly to correct deﬁciencies and to bring an
      open accessible management style that is well received. The Director Ad Interim
      reached out to employee groups and OBO customers to improve relations, includ-
      ing holding regular meetings with Department principals and overseas missions and
      including them in previously restricted meetings at OBO. Missions abroad as well as
      bureaus and other agencies have responded favorably to these efforts.

          The Director Ad Interim moved to realign OBO functions to improve internal
      coordination and enhance accountability. An executive director position was es-
      tablished to oversee the human resources, management support, and information
      management functions. A formal principal deputy position was also proposed. The
      Ofﬁce of Real Estate was combined with the Ofﬁce of Planning; and the Facilities
      Management function realigned with the Ofﬁce of Project Execution. The OIG
      team views these moves as positive developments.

      Internal Review and Operations Research
      Ofﬁce

          Internal Review and Operations Research Ofﬁce (IROR) was established to pro-
      vide the previous Director with independent assessments of programs, operations,
      and personnel matters. The ofﬁce is comprised of a director and a staff of seven;
      the ofﬁce director reports directly to the OBO Director. The OIG team found that
      the operations of this ofﬁce were secretive, under instructions from the previous Di-
      rector, and the ofﬁces that underwent review were usually not given an opportunity
      to formally comment on the reports or other products before issuance. Some IROR
      reports, particularly those involving contracting procedures, contained inaccuracies
      and recommendations which were ultimately rescinded. Staff throughout OBO
      expressed some frustration with the operation of IROR.

          One manager familiar with IROR products stated that their audit and consulting
      functions were often blurred, resulting in reports that presented ﬁndings which were
      more akin to opinions. Many OBO employees concluded that due to the secretive
      nature of their operations, IROR was the previous Director’s vehicle for obtaining
      information on matters of interest to him.

           IROR did not have any formal published operating procedures and did not have
      a transparent work plan to ensure that the work of the ofﬁce was understood by the
      various ofﬁces within OBO. The staff consists of investigators, a certiﬁed ﬁnancial
      manager, and several auditors. The staff did not have a formal training program
      similar to that required of government audit organizations or periodic brieﬁngs from
      OBO program managers. OIG acknowledges that an internal review function is an

6 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




important tool for assessing operations and evaluating the use of the multibillion
dollar OBO budget. The Director Ad Interim acknowledges these shortcomings and
has hired a personal services contractor (PSC) to improve IROR operations.

   Recommendation 1: The Bureau of Overseas Buildings Operations should
   establish a mission statement and formal operating procedures for the conduct
   of Internal Review and Operations Research activities. (Action: OBO)


   Recommendation 2: The Bureau of Overseas Buildings Operations should
   provide Internal Review and Operations ofﬁce personnel with the requisite
   training to perform its oversight function. (Action: OBO)



Historic Preservation Portfolio Program

    In January 2007, the previous Director of OBO founded the Historic Preserva-
tion Portfolio Program and placed it as an independent division under the Ofﬁce of
Project Execution. Comprising one GS-15 director with six GS/contractor subor-
dinate personnel, its intended purpose was to standardize policies in order to protect
approximately 180 U.S. Government properties that have historic, architectural and
cultural signiﬁcance to the United States and the host country. By application of
algorithm software, properties would be placed in rank order so that resources would
be targeted appropriately.

     Throughout 2007, OBO management continually questioned the validity of the
program and how it contributed in terms of real value and direct beneﬁt to the OBO
mission of renovating existing U.S. Government buildings in order to provide a more
secure working environment for mission personnel. Debate, which was at times
emotional, centered on whether the Historic Preservation Portfolio Program could
justify its position and budget as a real-time contributor versus a historical archive.
In January 2008, the Director Ad Interim of OBO made a decision to abolish the
Historic Preservation Portfolio Program. The Facilities Management Division is
responsible for maintenance of historical buildings and a unit is being formed under
the Operations directorate to coordinate the training of post Ofﬁcial Residence Ex-
pense staff in preserving cultural assets. The OIG team concurs with this decision.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   7 .


                        SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





8 .   OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


            SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                    CUSTOMER SATISFACTION SURVEY



     There are 268 U.S. missions located in six geographic regions, which are key
consumers and end users of OBO products and services. During the course of
inspections of embassies and consulates over the past decade, OIG made recom-
mendations to be effected by both post and OBO. Many of these recommendations,
along with observations from inspection teams at posts between January and May
2008, informed this inspection of OBO. OIG determined, however, that to form a
complete impression of the work of OBO, it was necessary to have current informa-
tion solicited directly from missions worldwide. On March 6, 2008, OIG sent a cable
to all diplomatic and consular posts (State 23375). It transmitted a request from the
Acting Inspector General to chiefs of mission to designate one member of mis-
sion staff to solicit answers from members of the mission to 17 questions. Chiefs
of mission were asked to submit one post-speciﬁc compilation of the answers to an
e-mail box no later than March 21, 2008. Several posts chose to respond via front
channel cable; the vast majority responded via e-mail. By March 21, a total of 122
posts from all six regional bureaus and one Washington ofﬁce, replying on behalf of
its ﬁeld-based services, submitted replies.

    The format of the survey was a series of open-ended questions, which invited
replies in the form of a statement rather than a scalable response (e.g., highly satis-
ﬁed/ satisﬁed/neutral/dissatisﬁed/highly dissatisﬁed/not applicable). The 17 ques-
tions were divided into four areas. Three areas concerned OBO programs and ser-
vices: NECs and Newly Acquired Buildings; housing; and maintenance and repair.
The fourth area contained general questions: OBO-speciﬁc software; the quality of
communications between post and OBO; and any other comments or observations
post might wish to share with the inspection team.

     It was obvious from several of the post replies that views had been solicited
from different sections of the Department and from other agencies at post. Several
post responses included observations from prior postings, as well as the current post.
Responses were thoughtful, with many including speciﬁc examples of what worked
and what did not work. Many posts offered constructive suggestions for improve-
ments to the design of NECs, the rental waiver process, and ﬁeld support and train-
ing.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   9 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          A summary of the customer satisfaction survey is in Appendix B. Several key
       points from the survey are summarized as follows:

          • 	 Posts praised their NECs for design, beauty, space, and security. Responses
              to the planning and construction phases varied: many posts praised the col-
              laboration with OBO during real estate acquisition but were concerned that
              their suggestions for use and design were ignored; a few expressed frustra-
              tion that the ﬁnished product was missing such elements as the warehouse,
              recreation center (essential to morale in many posts without American-style
              amenities), or restrooms in the CAA. One third of the posts observed that
              more input from post and other agencies might have prevented costly adjust-
              ments after occupancy. Many posts expressed frustration that the mechanical
              systems of the new buildings were too complex to be maintained and ser-
              viced by local technicians.

          • 	 The congressionally mandated residential rental ceiling of $50,000 per year
              appears to be outdated for many countries across the geographic regions, the
              result of a volatile worldwide housing market, competition from other mis-
              sions and the private sector, and the state of the dollar in current currency
              markets.

          • 	 The majority of posts were satisﬁed with services provided by the Washing-
              ton-based staff of the OBO Operations Divisions: Area Management; Facil-
              ity Management; Fire Protection; Safety, Health, and Environmental Manage-
              ment; and Art in Embassies. Several posts, however, expressed concern at
              the high levels of staff turnover in Area Management. The greatest mainte-
              nance issue for posts occupying new buildings is HVAC (heating, ventilation,
              air conditioning) systems—ﬁnding replacement parts locally and ﬁnding staff
              able to service highly complex equipment. NEC posts were also concerned
              about the increased costs of operating the new buildings. Posts on the Top
              80 list for new construction or in the construction phase of an NEC believed
              that needed maintenance and repairs to existing buildings were not funded
              because of the impending move in three or more years.

          • 	 Half the posts were satisﬁed with OBO software for posts, Work Orders for
              Windows and Real Property Application (WebRPA). Many posts stated that
              more training in software use was needed. In general, posts viewed commu-
              nications with OBO positively. Those posts that did not believe communica-
              tions were positive expressed their views strongly.




10 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




          CASE STUDIES OF NEW EMBASSY COMPOUND
                         PROJECTS



    The OIG team conducted 12 case studies of NEC projects as one element of
the OBO inspection effort. Theoretically this study would provide the team with
an understanding of the major effort that OBO has engaged in since the African
embassy bombings in 1998, and the subsequent inception of the Capital Security
Construction Program (CSCP). To get a full spectrum view of the program, NEC
projects chosen for the study had to be completed and occupied for a reasonable
period of time to obtain operational feedback from the posts. In addition, NEC
projects were chosen from three different ﬁscal years so that the evolution in plan-
ning, design, construction and management could be seen and evaluated. The case
studies are attached as Appendix C.

    Three NEC projects were chosen from FY 2002, four from FY 2003 and ﬁve
from FY 2004. FY 2002 projects were chosen as the starting point of the study
because that year was seen as the initiation of the SED model and the design-build
project delivery system. One FY 2002 project, NEC Abuja, was included because it
was atypical in that it was a non-SED, design-bid-build model that could be used to
contrast the other projects.

     Perhaps the most surprising result of the case studies was the difﬁculty in col-
lecting all of the relevant project and contract documentation necessary to conduct
the study. Although OBO and the Bureau of Administration, Logistics Management
(A/LM) personnel were extremely helpful in searching ﬁles and databases for the
information requested by the OIG team, all of the material needed was simply not
available. In general, the older the project, the less documentation existed. This data
collection effort forms the basis for the recommendations in this report regarding
the need to document and systematically store project information.

    The most signiﬁcant result of the study came to light as a result of comparing
common issues noted throughout the case study projects to those reported on proj-
ects now underway. The OIG team acknowledges that improvements in planning
and design were realized since 2002 as the program matured. However, many of the
same issues and problems in planning, design, and construction continue to be noted
even though the SED and the design-build model should have matured to a point
that systemic issues would have been eliminated or minimized. Reviews in ProjNet,


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   11 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       OBO’s electronic database, of the unclassiﬁed 35 percent drawing packages for six
       NEC projects now in design or construction showed a total of 3,148 review com-
       ments or an average of 525 comments per project. These observations and trends
       form the foundation of many of the organizational and project management recom-
       mendations in this report. Based on its review of the signiﬁcant number of review
       comments from OBO staff and contractors, the OIG team concludes that there is a
       lack of consensus and understanding of the project requirements and speciﬁcations.

          The case studies are a synopsis of the data collected by the OIG team. Key
       points contained in the study are summarized as follows:

          • 	 All 12 posts commented favorably on the NEC buildings and ofﬁce space.
              Most stated that the buildings were considered a signiﬁcant positive state-
              ment for the U.S. Government to the host country.

           • 	 There were 239 contract modiﬁcations as of this OIG report documented
               for all 12 case studies for a total cost of $20,054,662. This cost represents
               approximately 2.6 percent of the total project funding.

          • 	 Of 12 case study projects, 11 used the design-build project delivery ap-
              proach based on an evolving SED design prototype and proved that the
              overall timeline for executing a NEC project could be reduced by using a
              design-build delivery method. However, individual project contract dura-
              tions proved to be too optimistic and need to be adjusted to accommodate a
              realistic duration that includes the needed time for design.

          • 	 Contract documentation records were disorganized and in most cases the
              contract record of negotiations inadequately explained the trade-offs and
              negotiations that led to the ﬁnal scope and cost of the contract.

          • 	 The case studies revealed a systemic problem incorporating lessons learned,
              change requests, and post-recommended improvements in a timely manner
              for future projects.

          • 	 All 12 case studies documented signiﬁcant planning, design, and space usage
              issues that cut across all aspects of a typical project.

          • 	 Maintenance and commissioning issues were also a common problem noted
              throughout the case studies. These issues represent a broad spectrum of
              problems brought about by compressed commissioning schedules and qual-
              ity control issues.



12 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




    • 	 Operations costs were noted as an issue in six of the case studies. The major
        concern was that estimates were not provided by OBO or were inaccurate.

    • 	 Training of locally employed staff was reported as a signiﬁcant issue in six
        of the case studies. There were two issues noted: the training and docu-
        mentation provided by the construction contractor was inadequate, and the
        locally employed staff did not have the requisite background to maintain the
        sophisticated systems in a modern NEC.

    • 	 Consular design issues were noted in four of the case studies. These issues
        fall within the planning and design categories.

    • 	 Marine security guard quarters issues were noted in three of the case stud-
        ies. These issues are related to the lack of living, entertainment and storage
        space. There was one report concerning privacy screening of the Marine
        security guard quarters from the NEC’s ofﬁces.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   13 .


                        SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





14 .   OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


             SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




        CAPITAL SECURITY CONSTRUCTION PROGRAM



    The OIG team strongly believes that two elements of the building program,
design-build contracts and use of a SED, are key factors in the success of the CSCP
and should be maintained for most, but not all, capital projects. However, the fast
paced construction program and OBO’s reorganized structure have produced sig-
niﬁcant issues that must be addressed to sustain an effective capital building program
going forward.

OBO Organizational Structure and Issues

    The limited capital construction program of the Ofﬁce of Foreign Buildings
Operations, the predecessor of OBO, was based on the design-bid-build delivery
system with oversight by a traditional project management-based organization. This
process was not best suited to implement a large-scale program to build 150 NECs
over a 15-year period.

    The previous director initiated signiﬁcant organizational and operational changes
designed to speed the construction process. Operationally, OBO embarked on a
design-build philosophy using a SED. The traditional project management approach
was eliminated in favor of the sandbox model—distributed accountability analogous
to an assembly line. The OIG team notes that the sandbox approach was previously
adopted by the U.S. Corps of Engineers in the 1990s, but was subsequently dropped
when it was determined to be less effective than using a project management struc-
ture.

     One of the key organizational adjustments that evolved over the last six years
was that the Planning and Development Ofﬁce was given the additional responsibil-
ity for project-speciﬁc development and the production of the Request for Proposal
(RFP). The evolution of planning management and RFP responsibilities moved
from the abolished Project Execution (PE) project management division to a PE
planning and development division, and ultimately to two divisions within Planning
and Real Estate (PRE) division in 2006. In late 2007, project planning and RFP
development were consolidated into one PRE division; PE continued to be respon-
sible for design development, construction execution, commissioning, and contract
administration.



OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   15 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



            The structure that evolved was complex, requiring frequent organizational
       realignments in an attempt to overcome coordination and communication gaps
       inherent in the new structure. OBO ofﬁces involved in planning, design, and execu-
       tion operated in semi-isolation resulting in low employee morale and organizational
       inefﬁciencies.

          Examples of attempts to overcome the inherent sandbox deﬁciencies:

          • 	 A formal memorandum of agreement completed among the Design En-
              gineering Division, Project Evaluation and Analysis Division, and Special
              Projects Division to coordinate technical services for NECs, an unusual step
              for ofﬁces in the same bureau.

          • 	 An unusual memorandum of understanding (MOU) was established between
              the Construction and Commissioning (CC) Division and Facilities Division,
              and signed by the division chiefs in December 2007 to clarify responsibilities
              for building turnover and warrantee management issues.

          • 	 In the CC Division, the Construction Planning and Integration Branch was
              established primarily to coordinate with other OBO ofﬁces, divisions, and
              bureaus on project-related issues, but this group adds an additional level of
              isolation between project executives and other ofﬁces.

          • 	 The Security Management Division established ﬁve GS-14 project integrator
              positions along geographical lines to enhance the division’s coordination and
              communication efforts with other OBO ofﬁces, Diplomatic Security (DS),
              and the other tenant agency personnel. While the heavy travel requirements
              of project ofﬁcers partially justify the new positions, these new positions
              further isolate the project ofﬁcers from these elements.

            Complex procedures and reporting requirements for construction projects
       called the OBO Process were established to coordinate project actions within OBO
       and among external stakeholders. While many of these procedures and reports are
       essential, they are often cumbersome and result in incomplete and inaccurate docu-
       ments because of compressed time lines. For example, the Project Analysis Package
       (PAP), considered a key planning document, is often completed after the RFP is sent
       to the A/LM contracting ofﬁce. In addition, the OIG team noted that the PAPs do
       not always contain all of the information required. (See Appendix C). OBO ac-
       knowledged the problems in preparing timely PAPs and stated that stafﬁng shortages
       were a factor. As a result, PAPs were neither useful in development of RFPs nor as




16 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




a handoff document to PE. In the OIG team’s view, the concerns are not just due
to stafﬁng shortfalls, but demonstrate the need for better distribution of the work-
load across the organization.

    The following list of planning products demonstrates the complexity of the pro-
cess culminating in the RFP:

    OBO Planning Products

Planning Surveys and Analysis
Boundary, Topographic & Utility Location Surveys
Phase 1 – Environmental Site Assessment
Phase 1 Geotechnical Report
Recommendation Letter
Initial Planning Survey
Preliminary Site Utilization Diagram
Preliminary Blocking and Stacking Diagram
Technical Planning Checklist
International Project Risk Assessment
Site Maintenance and Development Plan
Energy and Environmental Report
Cost Estimate

Early Site Package
Site Rough Grading Plan
Tree Preservation & Removal Plan
Retaining Walls
Erosion & Sediment Control Plan
Demolition Plan
Speciﬁcation
Early Site Work Cost Estimate

Preliminary Planning Documents
Blocking and Stacking Diagram
Site Plan Diagram
Site Demolition Plan
Phasing Diagram
Technical Planning Checklist
Cost Estimate




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   17 .


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




       Integrated Planning Review Workshop Phase 1 & 2
       Blocking and Stacking Diagram
       Site Plan Diagram
       Integrated Panning Review Report
       Cost Estimate

       Draft Planning Documents
       Test-Fit Drawings
       Space Program
       NEC Master Site Development Plan
       NEC Site Perimeter Plan
       Site Utility Plan
       Site Grading and Drainage Plan
       Site Demolition Diagram
       Phasing Diagrams
       Cost Estimate

       Value Engineering and Integrated Design Review
       Test-Fit Drawings
       Space Program
       NEC Master Site Development Plan
       NEC Site Perimeter Plan
       Site Utility Plan
       Site Grading and Drainage Plan
       Site Demolition Diagram
       Cost Estimate

       Final Planning Documents
       Test-Fit Drawings
       Space Program
       NEC Master Site Development Plan
       NEC Site Perimeter Plan
       Site Utility Plan
       Site Grading and Drainage Plan
       Site Demolition Diagram
       Cost Estimate




18 .         OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




Local Development Approval Package
Title Page
Mass Model/Site Perspective Drawing
Front Elevation Drawings
Site and Building Sections
Master Site Development Plan
Site Utility Plan
Conceptual Site Grading & Drainage Plan

Government Purchased Equipment
Phase 2 – Geotechnical Investigation Report

Request for Proposal
Section C
Section J


Interior Design Functions

   During the inspection survey, a number of employees and senior management
commented on the interior furnishing functions and speciﬁcally the interior design
function as examples of the inefﬁciencies associated with the sandbox approach.

    Until September 2006, the Interior Furnishings Division in the Ofﬁce of Project
Execution consisted of three branches – Ofﬁce Facilities, Residential, and Program
Management. In October 2006, the division was broken apart and reorganized
into four branches in three different Directorates. Most of the Residential Branch
and the Program Management Branch staff were moved into the Ofﬁce of Opera-
tions Area Management Division. Some of the Ofﬁce Facilities and Residential
interior designers were moved into the Ofﬁce of Program Development’s Division
of Program Evaluation and Analysis. The remaining interior designers from Ofﬁce
Facilities were relocated within the Ofﬁce of Project Execution to the Design and
Engineering Division.

    The OIG team views the current structure as being quite convoluted. Several
individuals have pointed out that the former Interior Furnishings Division worked
reasonably well as one cohesive unit, and that the breakup has resulted in duplicating
resources with each group performing only partial roles. The vast majority of the
interior designers for the NECs complained that they were not able to follow their
projects from initial planning through design development and completion. Many



OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   19 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       viewed the over-specialization as an unnecessary waste of resources. All of the
       designers in PE complained that the original planning documents developed within
       the Planning and Development Division were not accurate and usually had to be cor-
       rected.

           Based on discussions with OBO employees and written responses to inspection
       questionnaires, the OIG team believed that a realignment of professional interior
       designers into a single unit would beneﬁt OBO operations, the quality of the interior
       designs, and employee morale.

          Recommendation 3: The Bureau of Overseas Buildings Operations should
          consolidate the ofﬁce facilities interior design personnel now in the Planning,
          Development, and Real Estate Directorate into the Design and Engineering
          Division of the Project Execution Directorate. (Action: OBO)



       Construction Management

           Capital Security Projects are passed to the CC Division of the Project Execu-
       tion Directorate after contract award. Although project executives within CC were
       assigned to monitor the project through the planning and development process, they
       told the OIG team they were often, but not always, invited to attend meetings on
       projects in the planning and development stage, but were not active participants at
       that point.

           Project executives do not see themselves as project managers. However, they are
       the ofﬁcers controlling the design process immediately after contract award. One
       employee categorized their job as “pushing the buttons to get the work done” but
       said that they were not in charge of a project. Project executives do in fact ﬁll the
       project manager void after contract award and are the primary persons identiﬁed
       in OBO, per the 2006 Construction and Commissioning Guide Book, for carrying
       through the project design and other commissioning and funding responsibilities.
       These responsibilities are shared when the on-site OBO project dirctor (PD) comes
       on board.

           The cadre of project executives assigned to the CC Division is a mixture of
       Foreign Service (FS) construction engineers, Civil Service personnel, and PSCs. All
       of the project executives interviewed by the OIG inspection team have exceptional
       backgrounds in the construction ﬁeld and were well motivated. However, their ex-
       perience level with the State Department and OBO programs and procedures varied
       widely.


20 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    The FS construction engineers may be new hires or returning PDs or construc-
tion managers from OBO overseas projects. Civil Service personnel gain extensive
project management and OBO Washington experience but are not routinely assigned
to overseas projects. PSCs are a mixture of new hires and retired OBO employees.
With the exception of formal training for the contracting ofﬁcer’s representative
(COR) and contract law, new hires only attend a series of two-hour seminars on the
various programs within OBO. On-the-job training, mentoring, a detailed policy
and procedures guide, and supervision by a senior project executive are the primary
methods used to train new employees. FS construction engineers routinely rotate
out of CC within a couple of years to become PDs or construction managers on
overseas projects.

    The distributed, horizontal organizational approach to NEC projects has three
key divisions: planning, project development, and execution. There is no overall
experienced project manager to closely coordinate the project from beginning to
end. The entire NEC planning, design, and construction plan is noted as the OBO
Process. The process consists of three areas called Program Wide, Project Speciﬁc-
Planning and Real Estate, and Project Speciﬁc – Execution. There are 23 major
events in the process that take a project from inception to contract award and nine
events from contract kickoff to certiﬁcate of occupancy.

    While OBO policy, procedures, and management brieﬁngs provided to the OIG
team indicate that projects passing from planning to development to execution are
well coordinated and seen as a smooth transition, OIG inspectors found this was
not the case. Mistakes and lack of coordination in each phase of the project were re-
ported by key personnel and in the project documentation reviewed for this inspec-
tion. For example, 13 modiﬁcations were added to all 2007 NEC projects after RFP
award by CC. The modiﬁcations were known to be needed prior to RFP comple-
tion. The cost of the modiﬁcations was absorbed with project contingency funds.

   The OIG inspection team concludes that attempts to make the sandbox ap-
proach work, have only been marginally effective and an alignment of functions
and accountability is needed. The goal is to have an RFP development management
process within a single directorate, thereby eliminating the handoff. The OIG team
acknowledges that organizational changes have already been initiated by the Director
Ad Interim to remedy some of these issues.

    Construction projects are not under the umbrella of a dedicated project coor-
dinator from planning through commissioning. The break point between planning
functions that rightfully belong in the Planning and Real Estate (PRE) directorate
and the planning functions rightfully transferred to the control and direction of a


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   21 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       project coordinator is logically after the initial planning survey and before the inte-
       grated planning review.

           Accountability, project continuity, and clear lines of communication are critical
       when dividing the project-speciﬁc planning processes. For example, the develop-
       ment of the Space Requirements Program remaining within PRE; the Initial Plan-
       ning Survey, and Integrated Planning Review may be best managed by the project
       coordinator.

          Recommendation 4: The Bureau of Overseas Buildings Operations should
          integrate the project-speciﬁc planning, development, and design functions for
          capital construction and major renovation projects under the Ofﬁce of Project
          Execution. (Action: OBO).


          Recommendation 5: The Bureau of Overseas Buildings Operations should
          establish an ofﬁce of project coordinators to oversee each major construction
          project. These coordinators should have project management expertise and be
          given the authority, responsibility, and administrative resources to oversee each
          project from planning to commissioning. (Action: OBO)



       Standard Embassy Design and New Embassy
       Compound

           One of the key criticisms in the Crowe report was the lack of funding avail-
       able to construct NECs. Once the funding became available, the introduction of a
       SED using a design-build delivery system to accomplish the recommendations of
       the Crowe report, was one way of expediting the construction process. This would
       shorten design time by using a standard design and reduce construction time by
       using the design-build delivery system to meet the overall goal of placing embassy
       employees in secure, safe, and functional chanceries and consulates throughout the
       world.

           During the development of the SED there was a concerted effort by OBO,
       with the assistance of the bureau of DS, to fully integrate and develop physical and
       technical security standards into the SED design and speciﬁcations. There was also a
       mandate by OBO management that waivers and exceptions would only be requested
       when absolutely necessary and only when there was full agreement between all
       responsible parties. The resulting generic SED design and speciﬁcations were fully
       vetted for conformity to security standards, which permitted faster and more accu-
       rate certiﬁcation and accreditation of NEC projects based on this standard design.

22 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Key Features

    The SED encompasses more than the principal ofﬁce building of the NEC. The
NEC may also contain non-ofﬁce support spaces including maintenance shops, Ma-
rine security guard quarters when a detachment is assigned to the post, utility build-
ings, Compound Access Control (CAC) facilities, a recreation facility, and parking.
There may also be an unclassiﬁed ofﬁce annex, if required. Warehouses, part of the
original NEC plan, were dropped as a cost-savings measure for the CSCSP; they are
now included only if justiﬁed by a business case analysis made by post and if post’s
current warehouse will be sold, demolished, or otherwise not used. Each SED-based
project can be modiﬁed to meet post-speciﬁc requirements (e.g., higher volume of
trafﬁc for the consular section, variations in topography, unique political or cultural
conditions in the host country, etc.).

    The SED design is ﬂexible. As of FY 2008, there are ﬁve versions, including one
in development. Three of the four current SEDs are derived from the same stan-
dard plan optimally located on 10-acre sites and are scalable to ﬁt embassies classed
as small, medium, and large. A small embassy was generally 4300 gross square
meters, with a construction cost of $50 million and construction duration of 15
months. The medium embassy was 7,400 gross square meters at a cost of $75 mil-
lion and duration of 24 months. The large embassy was 11,300 gross square meters
with a cost of $97 million and duration of 28 months.

    The OIG team found that mandated construction schedules were overly opti-
mistic. The 12 case studies demonstrated that the schedules have added signiﬁcant
risk to the NEC projects, resulting in fewer contractors bidding on projects. Those
contractors that participate tend to increase their bids to offset risk. The compressed
construction schedules have contributed to contractor disputes. In early 2008, the
Director Ad Interim acknowledged the problem and eliminated the mandated con-
tract duration periods. He directed CC to establish optimum construction contract
durations on a case-by-case basis, taking into account project speciﬁc conditions.

    The fourth SED is the Standard Secure Mini-Compound, designed for posts
with small staff and limited classiﬁed needs located on a minimum of four, but less
than ten, acres.

    The 10-acre requirement has resulted in many of the NECs being located out-
side of the city center. Several posts felt that this was detrimental to diplomatic,
consular, and public diplomacy outreach. In early 2008, in response to post and re-
gional bureau recommendations, OBO and DS began to develop a SED which could
be more easily located closer to the city center. Unlike the current SEDs, which are


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   23 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       expansive low-rise ofﬁce buildings, typically three to ﬁve stories, the vertical standard
       embassy design (VSED) will have a much smaller footprint but more stories.

           The OIG team concurs that there is a need to locate some missions in down-
       town centers in order to effectively conduct diplomatic and consular operations. The
       OIG team also agrees that the 10-acre requirement and the SED are not well suited
       to such applications. However, attempting to develop a VSED to the level of detail
       of the present design models is a challenge. Available sites in major metropolitan
       areas such as London, Mexico City, and Madrid (three projects in planning) will vary
       widely in size and conﬁguration. In addition, unique zoning and mission-speciﬁc
       requirements will likely affect the design of these facilities. An informal recommen-
       dation was made for OBO to consider developing only basic requirements for the
       VSED and using the design-bid-build method of delivery for each project.

           OBO has successfully used the design-build delivery system and SED model for
       the vast majority of the Capital Security Program facilities. The success that OBO
       had with this approach dictates its continued use for projects that ﬁt within the SED
       model. In addition to the VSED scenario, there may be other projects where the
       SED model, using the design-build delivery system, does not make practical sense.
       Some examples of projects that fall into this category include Embassy Beijing and
       the consulates in Guangzhou and Shanghai that have unique design requirements,
       projects with special or atypical space requirements such as consulates with extremely
       large consular sections, and projects to be built on unique sites where a SED design
       may be impractical. These projects require unique designs and the design-bid-build
       delivery system when it is advantageous to the government’s interests and budget.

       Standard Embassy Design and Design-Build
       Program

           The major change in OBO’s project delivery process from essentially a design-
       bid-build process to a design-build process drastically changed the approach that
       contractors must take to properly bid, design, and construct a NEC project. It re-
       quires that contractors be more sophisticated in their capabilities not only to manage
       the construction but also to manage the design, customer requirements, schedule,
       and compliance with codes, and to take on more risk for performance. In order to
       accomplish these project goals, they needed to staff projects with more experienced
       personnel not only to manage construction but also to manage all other design as-
       pects of the project.




24 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




    The planning and development of SED-based design-build projects have steadily
changed since the program’s inception in the 2002 CSCP. At that time, OBO project
planning used detailed SED drawings, space planning documents, and an OBO-au-
thored Architectural Engineering Design Guide. As the process matured, the SED
interior design model became less prescriptive, with greater use of blocking and
stacking diagrams, and replaced the Architectural Engineering Design Guide with
the industry standard International Building Code. OBO also authored International
Building Code supplements to specify a series of unique requirements for Depart-
ment overseas facilities.

    As a consequence of discrepancies and conﬂicts among the Space Requirements
Program requirements, the blocking and stacking diagrams, and the SED design
documents, Indeﬁnite Delivery-Indeﬁnite Quantity architect and engineer (A/E)
ﬁrms were engaged to produce “test ﬁt” drawings that are used for the project RFPs.
This additional level of design effort utilized today for the NEC program is useful
and desirable for clarifying design requirements, provided the test ﬁts are accurate.
However, in several instances the contractors stated that the test ﬁts were in con-
ﬂict with the Space Requirements Program requirements and probably added to the
contractor’s perception of added risk. This also deviated from what the industry
would consider a traditional design-build project delivery process and produced a
contractual RFP that would be considered a hybrid method of project delivery.

    OBO is now essentially using for its capital building projects, a bridging method-
ology that is a hybrid of the traditional design-bid-build model and the design-build
model. If implemented correctly, the bridging model retains aspects of both meth-
ods that are beneﬁcial to OBO and eliminates aspects of both that often cause prob-
lems. However, OBO’s RFP documents do not fully meet the industry standards for
bridging documents. Furthermore, the documents contained in the RFPs are report-
edly often in conﬂict and have signiﬁcant omissions.

    In a true bridging methodology, the OBO A/E would go forward with a level of
effort roughly equivalent to the concept design development phase in a design-bid-
build project delivery method. The basic concept is that the A/E will continue to
develop the design and will produce drawings and speciﬁcations equivalent in level
of effort to a concept design stage.

    However, there are substantial differences, as these documents will form the
basis of an agreement between OBO and a contractor in a design-build form of
contract. According to a private company specializing in the use of the bridging
method:




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   25 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           Typically, most of the architectural design work will be completed during this
           phase while most of the engineering design work, deﬁned through drawings
           and performance speciﬁcations, will remain to be completed by the contractor’s
           A/E, designer of record. The guiding criteria is that everything that should be
           fully designed and/or speciﬁed by the A/E is incorporated into the A/E’s design
           documents in order to protect the government, the design, and the quality of the
           construction. Conversely, nothing should be fully designed and/or speciﬁed that
           can be adequately covered by code and/or performance speciﬁcations. Compet-
           ing design-build teams will likely come up with highly cost effective solutions for
           these various elements of the project.6

           The project RFP development process in conjunction with the implementation
       of the design-build project delivery process has caused several unintended conse-
       quences that could hamper future program execution if not corrected. These unin-
       tended consequences have resulted in the following execution issues:
            • 	 A declining pool of competitive qualiﬁed construction contractors
            • 	 Project shared risk imbalances
            • 	 Higher contractor contingency costs
            • 	 Unrealistic contract durations
            • 	 Concurrent RFP proposal periods that overload both A/QM staff and con-
                struction contractors
           The last several years have seen a declining pool of competitive qualiﬁed con-
       struction contractors to bid for OBO work.7 Award data indicates that the same
       construction contractors get multiple projects and that it has been hard to attract
       qualiﬁed new contractors to bid for many of these OBO contracts. Construction
       industry groups’ concerns and the OIG team review of various case study projects
       indicate that there needs to be a variety of RFP process improvements in order to
       attract additional competitive bidders. These issues are as follows:

           • 	 Provide for a realistic sharing of risk between what is asked of contrac-
               tors and government responsibilities. If contractors perceive that there is a
               one-sided sharing of project risk, and organizational impediments remain in
               place that will not allow for the true beneﬁts of the design-build approach
               to be fully utilized, they tend either not to bid for the work, to increase their
               cost for the work to cover all contingencies, and/or to submit a high bid for
               projects they really do not want to win. In effect, this will reduce the pool of
               qualiﬁed bidders over time.
       6   Excerpt from “A detailed explanation of the Bridging method” by the Brookwood Group.
       7   A review on the contractor issue by the GAO was ongoing during OIG’s inspection.


26 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    • 	 Provide for a realistic assessment of the required contract duration for each
        project and use that data for the contractual period of performance. Arbi-
        trary contract durations that do not take into full account the design effort
        required, local conditions, geographic impediments, organizational impedi-
        ments, and site conditions are all risk issues for contractors and may limit the
        number of bidders that are attracted to these OBO projects. The OIG team
        noted that the Director Ad Interim has addressed this issue.

    • 	 Provide fully coordinated design parameters in the RFP that are deconﬂicted
        and are ready for initiation of design. RFP documents, most notably the
        Space Requirements Program, Test Fit package, and SED design and speci-
        ﬁcation documents, are almost always in conﬂict. These all need to be fully
        coordinated. If the effort is expended to do a coordinated Test Fit, then
        that should be the single contractual document for the contractors to fol-
        low for their design guidance. If high conﬁdence in the Test Fit design is
        not achieved, then the design expense and time effort to perform a Test Fit
        should be refocused elsewhere. The goal must be to provide accurate design
        information and parameters that are consistent and do not require major
        rework. This will then achieve better contractor bids and improve schedule
        performance on each project.

    • 	 Project acquisition schedules need to be more realistically executed and
        spaced out throughout the ﬁscal year to alleviate the recurrent bunching of
        all contract solicitations and negotiations in the summer with most contract
        awards made in late September. This process has led to a less competitive
        contractor pool, less price competition, and a more one-sided negotiation
        environment. OBO agreed with this and stated that 2008 projects in Suva
        and Lusaka were awarded in this manner.

    The project delivery process seems almost always to take all the available time
such that the project documents are only completed for transfer to the acquisition
team late in the ﬁscal year. This then leads to a compressed award process that puts
the entire project team in a disadvantaged position in terms of an award deadline
and in negotiating with the potential contractor. In reviewing a sampling of NEC
projects from the 2002 through 2004 program years as part of its in-depth case study
review, the OIG team found that only one out of 12 NEC case study projects was
awarded in the middle of the ﬁscal year. The remaining 11 projects were all awarded
in the last two weeks of September. This trend has continued in program years
2006-2008, which was after the RFP process was reassigned from PE to PRE.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   27 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




            This obvious year-end trend continues despite the fact that OBO materially
       changed its project delivery process from a design-bid-build process to a design-build
       process and added the application of a SED in the 2002 program year. These two
       initiatives should, but have not in fact, reduced the preparation and advertising time
       for these design-build projects. The Design-Build Institute of America and other
       industry groups have documented in various construction industry studies that the
       design-build project delivery method can save owners a great deal of time in both the
       preparation of the RFP and in the design or construction process. Although OBO
       has achieved overall time savings in total project execution time, it has not materially
       changed the pre-award RFP development process timeline that should be inherent in
       the design-build delivery method. The OIG team can only conclude that there is a
       process and/or organizational ﬂaw in the current process that must be corrected to
       achieve the expected time savings in the pre-award stage of executing these projects.

            Recommendation 6: The Bureau of Overseas Buildings Operations should
           conduct a top-to-bottom review of the RFP process for capital projects with
           the goal of producing direct accountability for a streamlined, less complicated
           and time consuming planning stage that results in a timely design-build RFP
           document that contains clear, realistic and nonconﬂicting guidance to prospec-
           tive bidders. (Action: OBO)



       The Embassy of the Future

           The report on the embassy of the future from the Center for Strategic and In-
       ternational Studies recommends a comprehensive, distributed presence around the
       world that will allow for a broader and deeper engagement with governments, opin-
       ion leaders, and the global public.8 Designing this presence in each country should
       begin at post, tailored to local needs, and coordinated with the relevant Department
       bureau. The commission advocates the founding of a federally funded research and
       development center to support the task of analyzing the overseas requirements for
       this presence.

           According to the report, the current Department construction program for
       diplomatic facility replacement needs to be continued. Embassies and consulates
       must be modern, safe, and functional places to work. Locations remote from urban
       centers should be avoided wherever possible, balancing the needs for diplomatic
       engagement and outreach against the need to manage security risks.
       8  The Center for Strategic and International Studies (Cochairs George L. Argyros, Marc Gross-
       man, and Felix G. Rohatyn), The Embassy of the Future (Washington, DC: CSIS Press, 2007).Center



28 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     As the Department, OBO, and DS look to the infrastructure of the embassy of
the future, they must ensure that security best practices formulated over the last eight
years are not diluted. The capital security projects being built today using the SED
criteria represent a security model that should be viewed as best practices for our
missions abroad as they effectively integrate existing Overseas Security Policy Board
security standards with post’s operational, procedural, and personnel security require-
ments. Weekly risk management meetings among OBO and DS personnel provide
an appropriate venue for these discussions.

    As new initiatives are formulated to meet the vision of the embassy of the fu-
ture, risk assessments must be made to ensure that the lessons learned in the Inman
and Crowe reports are preserved. Alternately, security best practices must constantly
be reviewed against the ever escalating threats against our missions overseas and the
beneﬁts of new technology to counter the threats.

    The report raises philosophical as well as operational questions about the con-
duct of U.S. diplomacy in an insecure environment. Beyond the traditional settings
such as American Centers or Binational Centers, the report endorses the use of cir-
cuit riders and Virtual Presence Posts where appropriate. OBO has taken the lead in
contemplating the future American physical diplomatic presence. It is essential that
senior Department leadership weigh in and guide the decisions that must be made.

   Recommendation 7: The Bureau of Overseas Building Operations, in coor-
   dination with the Bureau of Diplomatic Security, should document and include
   the security best practices into the infrastructure of the embassy of the future.
   (Action: OBO in coordination with DS)



Environmental Security Program - Chem/Bio
Threat Protection

    One of the most insidious yet understated threats against our overseas mission
has been the specter of a chemical, biological, or nuclear attack. DS and OBO joint-
ly developed environmental security design guidelines and briefed the Under Secre-
tary for Management on February 11, 2000. The Under Secretary concurred with
the proactive design efforts to address evolving concerns regarding terrorist activities
for new ofﬁce buildings. At that time, OBO was pioneering new technology.

    In 2005, OBO conducted an exhaustive top level risk management review of the
environmental security program, which included threat assessments from DS. The
consensus to continue OBO’s environmental security efforts was conﬁrmed in a risk


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   29 .


                        SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




       management report dated June 2005. Last year the National Research Council of the
       National Academies for Science and Engineering published a comprehensive report
       on building protection against chem/bio threats and endorsed the methodology in
       OBO’s design as the optimal passive protection system using today’s available tech-
       nology. 9

            In 2007, the previous OBO Director was provided detailed documentation indi-
       cating that the environmental security design for chem/bio protection required less
       than one percent of building space and less than one percent of ﬁrst costs for new
       SED projects. PE originally estimated the annual operational costs for environmen-
       tal security, including ﬁlter replacements and the additional fan energy required by
       chem/bio air handling units, at less than one percent of typical SED building operat-
       ing expenses (BOE). However, the Planning and Development Division estimates
       that for 2007 projects, the space required added four percent to the building area
       (rather than one percent) and added 1.4 percent to operational costs for the ﬁrst year,
       and that life cycle costs will be signiﬁcantly higher.

           The OIG team applauds OBO’s innovative effort in the environmental security
       protection suite for NECs and believes that building environmental security should
       be addressed in the Overseas Security Policy Board security standards (12FAH-6).

           Recommendation 8: The Bureau of Overseas Buildings Operations, in coor-
           dination with the Bureau of Diplomatic Security, should validate the environ-
           mental protection requirements for new embassy compounds and then codify
           them into the Overseas Security Policy Board security standards. (Action:
           OBO in coordination with DS)




       9   National Research Council, Protecting Building Occupants and Operations for Biological and Chemical
       Airborne Threats, June 2007.


30 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                       SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




      IMPROVING PROJECT DESIGNS AND ADDRESSING
                 CUSTOMER CONCERNS



    Over the years the SED has evolved and matured. There are three principal
mechanisms to make changes to the SED: Post Occupancy Evaluations (POE),
Lessons Learned, and Standards Change Requests (SCR). In addition, OBO meets
regularly with regional and functional bureaus to address areas of concern including
changes to the SED or post speciﬁc modiﬁcations. Individual posts may also reach
out to OBO staff or to the Director.

    In FY 2002, the ﬁrst NEC contracts were awarded under the CSCP, creating the
“SED class of 2002.” The SED was envisioned as an evolving, not static, design.
Each year adjustments are made to the design, so that each “SED class” after 2002
reﬂects modiﬁcations based on practical experiences with the prior design class. Be-
cause of normal construction schedules, the ﬁrst SED posts did not take occupancy
until mid or late 2005. OBO generally waits until a NEC is occupied for a minimum
of 12 months before conducting an assessment of building functions to consider
possible changes to the standard design.

    Adding together normal planning, budgeting, and contracting schedules, plus the
building break-in period means that it could take anywhere from two to eight ﬁscal
years before a speciﬁc project might produce a proposed change to the SED process
or design.

Post Occupancy Evaluations

    In 1993, OBO’s predecessor, the Ofﬁce of Foreign Buildings Operations, adopt-
ed the industry standard POE process to evaluate newly constructed and occupied
buildings. The POE program has shifted between PE and PRE and is now managed
by the Standards Maintenance Branch of Planning and Development (PRE/PDD/
SMB) as part of the SCR process cited below. Between 1993 and December 2007,
25 POEs were produced.

     POEs evolved from exhaustive reports based on ﬁndings of large teams that
visited post more than a year after occupying a new building to a combination of
actual POE visits to post by a smaller team of experts and virtual or electronic POEs
whereby information is collected electronically via a questionnaire from a selection

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   31 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       of post users (including the management ofﬁcer, facilities manager, and regional
       security ofﬁcer). A POE typically takes place between 12 and 18 months after oc-
       cupancy. As currently structured, the POE does not solicit post-initiated lessons
       learned cables transmitted within months of occupancy, nor does it incorporate such
       voluntary submissions into the POE products. In fact, some in OBO regard these
       voluntary submissions from post as not helpful or useful to the internal SCR process.

           The current POE process is designed to focus inquiries on technical disciplines,
       which may result in improvements to the SED or SED processes that will decrease
       costs or increase functionality for the same cost. The end product is shorter, a Pow-
       erPoint presentation, which is delivered to the OBO front ofﬁce within 45 days of
       completion of the POE process.

       Lessons Learned

           Initially, OBO/PE handled suggestions, comments, and complaints from PDs,
       contractors, and NEC occupants without a formal structure in place for noting, as-
       sessing, and accepting suggested improvements to the SED. In August 2004, OBO
       formed a Lessons Learned Committee to weigh possible changes to the SED gath-
       ered from a wide range of sources (including, but not limited to, PD reports, post-
       generated lessons learned cables, bidder inquiries, industry best practices, and new
       industry technologies and processes). The committee members represent a cross-
       section of OBO technical expertise; during their weekly meeting, they vet possible
       changes to the SED.

       Standards Change Request

           In 2006, the SCR process was established in PRE to bring discipline and trans-
       parency to the SED modiﬁcations. The previous Director of OBO required that
       modiﬁcations and SCRs reduce costs or have a “no cost” effect; changes that might
       have been cost efﬁcient in the long run but required higher initial funding were
       generally not considered unless required by changing security requirements. The
       previous Director personally authorized every single change to the SED. The cur-
       rent SCR process appears to be successful as the sole means for changes to be
       incorporated into the SED. Since 2006, out of approximately 120 SCRs, more than
       40 changes to the SED were approved.

           Unlike lessons learned in PE, SCR does not have a standing committee to evalu-
       ate proposals. It must assemble technical experts for each new proposal, a difﬁcult,
       time-consuming process.


32 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    During the course of the inspection, OBO senior leadership determined that the
SCR process would better support the evolution of the SED by moving it from PRE
into PE. This change was being formalized as this report was written. The OIG
team supports this move.

Improving Future Projects

     OBO was correct to create a system to assess technical changes to the standard
embassy design. There does not seem to be a similar system in place to gather and
assess a broader range of project-speciﬁc lessons learned which could be adopted
quickly into existing NEC projects or in the upcoming ﬁscal year’s NEC RFPs. As
it currently exists, the SCR process appears to focus narrowly on approving changes
to standard embassy designs and not on the overall process of gathering, evaluating,
and implementing lessons learned whether they be technical speciﬁcation changes,
SED design changes, site speciﬁc requirements, or contractual and administrative
RFP changes.

    OBO receives information from a wide range of sources which could contribute
to streamlining and improving the whole CSCP: contract amendments issued before
award; numerous changes noted in contract modiﬁcation ﬁles; contractor sugges-
tions; feedback from the project designers of record; project completion reports
submitted by PDs; post generated cables on best practices; and practical observa-
tions by the Bureau of Consular Affairs, the Ofﬁce of Medical Services, and other
agencies with ofﬁces in the new NECs and SEDs. These suggestions are addressed
piecemeal, creating a costly cycle of repeated problems. Improvements to the con-
tract documents and the RFP need to be reviewed and incorporated into the subse-
quent contracts with greater speed.

Working Groups

    OBO uses an increasing number of working groups to communicate internally
and externally on a wide range of issues and subjects. There appears to be little
communication among these working groups. There also seems to be no effective
way to track the work of individual groups to coordinate, integrate, or mediate their
efforts.

   Among the external working groups, the most effective are those on intelligence
and security. The likely reason for the success of the groups is the presence of
experts working full-time at OBO headquarters. This report is not suggesting that
other bureaus and agencies such as Consular Affairs, the Ofﬁce of Medical Services,


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   33 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       the U.S. Agency for International Development, or the Department of Homeland
       Security detail technical experts to OBO. They do not have the staff or the technical
       expertise.

           OBO, however, does have the staff and the expertise which could work full time
       as a liaison with other bureaus and agencies to incorporate their needs and sugges-
       tions into the overall SED/NEC process. The staff could be consolidated into a
       new or existing ofﬁce and would function as the single point of contact responsible
       for communicating suggestions, issues, and concerns from other bureaus and agen-
       cies to the appropriate OBO action ofﬁces and to internal working groups. As such,
       this ofﬁce would ultimately be accountable for ensuring that other bureaus’ and
       agencies’ needs were understood and met by OBO or, in the case where the speciﬁc
       needs could not be met, a mutually understood explanation would be offered.

           Instead of multiple external working groups, OBO should initiate one multibu-
       reau, multiagency working group that meets annually or semiannually. During the
       meeting, OBO would brief participants on the status of Capital and Non-Capital
       Construction projects, schedules, and budgets. OBO should be prepared to receive
       suggested changes in advance of the meeting and explain to the group why changes
       can or cannot be accommodated. Non-OBO participants should be authorized by
       their respective bureaus and agencies to accept, reject, or negotiate offers or sugges-
       tions by OBO during the meeting.

           Internally, OBO’s working groups are not organized by discipline (e.g., architec-
       ture, space planning, security, maintenance, IT, etc.) to initiate, vet, and suggest for
       approval, changes to the standard embassy design, as well as overall system improve-
       ments.

          Recommendation 9: The Bureau of Overseas Buildings Operations should
          streamline the number of internal and external working groups under a single
          uniﬁed coordinating ofﬁce to address current and future construction issues.
          (Action: OBO)


          Recommendation 10: The Bureau of Overseas Buildings Operations should
          establish a nimble, time-sensitive process which solicits comments from agen-
          cies, bureaus, and posts; documents short- and long-term suggestions; and
          expeditiously incorporates those comments and suggestions into changes and
          improvements to the overall Capital Security Construction Program. (Action:
          OBO)




34 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



         COMMISSIONING OF CAPITAL CONSTRUCTION
                       PROJECTS



     According to OBO’s stated policy, commissioning provides a comprehensive,
systematic process for verifying that a facility performs according to the design
intent, is operationally efﬁcient and maintainable, and meets safety goals and security
requirements. Commissioning entails the organization and control of the activities
required to ensure that the transition period between completion of construction
and occupancy will proceed without delay and will result in a complete and usable
facility that meets all functional requirements. Commissioning activities begin at the
project contract award and continue until the expiration of the one-year warranty
period of the operation and maintenance phase.

     Nevertheless, commissioning of a NEC project has different meanings and
expectations for various OBO ofﬁces, the post recipient of the NEC project, and
stakeholders within the Department and other foreign affairs organizations. The
formal commissioning process that resides within the CC Division’s Technical Sup-
port Branch primarily addresses commissioning elements within the construction
contract. Project executives, within the CC Division’s regional branches, view com-
missioning as the coordination of activities to achieve security accreditation and
ultimately a certiﬁcate of occupancy. The project executives also work to coordinate
and schedule commissioning elements from other OBO ofﬁces such as ﬁre, security
management, and the security engineering branch as well as other government enti-
ties that perform work within the NEC.

     The commissioning process must reﬂect the broader sense of the program. The
post, the ultimate customer of the OBO construction project, considers commis-
sioning to mean that the project is complete and all systems (including communica-
tion, computers, technical security systems, etc) are installed and operational. In
addition, all training of post personnel has been satisfactorily completed and all spare
parts and documentation required by the contract have been turned over to post.
Currently, all commissioning activity oversight, responsibility, and documentation
primarily reside with the PD in the ﬁeld, who must satisfy all commissioning expec-
tations. The following list demonstrates the wide-range of activities associated with
getting a project from the point of substantial completion to ready for occupancy.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   35 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Commissioning Activities Generally Included
       in New Embassy Compound Projects
       (Abbreviated List from New Embassy
       Compound Accra)
       •   Commissioning agent participation in design reviews
       •   Commissioning agent reviews contractor maintenance training
       •   Spare parts, manuals and equipment turnover
       •   As-built drawings and other project documentation
       •   Final ﬁre pump and ﬁre alarm inspection testing and certiﬁcation
       •   Telecommunications cable testing and certiﬁcation
       •   Permanent technical security systems inspection and certiﬁcation
       •   Physical security systems inspection and acceptance
       •   Elevator inspection and certiﬁcation
       •   Building electrical systems acceptance
       •   Commissioning post generators
       •   Furniture and furnishings installation inspection and acceptance
       •   Special construction ﬁnal inspection and testing
       •   Telephone system testing and acceptance
       •   DS accreditation
       •   Mechanical systems testing and certiﬁcation
       •   Building Automated System commissioning
       •   Communication antenna and equipment installation and testing
       •   Prime mission equipment installation and testing
       •   Public Affairs TVRO and CNN Antennas installation and testing
       •   Classiﬁed local area network installation and testing
       •   Unclassiﬁed local area network installation and testing
       •   Maintenance plan (Work Order for Windows (WebWOW) Database)
       •   Completion of punch list items
       •   Occupation planning by post


           The commissioning activities of a NEC project are the most commonly dis-
       cussed and maligned issue from the posts’ perspective as reported in OIG’s world-
       wide survey and inspection reports. Posts have criticized non-operational equip-
       ment; long punch lists that impeded post operations; lack of training for post per-
       sonnel; and lack of documentation, spare parts, and specialized maintenance tools.
       Quality of construction and workmanship has also been noted.

           The CC Division has attempted to improve the commissioning effort. OBO
       has initiated an independent commissioning independent delivery-indeﬁnite quantity
       contractor program that works for, and reports directly to, OBO for the FY 2007
       capital projects. This new OBO initiative is in line with industry best practices.

36 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    The commissioning ﬁrm is to provide support to OBO in commissioning and
turnover of the construction project through the commissioning agent at the con-
struction site and through the commissioning ﬁrm’s corporate or subsidiary ofﬁce.
The commissioning agent is to be a part of the OBO PD’s site team. The PD is the
primary point of contact at site; in Washington it is the OBO COR for the contract.
The commissioning agent is to participate in the independent review of the design
to be prepared by the design-build contractor and will coordinate with the project
executive of the CC Division. Preliminary data suggests that the independent com-
missioning agent program, working directly for OBO, has merit and should be con-
tinued. However, Washington oversight of the ﬁeld activities of the commissioning
agent should be strengthened.

Need for Greater Accountability at Bureau of
Overseas Buildings Operations Headquarters

    The commissioning process, in the broad sense, is not comprehensively moni-
tored or documented in Washington. There is no single ofﬁce or person responsible
for overseeing the PD’s progress in commissioning activities and producing a com-
prehensive report for OBO management on these activities. Presently, individual
disciplines inspect and accept their systems and provide the results directly to the PD
for action. In addition, the inspection individuals or teams write trip reports upon
return to Washington that include the results of their work. The trip reports are not
uniformly circulated within OBO and do not form the basis of a consolidated com-
missioning tracking and compliance record. Follow through on project issues from
these commissioning trips is left in the hands of the PD. Compliance reports from
the PD are not required to close the loop on identiﬁed issues. Certain life safety
issues or security accreditation deﬁciencies are more aggressively tracked because of
code or statutory requirements and are the exception. However, it was noted that
the accreditation punch list items for the recently completed and occupied NEC in
Panama were not done and a followup trip to post is scheduled to revisit the issues.
OBO has since begun a more aggressive followup to punch lists and accreditation
issues on new projects.

    OBO has acknowledged commissioning problems and completed MOU be-
tween CC and FAC signed by both division chiefs in December 2007. The MOU
was entitled, “Embassy Capital Security Construction Program Building Turnover
and Warranty Administration.” Its stated purpose was to clarify the responsibilities
of each party (CC and FAC) related to building turnover and warrantee management
issues as related to the capital construction program. The fact that two divisions
within OBO believe that an MOU is needed clearly demonstrates more oversight and
accountability over commissioning activities is needed.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   37 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          A Washington-based program, under the direction of the project coordinator,
       would facilitate coordination of all commissioning activities for a given project, cul-
       minating in a comprehensive report before the certiﬁcate of occupancy is requested.

          Recommendation 11: The Bureau of Overseas Buildings Operations should
          establish a comprehensive Washington-based program to coordinate, monitor,
          and document commissioning activities for all trades and activities associated
          with a construction project. (Action: OBO)




38 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                           PROJECT DOCUMENTATION



     Project documentation from planning to commissioning is extremely difﬁcult
to obtain. Documents are not systematically recorded or ﬁled, and historical docu-
mentation in many cases has been lost. Each OBO ofﬁce tends to save electronic
media ﬁles in its own way without agreed upon naming conventions for folders and
ﬁles. CC division personnel primarily use the OBO shared drive to maintain their
information; however, each ofﬁcer tends to maintain data differently. The Planning
and Development ofﬁce primarily uses OBO’s DataStor database to store much of
its project information, but the data stored does not conform to uniform naming
and ﬁling conventions. Building Management Information System (BMIS) is used
for a variety of purposes such as tracking the SCR program. Documentation neces-
sary to track changes in project scope, funding, and stakeholder’s requirements and
comments is lacking. BMIS is not available to stakeholders outside of OBO. The
one notable exception is the information placed on ProjNet, which is available to all
persons who require project information.

    Historical documentation of hardcopy material within CC is also in disarray.
While a storage area exists within CC, documents including designs are not stored
in an organized and systematic manner. Similar to electronic media ﬁling, project
executives store their hardcopy documentation in a manner to their own liking.

    OBO Link is another database project created by OBO. The OIG team’s effort
to gain access to OBO Link to conduct research for their case studies was hampered
by log-on issues that took several months to resolve. However, when access to OBO
link was ﬁnally established, the results were disappointing. While the system was set
up with many subject folders within country folders, there was very little data stored
on the system. The information was not useful in conducting the case studies. In-
terviews with OBO employees indicated that they do not routinely use OBO link to
store data.

    Much of the capital construction project documentation is maintained by PDs
in the ﬁeld. This documentation, especially for commissioning, is not duplicated in
Washington ﬁles; but is turned over to post at the completion of the construction
project by the PD. Project sites are not routinely provided unclassiﬁed and classi-
ﬁed local area network access. Providing the onsite project management team direct
computer access would facilitate the rapid exchange of data necessary for headquar-
ters oversight.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   39 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           PDs are required to complete a comprehensive project completion report at the
       end of their project. A review of these reports for the case studies showed that they
       range from poor to exceptional. Some reports contain extensive lessons learned
       information, PDF documentation on project modiﬁcations, and commissioning data.
       Some reports are prepared late. The report for Embassy Belmopan, a NEC project
       completed over a year ago, was recently forwarded for review in draft.

          Recommendation 12: The Bureau of Overseas Buildings Operations should
          establish and enforce a project documentation database that provides essential
          information from planning to commissioning in a readily retrievable format.
          This information should be made accessible to personnel within the Bureau
          of Overseas Buildings Operations and other State Department entities that
          require the information in a read-only format. Key documentation presently
          maintained only by the PD in the ﬁeld should also be archived to this database.
          (Action: OBO)


          Recommendation 13: The Bureau of Overseas Buildings Operations should
          establish a mandatory outline for a comprehensive Project Director’s project
          completion report with an appropriate deadline for completing the report. (Ac-
          tion: OBO)




40 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



        OPERATIONS AND MAINTENANCE FOR NEW AND
                   EXISTING FACILITIES



    The mission of the Operations Directorate is to serve as an overseas post’s point
of contact within OBO and to provide services and funding for the operation and
maintenance of existing overseas facilities. During the inspection, the Director Ad
Interim proposed and the Under Secretary for Management approved a reorganiza-
tion which will move the Facility Management function and related maintenance
funds (7901) from the Operations Directorate to the Project Execution Directorate.
This realignment was designed to ensure that the Department’s investment in NECs
is protected by proper maintenance and to improve coordination and transparency
within OBO and among client bureaus. OIG reviewed the following functions:
    •    Area Management (AM)
    •    Facilities Management (FAC)
    •    Safety, Health and Environmental Management (SHEM)
    •    Fire Protection
    •    Art in Embassies

Area Management

    The Ofﬁce of Operations Area Management Division serves as the primary
contact with overseas posts for customer service support, relaying OBO’s message
to the ﬁeld and posts’ facilities concerns to OBO. It also manages the budgets for
leasehold, routine maintenance, special maintenance and improvement, and major
repair accounts. (1 FAM 285.1 details AM’s role in OBO.) The role of AM has been
decreasing in recent years and FS personnel no longer view an assignment there as
desirable. The Director Ad Interim recognizes this and is attempting to reinvigorate
the function.

    A total of 123 responses were received from OIG’s worldwide survey. The great
majority rated AM services favorably (from satisﬁed to extremely satisﬁed) and four
posts singled out speciﬁc AM ofﬁcers for special praise. Many said that communica-
tions with AM were excellent and the support that the ofﬁce provided was helpful
and constructive. Four posts pointed appreciatively to instances when their AM ofﬁ-
cers advocated on their behalf for much needed special projects and funding. Seven
posts were critical. One complained that its AM ofﬁcer dragged his feet on a special

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   41 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       project at the deputy chief of mission’s residence, recommending instead small, less
       costly, and less effective cosmetic repairs. Another criticized its AM ofﬁcer for be-
       ing unreachable and unresponsive to e-mail and other queries, and complained that
       information from that ofﬁce is sometimes contradictory. Because of constant staff-
       ing changes in AM, one post described AM as “totally incompetent.” A hardship
       post felt strongly that its AM ofﬁcer constantly questioned its requests and dodged
       answering its questions. It complained that routine maintenance and repair (M&R)
       funding was sent late and only after multiple requests.

            Several posts expressed frustration with AM’s chronic shortage of funding and
       its inability to fund special projects. Many posts had given up submitting requests
       for routine maintenance and repair to U.S. Government-owned or long-term leased
       properties (commonly referred to by its budget function code of 7901) or for special
       projects (commonly referred to by its budget function code of 7902) because they
       believed they would not be funded. The lack of resources to assist posts is likely a
       key reason that the AM function has diminished.

           AM was once a key player and had a very inﬂuential role in dealing with overseas
       posts. The division historically served as OBO’s primary link with embassies and do-
       mestic regional bureaus, and enjoyed a very favorable reputation for embassy advo-
       cacy and astute managerial and operational effectiveness. FS ofﬁcers coveted assign-
       ments as AM ofﬁcers because of the nature of the job and the increased prospects
       for desirable follow-on assignments. AM ofﬁcers played a central role in managing
       their posts, controlling resources, and clearing or approving any actions proposed
       for their posts. This decade, however, their roles and inﬂuence waned. Contributing
       factors included a marked decline in the previous Director’s engagement with and
       interest in AM, prolonged stafﬁng gaps, and chronic funding shortfalls in unheeded
       maintenance and repair accounts.

           OBO senior management recognizes that AM must be more assertive in plan-
       ning and managing post support. 1 FAM 285.1(3) requires that AM be OBO’s
       primary contact with posts. The Director Ad Interim reopened lines of communi-
       cations to the regional bureaus and encouraged several seasoned veterans to accept
       assignments to AM. To underscore AM as the primary point of contact for handling
       support, issues and concerns, he directed that AM be consulted and included in all
       issues concerning post support and whenever actions are contemplated at any over-
       seas post. AM is also to be included for clearance on all outgoing cables and on all
       communications with the Director. OBO is attempting to elevate the director of the
       Operations Directorate to the Principal Deputy Assistant Secretary, thereby elevat-
       ing the AM function within the bureaucracy. This may make the positions somewhat
       more desirable from a FS perspective.


42 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Safety, Health and Environmental Management

    The Safety, Health, and Environmental Management (SHEM) Division plans,
coordinates, and administers the Department’s overseas safety, health, and environ-
mental management program, including policy development, program audits, train-
ing, environmental health and safety hazard identiﬁcation, and investigation of major
accidents, injuries, and environmental incidents. The majority of posts found SHEM
personnel to be responsive, helpful, and knowledgeable on their visits to posts.
Communications between SHEM and posts were rated excellent and support was
rated outstanding. Posts expressed appreciation for SHEM’s training programs, but
one post suggested that training times at post be shortened from a week to two days
to save money. One small post found SHEM requirements “somewhat onerous.” A
few posts noted that while SHEM requires fencing for pools, it fails to provide fund-
ing. One post complained that it was unable to get training for its Post Occupational
Safety and Health Ofﬁcer assistant. SHEM has not provided the bureau assistant
with training opportunities and will not allow the assistant to attend Post Occupa-
tional Safety and Health Ofﬁcer training seminars.

Fire Protection

    The Fire Protection Division (FIR) in OBO’s Operations Directorate is responsi-
ble for implementing the Department’s overseas ﬁre protection program, established
to reduce the loss of life and property caused by ﬁres at overseas facilities. FIR es-
tablishes ﬁre/life safety standards and policies, monitors and assists with maintaining
ﬁre protection systems, and replaces ﬁre alarm detection systems in principal build-
ings as needed. In general, post response to the support from FIR was rated from
good to excellent and lauded FIR’s training provided to posts. However, some posts
mentioned that many requests had not been answered or acknowledged in a timely
manner or they had considerable difﬁculty receiving promised ﬁre extinguishers. In
contrast, other posts speciﬁcally mentioned how responsive FIR has been to date.

    Previous management assigned ﬁre protection engineers from FIR to the Design
and Engineering Division. These engineers are responsible for design reviews of
NECs and the establishment of speciﬁcations for, and the commissioning of, ﬁre
suppression systems. During the commissioning process, the ﬁre engineers perform
their ﬁnal inspection of the ﬁre protection system to verify its compliance with the
contract documents and governing standards for system commissioning and accep-
tance. After completion of the inspection, the ﬁre engineers send a detailed report
of their ﬁndings to CC’s director. However, FIR, which is responsible for maintain-
ing ﬁre suppression systems after expiration of the systems’ one year warranty, had
not been included in the report distribution. As a result, FIR was unaware of the

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   43 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       problems described in the reports to OBO/PE/CC’s director, which would have
       provided FIR with helpful details of possible future problems.

           During the OIG inspection, the Director Ad Interim for OBO changed this pro-
       cess. FIR has now been tasked to take over the commissioning function and issue
       the ﬁnal system certiﬁcation. By moving the certiﬁcation from Design and Engi-
       neering Division to FIR, OBO is more in line with the way cities and municipalities
       work. In addition to this new responsibility, FIR has also been tasked to reinspect
       and recertify every ﬁre suppression system of all completed NECs to date. Once the
       reorganization is in effect, the ﬁre engineers in the Design and Engineering division
       of Project Execution will be involved in the original design of the ﬁre suppression
       systems, including the early stages of planning, to ensure that the designs are fol-
       lowed. FIR engineers will be involved with the project at the 50 percent construc-
       tion level and if any descoping takes place, that is, if any original requirements are
       eliminated from the project in order to stay within the budget.

       Required Fire Inspections Not Being
       Performed

           The OIG team was advised that because of funding limitations, FIR tries to
       schedule post inspections every three years. They would like to make it an annual
       inspection. The Department of Labor, Occupational Safety and Health Administra-
       tion regulations require that ﬁre extinguishers, sprinkler systems, and hose systems
       are inspected annually and ﬁxed semiannually. These requirements are contained in
       15 FAM 812.2 Fire Inspections. The FAM paragraph states that post management
       must periodically, at least annually, survey ﬁre protection and exit systems to ensure
       they operate and function as installed. FIR ofﬁcials stated that most posts only do
       minimal inspections because they do not have trained staff. According to OBO/
       FIR, post personnel conducting ﬁre inspections must be certiﬁed in ﬁre and life
       safety systems and have at least ﬁve years experience in the ﬁeld of protection. Also,
       the FAM does not require an annual report of the inspection nor does it specify that
       the inspections are to be accomplished by appropriately trained personnel.

          Recommendation 14: The Bureau of Overseas Buildings Operations should
          update the 15 FAM 812.2 Fire Inspection requirement to include that posts
          submit an annual report of ﬁndings for ﬁre inspection. (Action: OBO)


          Recommendation 15: The Bureau of Overseas Buildings Operations should
          perform ﬁre inspections at overseas posts annually using either appropriately
          trained post personnel or headquarters staff. (Action: OBO)


44 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Art in Embassies

     The Art in Embassies (ART) program plans and implements international,
cultural communications through the display of original American art in U.S. ambas-
sadorial residences, coordinating the selection, packing, and shipping of art work;
arranging for insurance; and monitoring worldwide exhibitions. Of those that
responded to OIG’s survey, the majority was satisﬁed with the program and charac-
terized it as professional, responsive, and helpful. However, one post complained
that ART had not consulted with it in placing art in the NEC. Another criticized the
lack of post input in selecting art pieces that it said were culturally inappropriate and
offensive. One suggested that Americans and Foreign Service Nationals at post be
consulted in choosing artwork for the NEC.

    The ART program is a valuable program that relates well to the interior furnish-
ings role that OBO plays, although some have suggested that the program ﬁts better
elsewhere, perhaps in Public Diplomacy.

Facilities Management

    The Facilities Management (FAC) Division of OBO/PE provides global support
in operating and maintaining the Department’s overseas facilities and facilities-re-
lated equipment at posts. FAC’s technical experts provide professional support for
the operational maintenance of overseas buildings. FAC does this by analyzing data
furnished by posts from the ﬁeld. FAC employs its maintenance expertise to perform
speciﬁc maintenance program planning and budgeting.

    Of those responding to OIG’s survey, the majority were satisﬁed with the pro-
gram. Posts were generally pleased with the support provided by FAC and felt the
division was responsive to their needs. There were, however, some dissenters (eight
posts). One post stated that FAC had not been supportive and was quick to point to
other OBO ofﬁces to ﬁnd solutions to post issues. Another said it was not satisﬁed
with FAC and stated that there seems to be a general inability to answer or return
emails sent by post. A hardship post recounted the difﬁculties in getting timely FAC
responses to its generator and uninterruptible power supply needs. Three posts
complained about the assignment of facilities managers to their posts, one calling
the process opaque. This process has now been devolved to the Ofﬁce of Career
Development and Assignments by the Director Ad Interim. Another described the
difﬁculties in dealing with the FAC ofﬁce previously responsible for FM assignments
and the long delays in getting responses. The post claimed that it got relief only




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   45 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       when the ambassador threatened to withhold country clearance for OBO personnel
       assigned to work on another post project. One post criticized the lack of support
       and visits by a regional FM.

            FAC is adequately staffed, but staff is not optimally distributed within the divi-
       sion. Some sections were underutilized, others without budgets supplied only spe-
       cialized manpower to support other branches, and some consist of only two persons
       to handle elevator problems worldwide. FAC suffers from a chronic shortage of
       funding, which limits its ability to respond to post needs. Nevertheless, FAC utilizes
       7901 and 7902 funding prudently and together with funding from other sources
       including International Cooperative Administrative Support Services (ICASS) and
       bureaus, delivers much needed services to posts. In one instance, the OIG team ob-
       served that FAC, working closely with AM, reacted swiftly and favorably to a request
       for emergency generators for South African posts totaling over $4 million. FAC also
       stepped in to bring together the contractor and CC to broker resolution of outstand-
       ing punch list issues in a NEC handover at another post.

           The Facilities Management Division provides posts with technical assistance and
       support for managing and maintaining diplomatic facilities abroad, including mainte-
       nance and condition inspections, preventive maintenance program development, and
       engineering and hands-on technical support. Major programs, with some contractor
       support, include roof and various building systems repair or replacement activities,
       electrical generating and conditioning equipment, elevators, and hazardous materials
       abatement.

            During interviews with FAC employees, the OIG team found universal unhappi-
       ness that FAC had been split from the rest of OBO and moved to a separate facility
       far from other parts of OBO with which it needs to interact regularly. The OIG
       team found low morale, and most employees felt marginalized and said the organi-
       zation treated them as second rate. In a widely applauded move, the Director Ad
       Interim has already decided to relocate the division back to OBO and has identiﬁed
       space within OBO to house them.

       Facilities Management Program

            The Facilities Management Program (FM) was established in 1991 and its aim
       is to place facility managers (FMs) on site at embassy and consulate compounds
       worldwide to maintain building systems and equipment in government-owned and
       long-term leased properties. Employed as direct-hire FS specialists, there are cur-
       rently 155 FMs assigned to 139 posts. Depending on the size of the post, the FM
       is supervised by either the management ofﬁcer or the general services ofﬁcer. The


46 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




FM program is required to ensure that an FM is assigned to a NEC six months prior
to and six months after the facility is commissioned. Unlike other FS ofﬁcers and
specialists whose positions are centrally funded, FM positions are funded by OBO.

    Entrance requirements are being strengthened at the present time. FM can-
didates must have an engineering degree or equivalent technical experience, and a
minimum of ﬁve years prior experience as an FM. Increasingly, OBO requires that
candidates also have signiﬁcant management experience. The OIG team heard
complaints from OBO employees and in interviews with the regional bureaus of
FMs who, while technically competent, lacked the necessary skills to manage a large
and sophisticated maintenance program in a diverse embassy environment. The
Director Ad Interim has undertaken a major effort to professionalize FMs. From a
managerial perspective, this makes sense to the OIG team. The Director Ad Interim
is working to assure that the facilities manager reports to the management ofﬁcer at
post. He is seeking to elevate them and maintenance issues to a higher priority at
post and is establishing through FSI a new and separate training program, identifying
regional responsibilities, and unifying several separate funding streams (as recom-
mended by GAO).10 His proposal includes exploring a new title for the facilities
manager specialist skill group 6217.

     The Director Ad Interim realigned the program from the Operations Directorate
to the Project Execution Directorate to enhance full life cycle facility from account-
ability in construction to decommissioning and to address issues that the OIG team
has also cited above.

     FMs will be required to undergo specialized training. Newly hired FMs cur-
rently attend only the 10-week general services ofﬁcer course as required training.
OBO will work closely with FSI and HR to develop a training continuum for FMs
to include an expanded offering. The reporting structure at post will be changed to
reﬂect that FMs are full members of the management team and report to the man-
agement ofﬁcer at posts as distinct from a technician reporting to the GSO. OBO
will provide more robust regional support in close collaboration with the regional
bureaus. And lastly, funding should be streamlined and uniﬁed so that the funding
stream can be easily identiﬁed and tracked as GAO had requested.11




10 GAO Report No. GAO-06-641, Embassy Construction; State Has Made Progress Constructing New
Embassies, but Better Planning Is Needed for Operations and Maintenance Requirements (June 2006), p. 42.
11 Ibid.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008         47 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       Regional Facilities Maintenance Support

           OBO has considered for a number of years the need to establish regional of-
       ﬁces to provide real-time facilities maintenance support to posts within a geographic
       region. The NEC construction over the past seven years and the complex build-
       ing systems being installed have made the requirement for support to the ﬁeld even
       more important. The establishment of regional support ofﬁces could provide vital
       assistance to posts without full-time facilities managers for operations and mainte-
       nance issues, special projects, emergency requirements, or the unanticipated absence
       of an assigned FM. As part of its operations and maintenance (O&M) program
       review, OBO and the regional bureaus are exploring the best way to provide appro-
       priate regional support for the Department’s real property assets. The decision must
       weigh the advantages of timely response from a regional location versus the cost of
       basing support overseas, as well as the full-time employees needed to staff the of-
       ﬁces. Contracting support is another proposed area being evaluated.

           OIG’s inspection of Embassy Abidjan noted that the Embassy did not have
       trained and qualiﬁed personnel to maintain the critical elements of the HVAC sys-
       tems.12 The post had to bring in a private contractor from South Africa for emer-
       gency repairs at a cost of about $9,000 per visit. OIG’s Abidjan inspection report
       recommended that the Bureau of Management, Ofﬁce of Management Policy,
       Rightsizing, and Innovation (M/PRI), in coordination with the Bureau of African
       Affairs and OBO, determine how best to fund and provide trained and qualiﬁed
       personnel who can maintain and repair critical infrastructure systems at Embassy
       Abidjan and other posts with NECs in Africa. In its response, M/PRI agreed that
       additional regional support would help Abidjan and other African posts manage and
       protect the signiﬁcant investment the Department has made in NECs on the African
       continent. M/PRI suggested, however, that the Bureau of African Affairs and OBO
       consider a regional maintenance contract, supplemented by Washington-based TDY
       support, before creating a U.S. Government-staffed regional support center in Abi-
       djan or elsewhere. Whichever option is chosen, it is clear that OBO must do more
       to support posts faced with operating and maintaining technically complex building
       systems at our new facilities. Posts in other regions, as well as AF, might be in need
       of similar assistance.

           The Bureau of Diplomatic Security has adopted the practice of using Regional
       Support Centers for maintenance and repair of security equipment at embassies and
       consulates. This has replaced the more costly use of security equipment mainte-
       nance and repair teams located in the Washington D.C. area and deployed to posts
       when problems arose. Regional Support Centers are staffed by foreign national-
       hired security technicians who are trained at the Diplomatic Security DS Training
       12   OIG report No. ISP-I-08-10A.
48 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




Center on all types of security equipment currently in inventory. This program is
highly successful and has saved money in terms of long distance travel and salaries.

      As the cost to operate and maintain the Department’s new facilities continues
to increase, it would seem logical that some of the Department’s share of the costs
associated with the actual maintenance of the building systems—such as preventive
maintenance and service contracts—be properly funded by OBO. The costs could
still be shared by all tenant agencies through International Cooperative Administra-
tive Support Services (ICASS), but OBO should shoulder the burden of budgeting
for and justifying the funding.

     Recommendation 16: The Bureau of Overseas Buildings Operations should
     develop and implement an action plan for how best to provide the training,
     preventive maintenance, and service support to posts in areas of the world
     where such support is not available to ensure that the facilities can be operated
     and maintained as intended, using cost sharing principles to the extent possible.
     (Action: OBO)



Planning and Budgeting for Operations and
Maintenance

     Because funding for overseas facility operations and maintenance comes from
multiple sources outside of OBO’s control (ICASS, the bureaus, and other agencies),
it has been difﬁcult to determine accurately what it costs to operate and maintain the
Department’s facilities overseas. As recommended by the GAO and agreed to by
the Department, an integrated comprehensive facilities plan that clearly speciﬁes the
ﬁnancial and human resources for meeting the immediate and long-term operations
and maintenance requirements of the Department’s overseas facilities is essential.13
Absent articulated requirements, appropriate funding cannot be justiﬁed. The multi-
billion dollar investment in our facilities overseas is being put at risk.

    Costs to operate and maintain U.S. Government facilities overseas are shared by
the regional bureaus through their Diplomatic and Consular Program appropriation,
by the tenant agencies through ICASS, and by OBO through its Embassy Security,
Construction and Maintenance appropriation. While all of these costs are often
lumped together as operations and maintenance, they fall in to two separate catego-
ries—BOE and M&R.

13 GAO report No. GAO-06-641, Embassy Construction, State Has Made Progress Constructing New
Embassies, but Better Planning Is Needed for Operations and Maintenance Requirements (June 2006).



OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   49 .


                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




           In June 2006, the GAO report assessing OBO’s progress in constructing NECs
       concluded that OBO did not have a system in place to identify the operations and
       maintenance funding requirements for these new facilities.14 The focus of the re-
       port was on the day-to-day operations costs of the NECs, the bulk of which are not
       OBO’s responsibility. The report did not address the larger issue of maintenance
       and repair of existing legacy facilities. While OBO has made some progress in esti-
       mating and tracking BOE for the NECs, it has not yet devised a comprehensive plan
       to identify total O&M requirements for all of its overseas facilities.

       Regional Bureau and International
       Cooperative Administrative Support Services
       Responsibilities

           BOE, funded by all tenant agencies through ICASS for shared facilities, or the
       regional bureaus for Department facilities, are those costs associated with occupying
       a facility. They include maintenance staff salaries, utilities, fuel, custodial services,
       trash collection, and grounds care, among other things (15 FAM 121). Preventive
       maintenance service contracts for the building systems are also considered part of
       BOE.

           The GAO report pointed out that although the Department did not initially rec-
       ognize the impact and magnitude of new costs for the day-to-day functional require-
       ments of NECs, OBO subsequently developed guidance for posts and their ICASS
       councils to help determine the notional stafﬁng and ﬁnancial resources required.
       For NECs that are scheduled to open during a particular budget period, OBO now
       provides estimates of BOE costs to the regional bureau for use in preparing their
       budgets.

           According to OBO, the methodology and accuracy of its BOE estimates are of
       great interest to the Ofﬁce of Management and Budget (OMB). Concerned about
       the variances between the estimated and actual costs, OMB has directed the Depart-
       ment to submit a plan to improve estimates of BOE costs for the NECs. OBO is
       working with the regional bureaus, the ICASS Service Center, and the Bureau of
       Resource Management, Ofﬁce of Budget and Planning to develop consistent ways to
       record, track, and report BOE costs. A current review is focusing on ways to im-
       prove upon the process and to compare the estimates of BOE with actual costs once
       they are determined. Several options are being considered to increase transparency,
       standardize budgeting and reporting, and ensure that BOE requirements for the
       NECs are fully funded. Some consideration is being given to transferring the main-
       14   Ibid, , p. 3.



50 .             OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                            SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



tenance portion of BOE funding responsibility to OBO, to consolidate all O&M
costs under one bureau and appropriation.

Resource Requirements for Maintaining
Properties Are Vastly Understated

    The Department’s inventory of overseas Government-owned and long-term
leased facilities includes more that 17,000 properties valued at more than $14 billion.
Additionally, OBO will add more than one billion dollars worth of new construction
per year for the next nine years. Yet the amount received for M&R for all Depart-
ment facilities worldwide has averaged about $100 million annually, only recently
approaching $150 million in FY 2008. Although OBO’s FY 2010 budget request
contains substantial increases for M&R funding, there is no system in place to ensure
that immediate and long-term maintenance needs are being met or that adequate
funding is being sought.

    OBO has begun work on a Long-Range Overseas Maintenance Plan to improve
maintenance of the Department’s overseas facilities. The draft plan projects O&M
costs over a six-year planning cycle using the Department’s adaptation of the De-
partment of Defense Facility Cost Model. This model uses industry maintenance
cost factors, together with area cost factors that have been developed by the Depart-
ment of Defense and supplemented where needed by the Department. The Depart-
ment of Defense model develops cost estimates in three categories: facilities sustain-
ment, operations, and modernization. The ﬁrst iteration of this model demonstrated
a vast discrepancy between the Department’s FY 2008 budget ($440 million) and the
model’s total projections in the three categories ($1,960 million).

    The Department of Defense facility cost model’s levels of funding do not corre-
spond to any of the current funding matrixes. The three categories do not segregate
BOE and M&R costs in the same way as the Department does. For example, the
sustainment model mixes service contracts—a BOE expense—with M&R. The op-
erations model includes many components of BOE (utilities, grounds maintenance,
and water) but also includes ﬁre protection and leases, which are OBO costs. Lease
costs are neither BOE nor M&R, but an entirely separate OBO account.

    In order for the Long-Range Overseas Maintenance Plan to be a useful tool for
planning and budgeting for O&M costs, the Department of Defense model will have
to be modiﬁed to make it compatible with the Department’s funding structure and
processes. The OBO working group has recognized this problem and has recom-
mended that a study be undertaken to identify the modiﬁcations necessary to make it
compatible with the Department’s O&M funding structure.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   51 .


                        SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       Recommendation 17: The Bureau of Overseas Buildings Operations should
       develop and implement a system for accurately identifying the costs of operat-
       ing and maintaining new embassy compounds and legacy properties and then
       budget accordingly. (Action: OBO)




52 .       OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                 SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                   HUMAN RESOURCES MANAGEMENT



    OBO has suffered from longstanding weaknesses in human resources (HR) man-
agement due, in part, to an underperforming and understaffed HR section. The situ-
ation has been exacerbated by frequent OBO realignments over the past ﬁve years,
with stafﬁng and structural changes sometimes implemented before HR actions were
requested or completed. Further, the HR situation was aggravated by poor man-
agement skills among some OBO supervisors and managers. The ineffective HR
system resulted in inefﬁcient operations, low staff morale, and Equal Employment
Opportunity issues. The frequency of claims has further stretched the HR resources
while adding to the workload. The new HR director is aware of the challenges and,
with the support of the Director Ad Interim, is working to address them.

Challenges Within the Human Resources
Ofﬁce

     Some problems were directly the result of factors inside the HR ofﬁce. The
ofﬁce itself was understaffed, with around seven vacancies during this inspection.
Some of the existing staff did not have necessary skills, such as position classiﬁca-
tion and database maintenance. They were unable to provide adequate and timely
help to managers. Many OBO employees said that the ofﬁce was not service orient-
ed, possibly a result of the workload. In 2006, the Department’s Bureau of Human
Resources reviewed OBO’s HR operations and made 20 recommendations that HR
is in the process of implementing.

     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   53 .


                        SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



       Challenges from Realignments

           Currently the most signiﬁcant HR problem is the backlog in ﬁlling vacancies.
       Many vacancies are the result of realignments. As these frequent changes demanded
       more HR involvement, the backlog grew. This was the situation during the inspec-
       tion. In the Planning and Real Estate ofﬁce (previously Planning and Development),
       there were at least four realignments between 2002 and 2008. (b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)


           When the current director of HR arrived about a year ago, there was a backlog
       of around 170 vacancies. After one year of effort, the number was down to about
       110. Not all the delays are under the control of HR. OBO management told the
       OIG team that HR does not have full delegation to process all personnel actions and
       has to rely on resources in other bureaus to complete many personnel actions such
       as GS-14 and GS-15 classiﬁcation, and Employee Relations actions. There is also
       signiﬁcant lag time before HR staff members are given access to HR automated sys-
       tems. These lags are detrimental to the processing of personnel actions and meeting
       established deadlines.

          In interviews and responses to questionnaires, numerous employees told the
       OIG team that many OBO managers lacked the skills to deal with HR procedures
       and employee problems. Because HR was understaffed and lacked skills itself, the
       OBO managers were unable to turn to HR to resolve personnel issues. (b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


          During some periods, half of the HR director’s time is spent on complaint pro-
       cedures. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)



54 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                        SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Miscellaneous Human Resource Issues

    The OIG team reviewed a sample of personnel folders and position descrip-
tions. Some position descriptions were out of date or inaccurate. One had not been
changed for 18 years. One showed that for a person not currently supervising any-
one, 40 percent of the job was supervisory. The OIG team found that some people
with supervisory positions had no staff and some people without formal supervisory
duties did supervise staff. Supervisory lines and responsibilities needed to be clari-
ﬁed and codiﬁed. In addition, some employees stated they had not received perfor-
mance evaluations for 2006 and 2007.

     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)


    The OIG team heard allegations of irregularities in tracking employee time and
attendance. The OIG team made an informal recommendation that all timekeepers
should be trained on the automated time and attendance system and that managers
should be trained in order to fulﬁll their oversight responsibilities.

Ongoing Improvements in Human Resources

    OBO managers and staff universally applauded the efforts of the current HR
director for beginning to correct long-standing deﬁciencies, which may take years. A
good start was the establishment of four HR specialist contractor positions in June
2008, intended to reduce personnel action backlogs and update personnel classiﬁca-
tions, personnel ﬁles, and data bases. The OIG team considers it essential that HR
follow through on these varied initiatives.

    HR acknowledges the need to improve the professional, technical, and customer
service skills of its staff. The HR director is focused on ﬁlling vacancies in the HR
section, with a top priority of ﬁlling OBO vacancies. The HR director plans to in-


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   55 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       stitute a system to track vacancies and pending personnel actions. Such a system will
       remind managers of deadlines for performance evaluations. HR also plans to write
       standard operating procedures (SOPs) and manuals, including award policies which
       are being written to mirror the Department. The ofﬁce is working to ensure that
       all managers and supervisory personnel get training appropriate to their grade and
       responsibilities in such areas as communications, team building, and organizational
       skills, in addition to the previously mentioned Equal Employment Opportunity train-
       ing.

          Recommendation 18: The Bureau of Overseas Buildings Operations should
          continue working to eliminate Human Resources backlogs of personnel actions.
          (Action: OBO)


          Recommendation 19: The Bureau of Overseas Buildings Operations should
          continue working to fully staff the Human Resources ofﬁce and ensure that all
          staff receives the training and resources to perform their duties. (Action: OBO)


          Recommendation 20: The Bureau of Overseas Buildings Operations should
          develop and begin implementing a plan to review and rewrite for accuracy the
          position descriptions of direct hire staff. (Action: OBO)


          Recommendation 21: The Bureau of Overseas Buildings Operations should
          put in place procedures to ensure that each direct hire employee has an accurate
          and current performance appraisal on ﬁle. (Action: OBO)



       Personal Services Contractors

           As of April 2008, OBO employed 325 PSCs, representing approximately 40
       percent of OBO’s total overseas and domestic workforce. Eighty-ﬁve percent of
       PSCs are in domestic positions, with approximately two-thirds in positions such as
       engineers, security specialists, realty specialists, and designers. The remaining PSCs
       are program and management analysts or provide administrative support. OBO
       employs the largest PSC workforce in the Department. While there are advantages
       to using PSCs, OBO needs to ensure that PSCs are not crossing the line into super-
       vising direct-hire employees and that the direct-hire workforce is not disadvantaged
       by the large number of PSCs.




56 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     Deﬁnition and Criteria

     According to OBO’s procedural directive on PSCs,15 a PSC’s primary purpose
is “to perform identiﬁable services or tasks rather than to furnish an end item or
supply.” The inherent nature of the service requires direct or indirect government
direction or supervision to “adequately protect the Government’s interest; retain
control of the function involved; and retain full personal responsibility for the func-
tion supported in a duly authorized Federal ofﬁcer or employee.” The original intent
of hiring PSCs was to get technical expertise that could not be obtained through
traditional hiring practices, to have additional government staff where there was no
likelihood of obtaining it quickly, and to meet surge capacity on an emergency basis.

       OBO’s authority to hire PSCs stems from the Foreign Buildings Act of 1926,
as amended (22 USC 8, Section 296), which states that OBO may, “…without regard
to Civil Service and classiﬁcation laws…obtain architectural and other technical ser-
vices as may be necessary….and pay professional fees as established by local author-
ity, law or custom….” Originally, PSC authority was used to hire foreign nationals
who worked on a long-term basis at embassies and American PSCs working overseas
on speciﬁc building projects.

    OBO started hiring PSCs on a large scale following enactment of the Omnibus
Diplomatic Security and Antiterrorism Act of 1986. Since then, PSCs have become
a major, permanent component of OBO’s workforce. While PSC contracts are for
one year (with four option years), the Department’s Ofﬁce of Acquisitions Man-
agement (AQM) said that there are only few instances of PSC contracts not being
renewed.

    PSCs may not perform inherently governmental functions. Subpart 7.5 of the
Federal Acquisition Regulation, “Inherently Governmental Functions,” outlines U.S.
Government policy on what is or is not inherently governmental. For example, a
PSC may not direct or control Federal employees or determine policy. Numerous
procurement functions are reserved for a direct hire contracting ofﬁcer. Communi-
cations that reﬂect ﬁnal policy must be cleared by a U.S. direct hire employee. OMB
has the authority to modify the deﬁnition and make determinations regarding agency
use of PSCs.


15  OBO Policy and Procedures Directive (P&PD RM/HR 01: Personal Services Contracts)
dated July 23, 1996, revised in 2003, and further revised in 2006 with the approval of the Depart-
ment’s Legal Adviser.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   57 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          Advantages and Disadvantages of Personal
          Services Contractor Usage

           There are several advantages to using PSCs. It takes signiﬁcantly less time to hire
       PSCs than to engage direct hires through the protracted processes of HR and the
       Department’s HR division of Civil Service Personnel. Most Department ofﬁcials
       stated that PSCs are less expensive than direct hires, though the Department had
       no analysis showing the estimated cost-savings. PSCs are presumed, however, to be
       signiﬁcantly less expensive than third-party contractors. The PSC system has al-
       lowed OBO to obtain technical experts in some areas that it could not have engaged
       otherwise. Some PSCs are willing to work on short assignments whereas others are
       interested in longer assignments. In competitive ﬁelds such as information technol-
       ogy (IT), using PSCs is one way to get people with the most recent skills. Also, when
       OBO’s extensive embassy building program ultimately reaches the end of its build-
       ing goal, it will be easier to end the contract of a PSC than to downsize direct hire
       employees.

            There are also disadvantages to using PSCs. Ofﬁcially, PSCs may not supervise
       U.S. direct hires. However, at times it may appear that they do. A prime example
       is in the Management Support Division (MSD) structure. MSD is functionally
       but not ofﬁcially split into three sections. There are no branch chiefs, just senior
       management analysts (with the working title of branch representatives or coordina-
       tors). OBO’s previous Director removed layers from OBO in order to operate more
       quickly, and tried to organize MSD ofﬁcially by submitting a realignment plan that
       was rejected by the HR Bureau. Two of MSD’s sections are now headed by PSC
       grade 14s and another is headed temporarily by a GS-12 until the permanent PSC-14
       is hired who will then supervise the GS-12. MSD lacks career ladders; Civil Service
       positions are frozen at the current grade. Personnel cannot earn a grade increase in
       the position they occupy. Another example comes from the information manage-
       ment division where the ratio of PSCs is high (discussed in the Information Manage-
       ment section of this report).

           The extensive use of PSCs has also contributed to morale problems and hin-
       dered career development. The Department’s Bureau of the Director General and
       Human Resources is concerned about the extent to which PSCs are put in higher
       graded positions than Civil Service employees. However, others in the Department’s
       HR Bureau think that OBO has an appropriate mix of FS, Civil Service, PSC, and
       contractor positions. For U.S. direct-hire procurement employees in OBO, the
       Ofﬁce of Acquisitions Management’s director and the Ofﬁce of the Procurement
       Executive agree that there is little career development or succession planning. At
       times, PSC hiring gets in the way of a direct hire career ladder. There are examples


58 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




of PSCs who have converted to Civil Service jobs based on their PSC experience, in
effect leaping over Civil Service employees. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2) .


    With its mix of PSCs and direct hires, OBO has established a permanent and
parallel workforce. The conversion of PSCs to direct hires and switching among
various categories of employment (Civil Service, FS, PSC, and “body shop” contrac-
tors) is so commonplace that OBO has a “conversion package” of several standard-
ized forms on its Web site. There are cases of direct hires who became contractors
then PSCs. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


     Whereas using more PSCs may be the trend that the Department wants, some
ofﬁcials expressed concerns that OBO’s parallel personnel system for long-term em-
ployment was likely to produce inequities. Extensive use and reliance on PSCs may
not be a sound management practice. Using hiring ﬂexibilities is good, but rehiring
retirees rather than recruiting and developing a new generation of federal employees
is questionable, particularly if it is done primarily with the short-term goal of using a
less expensive option. A senior OBO ofﬁcial told the OIG team that current Ofﬁce
of Personnel Management policy is seeking to increase the use of PSCs.

     Personal Services Contractors as Contracting
     Ofﬁcer’s Representatives

    A PSC employee may be a COR.16 PSCs may not serve as contracting ofﬁcers.
Only the Department’s Administration bureau has contracting ofﬁcers. PSC CORs
are subject to the same training and appointment process as direct hire CORs. OBO
does not know how many of its PSCs are CORs, as stated in the COR section of
this report. The Director of the Department’s Ofﬁce of Acquisitions told the OIG
team that it has noted no difference in work performed by PSCs compared to U.S.
direct-hire CORs.




16   Ibid., section 4.1 and DOSAR Subpart 642.1 “Contract Administration Services.”




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   59 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          Use of Bureau of Overseas Buildings Operations 

          Personal Services Contractors as Pilot for 

          Department


           One of the Department’s management reform initiatives announced in 2007 is
       to expand the Department’s PSC authority. The Department is seeking OMB’s ap-
       proval for blanket PSC authority for the whole Department. The idea is to reduce
       costs for third-party contractors. OMB seems agreeable. PSCs are the wave of the
       future. The Department needs to plan on how it would use PSCs. OBO is a likely
       lab for this initiative because it has used a large number of PSCs. As the Depart-
       ment addresses its human capital challenges, it needs to reexamine hiring ﬂexibilities
       and identify how PSCs could be used more extensively or effectively without disad-
       vantaging the permanent workforce. The Department must not use PSCs merely as
       an excuse to limit efforts to recruit, hire, and manage the Department’s workforces.
       OBO’s experiences with PSC issues (serving as an unofﬁcial pilot program) offer the
       Department valuable lessons learned.

          Recommendation 22: The Bureau of Overseas Buildings Operations should
          conduct a review of its procedures for using personal services contractors to
          ensure that relevant government policies are scrupulously followed so that the
          use of personal services contractors does not detract from the career develop-
          ment of direct hire employees. (Action: OBO)




60 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                       EXECUTIVE OFFICE FUNCTIONS



      Under the previous Director, OBO’s traditional executive ofﬁce functions have
been dismantled and redistributed throughout OBO. The OIG team learned of
numerous problems with the scattered executive ofﬁce functions. For example,
the information management section was plagued with problems (see discussion in
Information Management section of this report) and MSD has been improving but
still has decisions to grapple with.

    The Director Ad Interim reviewed the then existing executive ofﬁce structure
and returned the functions to a traditional executive ofﬁce, keeping the ofﬁce of
Resource Management separate from the executive ofﬁce. The OIG team agrees
with the desire to go back to a previous, traditional ofﬁce but has no conclusions on
a speciﬁc structure.

Personal Property Management

    MSD’s personal property management system had major weaknesses, but man-
agement is making progress in improving OBO’s property management process and
reporting. The Department’s Property Survey Board presented OBO with a memo-
randum report and recommendations. On arrival, the principal custodial ofﬁcer
developed a three-year inventory plan, determining their actual amount of inventory
in the ﬁrst year, and clearing items from the inventory that they did not have in the
second year. The Property Survey Board cleared MSD’s last inventory report with
the understanding that MSD would write and adopt an internal asset management
policy. While OBO/RM is still reviewing it, MSD is actively using the policy. The
principal custodial ofﬁcer states that the Department’s Logistics Management is us-
ing it as an example of a good policy. OBO stated that during the third year (this
year) it will submit an inventory report covering all personal property and IT equip-
ment by implementing controls preventing lost property and minimizing unrecorded
property.

Travel Procedures

   The OIG team found signiﬁcant deﬁciencies in the travel authorization process.
There were allegations that some travel was excessive or questionable. (b) (7)(C)


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   61 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
       (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
       (b) (7)(C)(b) (7)(C)       Improper or questionable activities or decisions can in part
                                                                                          be
       attributed to insufﬁcient oversight of the process. OBO stated that now that there is
       a new executive director, that individual will provide continued oversight over OBO’s
       travel program to ensure compliance with the Department’s regulations and approve
       business class travel. OBO said that ﬁrst-line managers should ensure that trips are
       necessary, a mechanism established for verifying that managers fulﬁll this responsibil-
       ity, and a system created for ensuring that trips are coordinated.

           Employees widely criticized travel procedures. The steps called for both hard-
       copy and electronic forms and the need to hand-carry papers to the proper authority.
       Many reported that the timing of the authorizations delayed their travel or did not
       allow for responding immediately to urgent business abroad. OBO, with the help of
       IT (to enhance electronic processing capabilities) and its IROR ofﬁce, is looking for
       solutions to streamlining the cumbersome process.

          Recommendation 23: The Ofﬁce of Overseas Buildings Operations should
          establish a mechanism for verifying that ﬁrst-line managers ensure travel is
          necessary and create a system for ensuring that trips are coordinated. (Action:
          OBO)




62 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                             FINANCIAL MANAGEMENT



    In FY 2007, OBO had $4 billion to conduct operations. The $4 billion included
$1.49 billion appropriated by Congress, $1.28 billion carried over from FY 2006,
$1.04 billion in reimbursements and proceeds of sale (includes CSCSP contribu-
tions and a London property sale) and $0.2 billion in recoveries. A summary of how
OBO’s FY 2007 funds were allotted among different programs is shown in Appen-
dix A. Unused FY 2007 funds totaling $1.67 billion were carried over into FY 2008.

    OBO is one of only a few Department bureaus designated as a billing ofﬁce.
OBO payments are certiﬁed twice a week by a resource management certifying of-
ﬁcer and paid by OBO. OBO ofﬁcials informed the OIG team that the amount of
Prompt Payment Act interest payments is well within Department and U.S. Govern-
ment standards. During the inspection, OIG’s Ofﬁce of Audits initiated a review of
OBO’s undelivered orders. OBO’s Financial Management section has a small inter-
nal audit team that conducts spot checks of missions’ use of OBO funds (primarily
7901 and 7902 funds). The team conducts reviews of 15 to 20 missions every year.
While OBO ﬁnancial management operations have improved in some areas, such as
fund tracking by project, the Department’s conversion from Central Financial Man-
agement System to Global Financial Management System (GFMS) has created some
problems. Additionally, internal controls over COR activities need strengthening
and some questionable past practices concerning the use of construction funding for
maintenance activities appear not to have been fully resolved.

    OBO had difﬁculty recording and tracking obligations and payments since the
conversion to GFMS. As discussed in the contract section, OBO had difﬁculty
tracking and tallying available contract fund balances since (VTA) the voucher track-
ing sysetm was discontinued. Although information entered into the requisition-
ing system (Ariba) is successfully fed into GFMS, information does not ﬂow from
GFMS back into Ariba creating disconnects primarily with prior year contract modi-
ﬁcations. Both Resource Management and A have been responsive; meetings on the
deputy assistant secretary level have occurred, and OBO has proposed solutions to
both Resource Management and A. However, until these issues are resolved, OBO
staff will have to spend additional time working around the problems.

    OBO’s Financial Management section relies heavily on other parts of the or-
ganization for oversight. For example, although OBO/RM/FM approves travel


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   63 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       authorizations, travel vouchers are not routed through FM. Travel voucher approv-
       ers are scattered throughout the organization. The OBO/RM/FM section relies on
       CORs to meet 14 FAH-2 H-522.4(e) invoice reviewing requirements and to deter-
       mine whether or not invoices are sufﬁcient. However, some of these CORs are far
       removed from the contractor’s worksite. For example, AQM gave project executives
       in OBO’s Project Execution (OBO/PE) division (located domestically) authority to
       approve NEC contractor invoices. project executives are responsible for coordinat-
       ing with on-site PDs (who are the CORs) to ensure that invoice information is accu-
       rate. Although the OIG team does not have evidence that coordination between the
       project executives and PDs is lacking, The OIG team provided an informal recom-
       mendation that OBO/RM/FM conduct spot checks quarterly to ensure that project
       executives have veriﬁed invoice information with PDs before approving invoices.

            PDs located in the ﬁeld have limited contracting warrants for $25,000 per ac-
       tion for up to $250,000 a year to modify AQM-awarded construction contracts. The
       OIG team found that PDs regularly sign contract modiﬁcations (called “ﬁeld modiﬁ-
       cations”) without ﬁrst checking with the Ofﬁce of Resource Management, Financial
       Management to ensure that funds are available. OBO representatives stated that
       PDs coordinate with the CC division to determine if adequate contingency funds are
       available for contract modiﬁcations. (CC receives a budget from the Ofﬁce of Re-
       source Management, Financial Management for contingency funds.) The OIG team
       provided an informal recommendation that OBO ensure that this practice is con-
       sistent with 4 FAM which requires that funds availability be checked before incur-
       ring obligations. The OIG team also found that ﬁeld modiﬁcations are not usually
       recorded promptly in the accounting system nor made part of the contract. 4 FAM
       084.4 requires the prompt and accurate recording of all ﬁnancial transactions having
       an effect on the apportionments and funds control. 4 FAM 087.2 states that, “Ob-
       ligations and disbursements are to be reported promptly and recorded at the earliest
       possible time.” The OIG team informally recommended that OBO revise its ﬁeld
       modiﬁcation procedures to ensure prompt recording of obligations.

           The OIG team found some questionable past practices that skirted administra-
       tive violations. For example, on an early NEC project (discussed in more detail in
       the case study section), OBO certiﬁed to AQM that $60 million was available for a
       contract award. AQM awarded the contract for just under $60 million, but OBO
       later discovered that it had not budgeted adequate contractor oversight funds for
       that project. OBO had to terminate the contract for convenience at a cost of just
       under $400,000. OBO representatives asserted that the mistake did not constitute an
       unauthorized commitment requiring ratiﬁcation because the total project budget was
       $66.7 million. OBO’s ﬁnancial management section now reviews the entire project
       budget before releasing funds to AQM for award.


64 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    The OIG team also found that OBO used Capital Construction project funds to
fund some building operating expense (BOE) activities in Astana, which was not ap-
propriate. A few years ago, OBO considered using the NEC construction contractor
to operate and maintain the facility for the ﬁrst two years, under the concept called
Design, Build, Operate and Maintain. To pilot this program, OBO added a line item
for contractor-provided operations and maintenance services for two years after
occupancy into the Astana NEC contract. The two-year option, which cost $2.6
million, expires in November 2008. Capital Construction project funds are for NEC
construction and not BOE. As discussed in 15 FAM 162.1, BOE should be funded
by ICASS. The OIG team is not aware that OBO has reported this improper use of
funds or arranged for the reimbursement from ICASS.

Value Added Tax Reimbursements

    The Diplomatic Tax Relief Initiative (DTRI) established in October 2004 seeks
to ensure that the Department is relieved of all foreign tax obligations on U.S. Gov-
ernment operations in accordance with diplomatic privileges and immunities under
international law and custom. It aims to more aggressively identify and collect reim-
bursable taxes paid overseas. In 2006, OIG conducted an audit of the Department’s
management of value added tax (VAT) collections overseas.17 It found that the
Department was not consistently developing tax relief agreements with local govern-
ments before beginning major construction projects overseas. OIG noted that the
process for overseas construction projects could be improved by requiring missions
to reach agreement with host governments on tax relief before beginning construc-
tion and incorporate standard language into the formal procedures for future con-
struction contracts and solicitations. Responding to the OIG’s recommendations, the
Department developed appropriate policies and guidance for negotiating tax-relief
agreements and collections. Similarly, OBO developed appropriate policies for its
worldwide construction program.

     Since the inception of DTRI, OFM and OBO/PEA, working in tandem, have
negotiated tax-relief agreements for over 40 capital and non-capital projects, reﬂect-
ing a potential tax savings of over $200 million. Current estimates through FY 2013,
based on the FY 2008-2013 Long-Range Overseas Buildings Plan (LROBP), indicate
potential tax-relief savings of over $260 million for capital projects alone. These
agreements, based on unique host government requirements for tax relief and often
taking up to a year or more to conﬁrm, span the globe and are based on reciproc-
ity rooted in the Vienna Convention on Diplomatic Relations and the Vienna Con-

17 OIG Report No. AUD/FM-06-38, Audit of the Department’s Identiﬁcation and Collection of Value-
Added Taxes (September 2006).


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   65 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       vention on Consular Relations.18 The easiest and most straightforward is the point
       of sale agreement. By far the most common is one where the contractor submits
       paid invoices to the embassy for VAT reimbursements from the host government.
       In any case, the contractor receives payment in Washington for all expenses, VAT
       included, and has little incentive to submit invoices locally for VAT reimbursements.
       It is therefore incumbent on the PD to ensure that the contractor fulﬁlls his end
       of the agreement. OBO is currently mulling a third method that involves a change
       in contractor payments in Washington to contractor payments at post when host
       government requirements demand it. The Ofﬁce of Resource Management, Finan-
       cial Management is not in favor of the change, fearing a loss of tracking once funds
       have been transferred from the Department’s Global Financial Management Center
       in Charleston to post. The OIG team believes this problem can be overcome by
       hiring someone at post, such as an eligible family member, to manage the process of
       contractor payments. Given the substantial amounts of VAT involved, this would be
       a prudent move and involve minimal ﬁnancial outlays.

           As impressive as the progress is, several problems remain. Because OBO con-
       struction contractors in Frankfurt, Athens, and Rome did not understand or follow
       host government requirements (DTRI was not involved in negotiating agreements in
       each case), OBO is still seeking several million dollars in reimbursements for these
       projects. Kyiv is scheduled for an FY 2008 NEC project where VAT reimburse-
       ments of about $10 million are to be administered at post. Riga and Sarajevo, with
       approximately $13.5 million in anticipated refunds, are similarly at risk, unless an-
       other methodology is established..

           OBO does not have a reliable mechanism in place to track the success of the
       DTRI program in terms of reimbursements. At present the tracking of refunds
       received from posts and sent to the Ofﬁce of Resource Management, Financial Man-
       agement is reﬂected in a ﬁnancial report that the division of CC highlights during the
       monthly program performance review. This process is neither timely nor accurate,
       and often these funds take over a year to report.

            Recommendation 24: The Bureau of Overseas Buildings Operations should
            require that the Construction and Commissioning division add a Value Added
            Tax item to its monthly Project Director’s progress report and that the Project
            Evaluation and Analysis division report Value Added Tax accomplishments at
            the monthly program performance review. (Action: OBO)




       18   See www.state.gov/ofm/tax.

66 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




         OVERSEAS BUILDING OPERATIONS CONTRACTS



     OBO obtains contractor support for a variety of items and services from major
construction contracts to PSC services. The OIG team focused its inspection on the
process for contracting for NECs but also addressed some non-NEC contract over-
sight issues. During the inspection, the Director Ad Interim hired a PSC to review
OBO contracting issues. AQM contracting ofﬁcers negotiate, award, and administer
all of OBO’s contracts. OBO PDs are the only other staff with contracting author-
ity for OBO contracts; they have limited contracting warrants of $25,000 per action
for up to $250,000 a year to modify AQM-awarded construction contracts. In terms
of dollar value, OBO was AQM’s largest customer; in 2007; OBO-dedicated AQM
staff processed about 4,200 procurement actions valued at $1.6 billion for OBO.

    Similar to other Department bureaus, there is no single point of contact within
OBO for contracts. AQM contracting ofﬁcers are centrally located in Washington,
while OBO CORs are dispersed throughout OBO and at embassies overseas. Every
year, numerous contracts are awarded to support OBO’s building program, but there
are a number of problems associated with OBO’s participation in the contracting
process:
     •   Technical requirements are submitted to AQM late in the ﬁscal year,
     •   Requirement documents are often contradictory,
     •   Independent government estimates (IGE) need improvement, and
     •   Contractor prequaliﬁcation procedures are strained.
    Additionally, some NEC and non-NEC CORs have not had sufﬁcient training to
carry out their contracting responsibilities.

     Bureau of Overseas Buildings Operations Technical
     Requirements Submitted Too Late in the Process

    OBO almost always provides technical requirements to AQM late in the process.
Near the beginning of each year, OBO establishes a list of all major construction
projects that it plans to award during the ﬁscal year.19 To meet this schedule, OBO
develops a Master Procurement Integration Schedule listing each project and dates
by which OBO must submit project-related documentation to AQM. The schedule
19   Although these are no-year funds, OBO has self-imposed a requirement to award these con-
tracts during the ﬁscal year when appropriated.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   67 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       also has target dates for contract awards. OBO is cognizant of the level of effort
       required to award these contracts and therefore attempts to stagger submission dead-
       lines throughout the year. OBO’s January 16, 2008, Master Procurement Integration
       Schedule for FY 2008 projects shows OBO submission dates ranging from February
       22 to June 6, 2008, and contract award dates from April 9 to August 13, 2008.

           AQM contracting ofﬁcers stated that submission dates listed in the initial Mas-
       ter Procurement Integration Schedules would allow for the orderly solicitation and
       award of these contracts.20 FAR Subpart 7.1 – Acquisition Plans - requires that
       agencies perform acquisition planning to ensure that “the Government meets its
       needs in the most effective, economical, and timely manner.” FAR Subpart 7.105
       requires that written acquisition plans “must identify those milestones at which deci-
       sions should be made.” The problem arises when OBO misses initial deadlines and
       the Master Procurement Integration Schedule then gets compressed and revised.
       For the 16 projects listed on the January 16, 2008, Master Procurement Integration
       Schedule, RFP submissions for 12 are already late, one submission was not yet due,
       and the remaining submissions were for projects that were on hold. In FY 2007,
       submissions to AQM for the RFP release for 12 of 13 projects were late.

            Effects of a Compressed Award Schedule

           When OBO RFP submissions to AQM are late, the entire contracting process is
       compressed, and contracts are usually awarded towards the last week in September.
       In FY 2007, 10 of the 13 projects were awarded the last week in September. As dis-
       cussed in the case study section of this report and in OIG’s December 2006 inspec-
       tion report covering AQM (ISP-I-07-12), OBO RFP submissions are chronically late
       and contract awards are then generally made the last week in September. A com-
       pressed award schedule is detrimental to both the building program and to the award
       process. It makes it much harder to award a project within the designated budget at
       the best value. The resulting consequences for a compressed contracting schedule,
       a constrained award date, a limited budget, and a limited pool of potential construc-
       tion contractors are summarized as follows:

            • 	 In a normal competitive bidding environment, multiple contractors bid on
                multiple projects in order to increase their chances of getting work. How-
                ever, with a compressed award schedule, where release of the RFP occurs
       20  AQM ofﬁcials need OBO requirements at least 120 days prior to the target award date for
       a typical major construction project. The 120 work days allows time to: review OBO-provided
       technical documentation; create and issue RFPs; give contractors 45 days to complete proposals;
       amend RFPs if necessary; review contractor proposals; conduct follow-up technical evaluations;
       determine which prices fall within the competitive range; hold negotiations with contractors; and
       award contracts.

68 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




         late in the ﬁscal year and with the expectation that an award must be made by
         the end of the ﬁscal year, contractors will be more selective on which proj-
         ects they will provide a competitive bid. In OBO’s case, where contractors
         are already limited to those that were pre-qualiﬁed, contractors decide early
         on the contracts they wish to pursue competitively and those projects where
         they will not bid or where they will only provide a courtesy bid. This selec-
         tive process is not only affected by the OBO portfolio of projects, but other
         agencies’ work out to bid will also inﬂuence the number of projects that con-
         tractors will bid on and the competitive environment. Therefore, a program
         of projects that is compressed towards the tail end of the ﬁscal year will have
         more limited competition and incur higher pricing due to the known limited
         competition for these projects.

    • 	 A second factor inﬂuencing pricing is the fact that contractors know who is
        bidding the work seriously as a result of their contacts with subcontractors
        and suppliers for these projects. This superior knowledge allows for competi-
        tive contractors to bid the work with higher pricing and take an advantage
        in negotiations due to the known award constraints and limited number of
        contractors bidding the work.

    • 	 The compressed advertising and award schedule also provides for a reduced
        window of opportunity to correct RFP deﬁciencies and discrepancies before
        submission of ﬁnal proposals. This in turn also creates a situation where
        multiple major amendments are issued in the ﬁnal stages of the proposal pe-
        riod and leaves very little time for a thorough analysis during bid preparation.
        Contractors must rework their proposals when these last minute changes and
        amendments occur and often add signiﬁcant contingency sums to their bids
        that may or may not be warranted. Contractors can only view this as a form
        of added risk and generally endeavor to cover that added risk of performance
        with more than adequate contingency sums.

    • 	 This process also puts signiﬁcant stress on the AQM acquisition department
        to award these contracts despite limited time to negotiate and to clarify all
        contractual information and amendments before best and ﬁnal offers are
        received. This puts AQM staff at a signiﬁcant disadvantage when negotiating
        with the contractor, making it more difﬁcult to ensure that the Government is
        receiving the best value in its contract awards.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   69 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           Neither Ofﬁce of Acquisitions Management nor
           Bureau of Overseas Buildings Operations Have
           Taken Action to Improve the Process

            Neither AQM nor OBO have done much to improve the process. OIG noted
       the very same problem in its 2006 inspection report of AQM (ISP-I-07-12). OIG
       stated that most FY 2005 awards “were not made until late September. Several nego-
       tiations were conducted and awards made with very little processing time. To a great
       extent, amendments to proposals, negotiations, and awards take place in September
       under hurried circumstances.” To address the problem, OIG recommended that the
       “Bureau of Administration (A), in coordination with OBO, establish written time-
       lines for the submission of technical requirements packages, contract negotiations,
       and contract award”. AQM has not yet complied with this recommendation. In its
       latest response to the OIG dated March 12, 2008, A’s Ofﬁce of Logistics Manage-
       ment reported that, “AQM is establishing service level agreements that outline acqui-
       sition…requirements to include timelines for required documents, negotiation and
       award.” AQM contracting ofﬁcers, however, have never drafted, reviewed, or seen
       any such agreements related to OBO projects and appear to rely on the OBO-gener-
       ated and often revised Master Procurement Integration Schedule as their acquisition
       plan.

            OIG also recommended that A “institute procedures to monitor and enforce
       the timeliness and completeness of technical requirements packages, provide timely
       feedback to OBO and take corrective action as necessary.” AQM has not yet com-
       plied with this recommendation. In its March 12, 2008, response to OIG, A/LM re-
       ported again that it is drafting service level agreements that will address requirements
       to include performance review meetings that will “provide timely feedback to OBO
       concerning the status of their contracts”. AQM and OBO already hold regular
       meetings to discuss the status of project submissions and awards. Lacking in both
       the meetings and in A’s planned service level agreements is how and whether AQM
       will have a mechanism for enforcing the timeliness and completeness of the techni-
       cal requirements packages given OBO’s desire to have projects awarded by the end
       of the ﬁscal year. Contracting ofﬁcers appear to work hard and have heavy work-
       loads; however, OIG is not aware of any time when AQM ofﬁcials have refused to
       conduct an acquisition process because submissions were late or refused to endeavor
       to award a contract by the end of the year for lack of adequate time to complete the
       process.

          In November 2006, the Ofﬁce of the Procurement Executive (A/OPE), re-
       sponsible for evaluating, monitoring, and reporting to A on the quality of Depart-
       ment-wide procurement actions, also found that AQM contracting ofﬁcers were


70 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




not preparing procurement plans to outline milestones needed to manage the pro-
curement process. A/OPE similarly recommended that AQM establish milestone
schedules for key events as part of the procurement plan and track performance to
these milestones to manage the workload. As noted, AQM has not complied with
these recommendations. Since A has not complied with OIG’s former recommenda-
tions or taken steps to improve the process, higher level attention is needed to estab-
lish, oversee, and ensure revisions to OBO-related acquisition milestones to ensure
adherence to prudent and proper contracting practices. OIG is redirecting its AQM
report recommendations to M rather than A.

   Recommendation 25: The Under Secretary for Management should establish
   a formal process to ensure that the Bureau of Administration and the Bureau
   of Overseas Buildings Operations establish written timelines for the submis-
   sion of FY 2009 and future technical requirements packages along with target
   contract award dates; and, adjust contract award dates (into the next ﬁscal year
   if necessary) when technical requirements packages are submitted too late to
   conduct appropriate procurement procedures. (Action: M, in coordination
   with A and OBO)


   Recommendation 26: The Under Secretary for Management should ensure
   that the Bureau of Administration institutes procedures to monitor the timeli-
   ness and completeness of technical requirements packages; and, report back to
   the Under Secretary for Management and Bureau of Overseas Buildings Op-
   eration when packages are late. (Action: M, in coordination with A)


    The above recommendations should ensure more rational project planning and
contract award schedules for FY 2009 and other future projects. However, consider-
ing that all of the RFP packages for FY 2008 were submitted to AQM late, contract
award dates for those projects need to be revised. Although the OIG team does not
disagree with OBO’s quest to avoid congressional reprogramming requirements by
awarding planned 2008 projects in FY 2008, ensuring that AQM contracting ofﬁcers
follow proper acquisition procedures results in better contracts at lower prices in the
long run.

   Recommendation 27: The Under Secretary for Management should obtain
   revised contract award dates for FY 2008 projects from the Bureau of Admin-
   istration that will allow for a proper acquisition process and then consider de-
   ferring appropriate projects into the following ﬁscal year. (Action: M)




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   71 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



          Bureau of Overseas Buildings Operations Request
          for Proposal Performance Standards Are Not
          Effective

            While OBO establishes reasonable submission deadlines in its initial Master Pro-
       curement Integration Schedule each year, it does not appear that there are adequate
       incentives for meeting those deadlines. OBO’s Planning Integration Division is
       responsible for providing technical requirements packages (RFP packages) to AQM
       in a timely manner. The Planning Integration division’s ﬁrst performance measure is
       to “Prepare and deliver to A/LM all RFPs on time and in accordance with the Proj-
       ect Evaluation & Analysis (PEA) Master Schedule.” OBO’s PEA Division provides
       OBO’s Planning Integration division with much of the documentation included in
       the RFP package. PEA almost always provides documentation to the Planning Inte-
       gration division late. The PEA division’s RFP-related performance measures include:
       “ Establish and implement an NEC project Master Schedule that sets deadlines for
       all Divisions and distributes RFPs evenly over at least 6 months of each ﬁscal year;”
       and, “Ensure completion of Rights of Passage and Technical Planning Checklists,
       Test-Fits, and Project Analysis Packages in time to allow the Planning Integration
       division to prepare well-written RFPs.”

           Although both ofﬁces have performance measures related to the timeliness of
       RFP submissions, neither appears to accurately report on compliance with those
       measures and it does not appear that there are any consequences for not meeting
       those measures. For example, in its May 2008, program performance review slides
       both the Planning Integration division and the PEA divisions reported compliance
       as “Green” to RFP timeliness performance measures. As shown above, technical
       requirements packages for 12 of 13 FY 2008 projects were already behind schedule
       according to the January 2008 Master Procurement Integration Schedule. From
       discussions with OBO staff, benchmarks used to report on performance appear
       arbitrary and not at all related to the initial Master Procurement Integration Schedule
       provided for AQM. The OIG team was not able to determine if adherence to RFP
       timeliness measures was a factor in the evaluations of either the head of the Plan-
       ning Integration division or PEA because neither had current evaluations on ﬁle.

           During the inspection, some of the RFP responsibilities were transferred from
       the Planning Integration division to PEA. The OIG team does not believe, how-
       ever, that the transfer of responsibility will improve the timeliness of RFP packages.
       OBO commented that performance measures had not existed but have now been
       established.




72 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




   Recommendation 28: The Bureau of Overseas Buildings Operations should
   review and revise performance measures related to providing the Bureau of
   Administration request for proposal packages in a timely manner to ensure that
   the measures use the initial Master Procurement Integration Schedule (or other
   Acquisition Plan or service level agreement) that is coordinated with the Of-
   ﬁce of Acquisitions Management as its performance benchmark and have clear
   thresholds for delinquent reporting. (Action: OBO, in coordination with A)


   Recommendation 29: The Bureau of Overseas Buildings Operations should
   ensure that the work commitments of employees who have responsibilities re-
   lated to timely request for proposal packages address performance measures for
   which they are responsible. (Action: OBO)


    Bureau of Overseas Buildings Operations Technical
    Requirements Packages Contain Contradictory
    Information

    OBO technical requirements packages sometimes contain contradictory infor-
mation. To address the problem, OBO inserted an order of precedence clause into
the RFP to point contractors to the document that most likely contains the correct
information. To sort out why documents are contradictory, OBO is currently map-
ping what ofﬁce is responsible for each piece of information included in the RFP.
While this is a step in the right direction, as discussed in the SED and Design-Build
section of this report, a more thorough review of the RFP documents and processes
is needed. Discrepancies in the bid documents have resulted in added costs. For
example, OBO had to reimburse the contractor constructing a NEC and unclassi-
ﬁed ofﬁce annex in Managua, $4.4 million because there were discrepancies in the
bid documents and the RFP misrepresented the actual NOB size. OBO also had to
reimburse the contractor constructing NEC Belmopan one million dollars because
of bid document inconsistencies.

    Independent Government Estimates Need Attention

    The OIG team received a number of complaints that IGEs, which are used to
ensure that contractors’ proposals are within the competitive range, were always
low. Although the OIG team found that not all IGEs have come in low, a number
have come in signiﬁcantly lower than the competitive range. Because OBO’s major
construction contracts are all awarded at the end of the ﬁscal year, discovering that
contract amounts will be higher than expected generally results in a mad scramble


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   73 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       to determine whether OBO can afford all planned contract awards. Often, projects
       have been descoped. OBO’s Cost Management Division (CMD) is responsible for
       developing IGEs. CMD also develops current working estimates (CWEs) to esti-
       mate the full cost of each project. CWEs include the contract award amount (IGE),
       contractor oversight funds (for the PD’s salary, living expenses, and contingency
       funds), salaries and expenses for planners, etc. CWEs are developed at project incep-
       tion and are used in the LROBP and as the basis for OBO’s budget request for each
       project. CWEs are also updated throughout the life of the project.

           CMD representatives admit that there have been problems in getting the IGEs
       and CWEs right. In the past, there had been pressure to hold overall project costs
       under $100 million. Additionally, once OBO received a project budget from Con-
       gress, there was pressure to keep estimates close to the amount of the budget de-
       spite the fact that years may have passed since CWE estimates for the project were
       developed. The head of CMD, who arrived in that division in June 2007, said she
       that estimators were encouraged to be more conservative in their CWE and IGE
       estimates. The head of CMD also recently changed CWE performance standards
       from plus or minus 20 percent of actual costs to at or above 20 percent of actual
       costs, and took steps to obtain additional staff and update and enforce CMD policies
       and procedures. Although these appear to be steps in the right direction, additional
       improvements are needed.

           Cost estimators’ performance standards related to the major construction con-
       tracts are to be within plus or minus 10 percent of the competitive range. However,
       the section has not actually measured performance against those standards for the
       FY 2007 construction awards. The section head said that they simply did not have
       enough time or staff to close that loop. Meanwhile, those same cost estimators are
       developing estimates for future projects. The OIG team left an informal recom-
       mendation that OBO review performance standards related to the accuracy of IGEs
       and CWEs and develop a benchmark timeline for measuring and reporting on those
       standards.

            Cost estimators also lack some of the tools they need to generate accurate
       estimates. When the division is asked to update cost estimates, often they do not
       check all of the factors, only those they believe have changed. While measuring
       performance against standards will help, there is no CMD staff handbook listing
       all standard forms and processes CMD staff should use to develop cost estimates.
       For example, many costs that are incorporated into the IGE come from other of-
       ﬁces (such as IRM for telephone costs, CC for project supervision estimates, and
       the Security Management division for security estimates). New cost estimators do
       not necessarily understand where this information should come from. Additionally,
       the SED template cost estimators use to develop estimates has not been updated in

74 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




about six years. Therefore, any across-the-board changes that have been made to the
SED have to be updated by every cost estimator for every project. Finally, Success,
the application used to estimate costs, is saved on individual workstations rather than
on a shared server. This makes cross project reviews difﬁcult and impairs the section
chief ’s ability to ensure that estimates are accurate. Use of enterprise-wide estimat-
ing systems is standard within the construction industry and is needed particularly in
today’s volatile marketplace in order to capture project costs on a real-time basis and
to track costs across all segments of a project accurately.

    The OIG team left informal recommendations that OBO develop a staff hand-
book of all standard forms and processes, update the SED template for estimating
costs, and determine whether an enterprise-wide version of a cost estimating system
can be cost effectively implemented to meet industry standards.

    Prequaliﬁcation and Technical Evaluation
    Processes and Contractor Base

    The OIG team found anomalies in the prequaliﬁcation process for NEC con-
tracts. Due to OBO’s compressed project award schedule, OBO and AQM conduct
the prequaliﬁcation process early in the ﬁscal year. During this process, ﬁrms inter-
ested in winning major construction contracts submit documentation showing their
technical qualiﬁcations, and those found acceptable by a technical evaluation panel
(made up of OBO representatives and overseen by AQM) are prequaliﬁed. The
OIG team found that although a contractor’s performance on two FY 2006 projects
was dismal, AQM and OBO awarded that contractor an FY 2007 project. (Accord-
ing to an AQM ofﬁcial, the contractor’s performance at the time of prequaliﬁcation
was problematic, but not so much as to prevent it from being prequaliﬁed.) During
the inspection, the OIG team was informed that that contractor was not prequali-
ﬁed for FY 2008 projects. However, at a later date, AQM prequaliﬁed the contractor
based on the contractor’s plan to improve performance on the FY 2006 projects.

     AQM ofﬁcials informed the OIG team that they sometimes have to take risks
with contractors because of the limited contractor base (mentioned earlier in this
report in the section on SEDs). While the OIG team acknowledges this problem, it
is also aware of at least one instance when an additional contractor stated that it was
interested in bidding on a project if the proposal submission date could be extended
by one month. Since OBO wanted to award the contract by a certain date, the pro-
posal submission date was not extended, which had the effect of limiting the num-
ber of contractors bidding on the project. The OIG team was not able to review
prequaliﬁcation procedures in detail but noted that the GAO is conducting an audit
of the contractor base.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   75 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



          Inadequate Contracting Ofﬁcer’s Representative
          Training

           Some CORs throughout OBO are not adequately training. As discussed in the
       ﬁnancial management section, OBO’s VTA, used to electronically track and route
       vouchers and invoices, was recently discontinued and replaced by a manual system.
       Under the old system, staff in OBO’s Financial Management section, entered each
       invoice into VTA under the appropriate contract and routed the invoice to the COR
       or Assistant COR for approval. According to 14 FAH-2 H-517, CORs must main-
       tain working ﬁles, with copies of contractor invoices, a payment register indicating
       the remaining fund balance for the task order or contract, and other documents.
       The payment register ensures that government employees do not request nor ac-
       cept contractor services unless funded obligation documents are in place. The VTA
       maintained payment registers centrally for OBO CORs, tallied the balance remaining,
       and facilitated the matching of each invoice to the correct line-level fund cite. After
       VTA was discontinued, it became apparent that many CORs did not fully under-
       stand how to approve invoices using the correct line-level fund cite. The OIG team
       informally recommended that OBO arrange a refresher training session for all CORs
       and Assistant CORs located domestically on their responsibilities in reviewing and
       approving contractor invoices.

            The OIG team also found that an individual responsible for overseeing a domes-
       tic contractor had not been delegated those responsibilities by AQM. Additionally,
       that individual has not always certiﬁed hours worked on invoices. An individual in a
       different ofﬁce without direct knowledge of the contractor’s hours has been sign-
       ing for the hours. The OIG team provided an informal recommendation that OBO
       identify all designated CORs located domestically and ensure that the designated
       CORs cognizant of the scope and services that their contractors are performing and
       are in the best position to oversee these contractors.




76 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




         CAPITAL SECURITY COST SHARING PROGRAM



     The CSCSP, authorized by Congress in the FY 2005 Consolidated Appropria-
tions Act, requires that all agencies with overseas personnel under chief of mission
authority help fund construction of 150 NECs over 14 years at an annual rate of
$1.4 billion per year ($17.5 billion total). The program is designed both to gener-
ate funds for the NEC construction program and to encourage all other agencies to
rightsize their overseas staff. The Department bills other agencies based on a per
capita charge for each authorized or existing overseas position in a U.S. diplomatic fa-
cility and each projected position above current authorized positions in those NECs
that have already been included in the President’s budget or for which a contract has
already been awarded.21 According to legislative language, “the program will include
agency involvement in setting priorities and in other aspects of the development of
new embassy compounds” and that the Department is expected to implement the
program in an inclusive, cooperative, and transparent manner.

     Both OBO and other agency representatives agreed that overall the program
runs well. Agency representatives gave CSCSP-dedicated staff in OBO high marks
for their cooperation and support. Agency payments are made without problems
and recent changes made both by OBO and by tenant agencies have improved the
transparency and accuracy of CSCSP charges. However, given current construction
costs, commodity price increases, and the depreciation of the U.S. dollar, it appears
unlikely that OBO will be able to complete all 150 NECs within the original $17.5
billion budget. Additionally, some tenant agencies did not receive funding from
Congress for their full share of the CSCSP charges. Finally, not all other agencies’
needs have been fully met by OBO’s existing building program.

     In November 2007, OBO developed a white paper titled “Overseas Facilities
Cost Higher than Expected” which noted that the cost of completing overseas facili-
ties has increased dramatically since 2003 because of the rapid increase in construc-
tion prices worldwide and the depreciation of the dollar. The paper concludes that
the annual cost escalation rate of 3.5 percent OBO currently uses across the NEC
program, grossly under-represents construction and site acquisition costs. Although
OBO ofﬁcials informed the OIG team that the white paper has been provided to
members of Congress and OMB to justify the need for an additional $100 million
21   Additionally, CSCSP charges for ICASS positions are passed through to agencies based on
their relative percentages of use of ICASS services. Agencies are also eligible to receive a rent
credit each year for ofﬁce rent paid because existing diplomatic facilities are not able to accom-
modate their overseas personnel.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   77 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



       this ﬁscal year, it is unclear whether OBO has communicated to Congress, OMB, and
       the other agencies how a more realistic cost escalation rate would affect the NEC
       program in terms of how many of the 150 NECs are likely to be completed with
       $17.5 billion. The OIG team left an informal recommendation that OBO provide a
       more realistic forecast to CSCSP stakeholders.

           To address other agency CSCSP funding shortfalls, OBO plans to execute a
       combination of projects and site acquisitions totaling $1.237 billion rather than the
       $1.266 billion due to the shortfall. Other agencies will receive the full amount of
       space requested. OBO noted that the other agencies are expected to pay the shortfall
       next year. The OIG team provided an informal recommendation to OBO that it
       ensure that its plan for dealing with other agency funding shortfalls is legal, equitable,
       and transparent.

           Headquarters elements of other agencies are involved only tangentially in select-
       ing which facilities will be built with CSCSP funding. The Department is expected
       to spend CSCSP appropriations only on facilities at the 80 most vulnerable posts.
       Every year, regional bureaus nominate projects to be placed on the top 80 list. After
       posts are nominated, M/PRI then chairs a meeting with the regional bureaus, OBO,
       and DS during which they decide which posts will be added to the list. According
       to the Department, “Posts and non-Department of State U.S. Government agencies
       may make the case to their Regional Bureaus detailing why a post should be moved
       ahead on the Top 80 List.”22 Although theoretically other agency representatives at
       missions should advocate through their chief of mission for their agency’s needs,
       mission-based representatives may not be aware of their agency’s long term plans in
       country when compared to other priorities. To facilitate other agency headquarters’
       input into the top 80 process, the OIG team provided an informal recommendation
       that headquarters elements of other agencies be provided access to or be asked to
       comment on nominees to the top 80 list each year. The regional bureaus or M/PRI
       would be the focal point for the information.

            Other Agency Requirements

           There was confusion among some of the agencies about when and how their
       technical requirements should be provided to OBO. One agency, for example, noted
       that it had provided OBO technical requirements a few years ago for all buildings but
       was informed that those technical requirements were never actually approved. An-
       other agency representative recently provided technical requirements for one of the
       upcoming projects but was not sure if those requirements would also be used in the
       other upcoming projects. Another provided technical requirements but the require-
       ments were not incorporated into the building.
       22   Department Cable No. State 00167739.

78 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




    According to an OBO ofﬁcial, standard technical requirements have been estab-
lished for some agencies but not for others; there is no standard data call each year
for other agency technical requirements. Requirements are gathered by project. If
an agency will have a presence in a NEC, it is asked to provide technical require-
ments early in the planning process. If a project is deferred there is no standard
dictating whether technical requirements will be updated and negotiations ensue be-
tween agencies about whether the requirements will be updated and whether CSCSP
or other agency funding will fund the updates. Some of the other agency points of
contact are familiar with the OBO organization and have time and staff to monitor
ongoing planning and construction to ensure that their requirements make it from
one part of the organization to the next; others do not. The OIG team also found
that OBO representatives from different parts of the organization may not have or
be up to date on changes provided to another part of the organization.

    OBO has taken steps to improve this process. A single point of contact within
OBO’s planning division has been established for other agencies. OBO has also im-
proved its standard forms to ensure that requirements are incorporated into the RFP
package. Also, every month, OBO planners reach out to one other agency to discuss
ongoing projects. However, unlike the clear and widely available written guidance
and annual brieﬁngs on calculating CSCSP charges, written guidance on how, when,
and to whom technical requirements should be provided and how and when they are
incorporated into the building process is lacking. As discussed in the SED section
of the report, OBO needs to formalize and publish its process for obtaining and
incorporating other agency requirements into NEC projects.

   Agency representatives also raised a number of valid concerns and issues that
mirrored those made by regional bureaus, functional bureaus, and embassy staff.
OBO was not adequately communicating to agencies when:
     •   Operational costs in the NECs increased,
     •   Buildings were redesigned and the agency ofﬁce space was changed,
     •   Foreign policy changes affected other agency space requirements,23 and
     •   Projects were changed after construction started.
    A ﬁnal concern noted was that the agencies wanted a voice in decisions to
descope NECs or when modifying the conﬁguration of ofﬁce space. Some other
agencies had to fund renovations to add what they believe should be standard build-
ing features.

23   between the time NEC budgets are set and construction completed




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   79 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           Finally, the number of positions for which each agency is charged is based on
       embassy-generated ﬁgures. In the past, other agency headquarters elements had to
       contact their in-country representatives to check the ﬁgures and ensure that their
       in-country representative’s vision of the number of required positions was consis-
       tent with the agency’s headquarters vision. Agencies had to work with PDF ﬁles and
       coordinate with embassy HR staff to correct ﬁgures for resubmission. The process
       was cumbersome and time-consuming. To assist them, in January 2008, OBO in-
       formed the other agencies that they would receive electronic access to the embassy-
       generated ﬁgures that would facilitate this process. Near the end of the inspection,
       other agencies were granted access and given an extension to the deadline for review-
       ing embassy-generated ﬁgures. This access will assist headquarters elements of other
       agencies immensely.




80 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     FEDERAL REAL PROPERTY INITIATIVE - ACCOUNTING
                    AND REPORTING



    The President’s Management Agenda Initiative24 requires Executive Branch agen-
cies to develop comprehensive asset management plans. With guidance from the
Federal Real Property Council and the General Services Administration, agencies are
required to submit annual reports of all real property to the Federal Real Property
Proﬁle (FRPP). OMB monitors and scores the implementation of the Department’s
Asset Management Plan through quarterly reports. Various ofﬁces within OBO are
responsible for collecting and computing the data submitted to the FRPP. The OIG
team’s principal ﬁnding is that OBO’s information reporting in the annual FRPP is
inaccurate for the current replacement value of its real property inventory, annual
operating costs, and facility condition index.

     Inefﬁcient Data Collection, Management and
     Reporting

    OBO utilizes a legacy database application, the Real Property Application, to
inventory its overseas property portfolio. There are two versions of this software—
Headquarters RPA (Hqs RPA) and WebPass RPA (used by overseas posts). The data
in WebRPA is periodically uploaded to the Hqs RPA database. The use of dupli-
cative databases to record and manage the Department’s overseas real property is
inefﬁcient and, on occasion, the transfer of WebPass RPA data to Hqs RPA has been
error-prone.

    Hqs RPA is used by most operational ofﬁces within OBO to link other applica-
tions and spreadsheets for real property data and transactions to the Hqs RPA prop-
erty inventory. In addition to real property application input from posts, OBO issues
several annual worldwide cable requests for information (maintenance and repair
needs, property utilization, and property disposition) that is entered by OBO staff to
the various applications and spreadsheets. Because of the number and duplication
of applications and spreadsheets used to manage the Department’s overseas property
portfolio, comprehensive real property data and transactions entered into Hqs RPA
are not transparent to single real property managers at posts overseas.

24   Executive Order 13327, Federal Real Property Asset Management, dated February 4, 2004.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   81 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



           Annually, the Real Property Management Division in the Ofﬁce of Planning and
       Real Estate consolidates most of this information into a spreadsheet for the Depart-
       ment’s annual report to the FRPP. Though OBO has submitted three annual FRPP
       reports, it just began to incorporate FRPP data elements into Hqs RPA. (WebPass
       RPA is not part of the initial effort.) OBO requested assistance from the General
       Services Administration in this effort. The OIG team believes that the primary re-
       sponsibility for reporting most FRPP data elements should be assigned to the single
       real property managers at posts.

            Recommendation 30: The Bureau of Overseas Buildings Operations should
            consolidate systems managing real property data, provide access to all stake-
            holders, and assign accountability for data reporting to Single Real Property
            Managers at U.S. overseas missions. (Action: OBO)


            Annual Operating Costs

            The Department is required to report to the FRPP the annual operating costs for
       all properties for which the Department is responsible for maintenance and repair.
       Reportable annual operating costs include the full annual lease costs and operating
       expenses that are not covered in the lease contract (e.g., recurring maintenance and
       repair costs, utilities, cleaning or janitorial costs, and grounds maintenance, etc.). 25

           In its 2007 Assets Management Plan, OBO stated that all annual operating costs
       are reported to the FRPP. Several OBO ofﬁcials stated that the accuracy and timeli-
       ness of posts information has been problematic (some posts provide more complete
       data than others). The OIG team compared the annual operating costs for a number
       of long-term leased properties reported in the 2007 FRPP, to real property applica-
       tion post-speciﬁc property book reports and noted that the annual operating costs
       for some properties appeared incomplete, i.e., lease costs and possibly other expens-
       es were not calculated into the annual operating costs. 26

            Recommendation 31: The Bureau of Overseas Buildings Operations should
            reiterate to overseas missions that they provide the Bureau of Overseas Build-
            ings Operations with a complete accounting of all annual operating expenses to
            include all lease costs and building operating expenses for long-term leased and
            government-owned properties for inclusion in the annual Federal Real Property
            Proﬁle. (Action: OBO)

       25  See the 2007 Guidance for Real Property Inventory Reporting, dated June 8, 2007; page 11.
       26  The OIG team reviewed 2007 annual operating cost data for over 5,100 owned and leased
       properties (see OBO/PD/CMD data ﬁle-DOS_FRPP_Computation Data_Dec07.xls) and com-
       pared the data to the 2007 FRPP annual report data.

82 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     Computation, Reporting and Use of Condition Index

     In its 2007 Joint Asset Management Plan, OBO reported the condition index
(CI) of approximately 5,000 Department properties at 93.95 percent.27 OBO also
reported in the plan that it has “$132 million in deferred, unfunded maintenance and
repair needs for prior ﬁscal years” and at least “$100 million in annual major rehabili-
tation projects.” There is general agreement within OBO that there are signiﬁcant
unmet maintenance and repair needs. OBO’s reporting of such a high CI would
seem to be at odds with the realities on the ground, and certainly conveys the wrong
impression to OMB.

     The CI is a general measure of a constructed asset’s condition at a speciﬁc point
in time and is reported as a percent on a scale of zero to 100 percent.28 The plant re-
placement value (PRV) is deﬁned as the cost of replacing an existing asset at today’s
standard. Repair needs costs are deﬁned as the amount necessary to ensure that a
constructed asset is restored to a condition substantially equivalent to the originally
intended and designed capacity, efﬁciency, or capability. While the Department is
required to report the PRV and the CI for all of its owned and long-term leased
properties, the ﬁgure for repair needs costs used to calculate the CI is not a report-
able data element in the FRPP, is not transparent to all stakeholders, and receives no
independent scrutiny.

    The OIG team found that the repair costs OBO used to calculate the CI rating
far exceeded the PRVs for 16 of the 39 major rehabilitation projects scheduled in the
2008 LROBP.29 Additionally, 14 of those 16 projects had project costs that far ex-
ceeded the computed PRVs. Either the PRVs are grossly undervalued or, if correct,
OBO should consider other real estate alternatives.

    For example, the Helsinki project cost is $50.1 million, and the OIG team found
that the combined PRV for the properties described in the project descriptions

27   See the Department of State and USAID 2007 Joint Asset Management Plan, page 5: “An
analysis of all Department of State and USAID properties resulted in individual Condition Indi-
ces of 93.95% and 96.56%, respectively, and an overall Condition Index of 94.04%.”
28 See the 2007 Guidance for Real Property Inventory Reporting, dated June 8, 2007.
29 See OBO/PRE/PD/CMD data ﬁle-DOS_FRPP_Computation Data_Dec07.xls. The 2008
major rehabilitation projects are Nassau, Minsk, Brasilia (CMR), Chengdu, Hong Kong, Copen-
hagen, Helsinki, Tegucigalpa, Reykjavik, Jerusalem, Tokyo, Vilnius, Ulaanbaaatar, Apia, Stock-
holm, and Abu Dhabi.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   83 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



       totaled $27.2 million.30 For the Nassau project the total PRV for two properties is
       $13.7 million, yet the project costs are $29.7 million. The combined PRV for all the
       Hong Kong properties is $9.1 million and the project costs are $12.7 million. Ad-
       ditionally, for two of the 16 projects (Nassau and Hong Kong) in the CI formula, the
       total projects’ repair needs for more than one property (numerator) was divided by
       the PRV of only one of the properties (denominator) described in the project narra-
       tives. This resulted in a CI rating of zero percent for that one property (reported in
       the 2007 FRPP and the 2008 LROBP).31 Twenty-two of the 39 projects had project
       costs that exceed the repair needs costs used to calculate the CI rating for the prop-
       erties described in the projects narratives.32

            OBO has acknowledged that data used to compute the CI has presented certain
       challenges. One of the challenges OBO noted was the inconsistencies in the type
       of information reported by posts for maintenance and repair projects. It is gener-
       ally accepted that the information on maintenance needs reported by costs is neither
       complete nor accurate. OBO has recognized that it requires a better method of
       assessing the CI of its facilities. However, it remains unclear why repair needs costs
       and project costs far exceed the plant replacement values that OBO computed for
       the properties identiﬁed for major rehabilitation projects in the 2008 LROBP.

            On April 30, 2008, OBO awarded a contract to develop and implement a facil-
       ity index tool. The objective is the development of a CI model that uses building
       systems and component data and compares this data to industry standards in order
       to determine a CI for the total structure. The scope of work calls for the collection
       of data from posts using electronic and telephonic communication. The contractor
       is to provide a CI for each government-owned and long-term leased building as well
       as for each building system and component.

            Recommendation 32: The Bureau of Overseas Buildings Operations should
            review those major rehabilitation projects where the project costs or repair
            needs costs far exceed the plant replacement values to determine if the repair
            needs costs and plant replacement values are accurate. If so, OBO should de-
            termine what alternatives to major rehabilitation projects (property disposal,
            build, and purchase or lease new property) should be implemented. (Action:
            OBO)
       30   Four examples: Nassau (project costs are $29,782,000 vs. PRV of $13,523,912; Minsk (com-
       bined project costs for FY 2008/2009 are $22,420,000 vs. PRV of $9,884,587); Helsinki (project
       costs are $50,183,000 and combined PRV of described properties is $112,437,274); and Tokyo
       (combined project costs for FY 2011, 2012, and 2013 are $139,146,000 vs. PRV of $112,437,274.
       See 2008 LROBP, OBO/PRE/PD/CMD data ﬁle-DOS_FRPP_Computation Data_Dec07.xls.
       31 Twelve of the 39 projects have more than one property described in the LROBP project nar-
       ratives; however, the reported CI ratings were attributed to only one of the properties for each
       project.
       32 Repair needs costs should closely correlate with LROBP project costs. It would appear that
       either the repair needs or the project costs were poorly captured.
84 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



   Recommendation 33: The Bureau of Overseas Buildings Operations should
   establish clear and concise data collection and reporting criteria for the plant
   replacement value and the condition index elements. (Action: OBO)




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   85 .


                        SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





86 .   OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


             SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                        REAL ESTATE



Residential Lease Waivers

    The Foreign Service Buildings Act of 1926, as amended (22 U.S.C. 301), requires
the Secretary to approve waiver submissions for ofﬁce or residential leases that ex-
ceed space standards and are over $50,000 in annual lease costs. This authority has
been delegated to the OBO Director.

    OBO imposed a stricter requirement, requiring a waiver for residential leases in
excess of $25,000. The result, over the past few years, has been a sharp increase in
the number of waiver submissions processed annually (over 2,600 waiver requests
were processed in 2007 alone). This would suggest that the $25,000 rental ceiling
is not practical in most overseas rental markets. To address the volume of requests,
OBO requires that the review process be completed in approximately seven working
days. This internal suspense does not take into account the time needed to forward
waiver decision memoranda through OBO’s multilayered clearance and approval
process. Further, approval of lease waivers should be an exception and not routine.
OBO approves more than 85 percent of all lease waiver requests. The OIG team
questions the value of a lengthy lease waiver review and clearance process when less
than 15 percent of all waiver requests are denied. In some cases, the lack of timeli-
ness of the process for waivers that are ultimately approved has resulted in the loss
of lease opportunities. OBO has implemented the Rental Benchmarking Initiative
(RBI), which may eliminate waiver requests for leases under $50,000 (this initiative is
described in the following section).

    In the OIG OBO survey, 92 posts expressed concerns about the efﬁciency and
effectiveness of the lease waiver process.33 Over 50 percent of the 92 respondents
stated that the process was effective but cumbersome. Most stated that the pro-
cessing time for lease waivers often had a negative impact on posts’ ability to ob-
tain housing that meet the Department’s standards. Twenty-ﬁve percent of the 92
respondents found the lease waiver process to be inefﬁcient and the telegram request
format cumbersome. Disaffected respondents cited the following concerns:
     • 	 The Department’s imposed rental ceiling of $25,000 is arbitrary and impracti-
         cal.
33   If post has used the waiver process either for size or cost, is it working efﬁciently and effec-
tively for post? Are there any problems or issues post has raised with OBO regarding housing;
how satisﬁed is post with the resolution?

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008      87 .


                        SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




             • 	 The legislated $50,000 ceiling is outdated in today’s volatile overseas housing
                 market and needs to be revisited with Congress.
             • 	 Posts competing for limited housing that meet Department standards are
                 frustrated by the lack of a timely response from OBO that diminishes posts’
                 prospects.


             Recommendation 34: The Bureau of Overseas Buildings Operations should
             raise the rental ceiling from $25,000 to the legal maximum of $50,000 in order
             to signiﬁcantly reduce the percentage of waivers requests. (Action: OBO)


             Recommendation 35: The Bureau of Overseas Buildings Operations should
             streamline its lease waiver clearance and approval process to provide posts with
             timely decisions on lease waiver requests. (Action: OBO)



       Rental Benchmark Initiative

            OBO recently developed the RBI to provide more oversight for residential leas-
       es; reduce waiver request submissions for leases under $50,000, and to realize cost
       savings by establishing post-speciﬁc rental ranges.34 OBO believes the inherent value
       of RBI would be to provide robust oversight of the Department’s leased residential
       assets through continuous and rigorous analyses of lease costs and the containment
       of lease costs at posts for a set period.

             OBO contracted with a private ﬁrm to conduct local market surveys of residen-
       tial lease costs at overseas missions that are under consideration for participation in
       RBI. The ﬁrm gathers information from various sources and conducts an on-site
       survey on lease costs for all neighborhoods at a given post. The surveys do not take
       into consideration Department housing and security standards that may preclude
       U.S. missions from leasing residences in certain neighborhoods.

            The survey results provide an average of lease costs, in local currency, for stan-
       dard, mid-level and executive-sized housing at a post and are shared with posts for
       review and discussion of post-speciﬁc factors that may affect posts’ ability to lease
       residences within the suggested rental ranges. Once rental ranges have been agreed
       to, selected posts must participate in the initiative for a minimum of two years. As
       RBI participants, posts are authorized to lease properties for a one-year period dur-
       ing which they will be scored on their lease performance.
       34	   Lease waivers are still required for all functional facilities regardless of size or cost.

88 .             OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                        SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     OBO reviews and rates posts’ performance on a quarterly basis and provides
an annual performance rating to determine posts’ continued participation in the
initiative. The mechanism used to determine quarterly and annual scores are not
transparent. The OIG team’s review of quarterly performance cables indicates that
posts have been graded on criteria other than the established performance measures.
Scores were based on ﬁndings such as property addresses or lease terms entered
incorrectly into the real property application database. The OIG team could not
determine whether the ratings are issued for each lease transaction or the sum of the
entire lease transactions for a quarter.

   Remedial performance plans are crucial to the long-term success of the RBI
program.

    For example, Posts that receive yellow or red scores for two or more quarters, as
well as posts that receive a red score for an entire year and have had their RBI lease
authority rescinded, could be provided with remedial performance plans.

   The OIG team reviewed the comments of 102 respondents related to RBI.35
Thirty-one of the 102 OIG survey respondents currently participate in RBI:
     • 	 Most RBI participants stated that the initiative made it easier to acquire leases
         and reduced the number of waiver requests submitted annually.
     • 	 One post stated that OBO should coordinate with posts prior to conduct-
         ing market surveys to identify neighborhoods where posts are not allowed to
         lease residences due to security reasons.
     • 	 Several posts expressed concerns that the current ceilings would quickly
         become outdated due to ever increasing lease costs, and one stated its rental
         ceilings would be outdated within six months.
     • 	 At locations where all residential leases exceed $50,000, posts complained of
         the increased paperwork required for lease waiver submissions and concur-
         rent RBI benchmark negotiations of rental ceilings.
     • 	 Another post reported that the rental ceilings were appropriate for standard
         single-sized housing but too low for standard and mid-level three- to four-
         person-sized housing. The same post also stated that the market survey
         compared the housing of nonofﬁcial Americans living in-country who do
         not have to abide by Department housing and security standards, and as such
         is considerably more expensive, scarce, and in high demand.

35  Is post a participant in the Rental Benchmarking Initiative? If yes, is this process more ef-
ﬁcient than the waiver process? Has this initiative reduced the number of waiver requests sub-
mitted by post? Do the rental ceilings, determined by OBO local market surveys, realistically
address local rental costs?


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   89 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           Five of the 102 posts appeared to have been benchmarked as potential candi-
       dates for RBI participation. Three posts of the ﬁve stated that by the time market
       surveys were received the information was not reﬂective of the current lease mar-
       ket. One post, whose entire lease holdings exceed $50,000, stated that when post
       proposed rental ceilings other than what were presented in the market survey, OBO
       counteroffered with rental benchmarks far lower than what post had requested in its
       lease waiver requests for those same properties.

          Recommendation 36: The Bureau of Overseas Buildings Operations should
          score Rental Benchmarking Initiative performance in accordance with agreed
          upon standards. (Action: OBO)


          Recommendation 37: The Bureau of Overseas Buildings Operations should
          implement remedial plans of action for posts that do not perform well under
          the Rental Benchmarking Initiative. (Action: OBO)



       Build-to-Lease Program

            The build-to-lease (BTL) program presents a viable, attractive option to meet
       OBO’s requirements for new properties when OBO is unable to acquire functional
       or residential properties overseas that meet the Department’s requirements through
       purchase or lease; complies with OMB Circular No. A-11 operational lease require-
       ments; and, provides secure renewal and termination rights. Oftentimes, there is a
       shortage of available properties, particularly when U.S. missions must relocate to new
       national capitals. With the exception of program budget costs for initial planning
       visits, a BTL project is a lease transaction funded from the leasehold account (7400).
       Posts normally have 24 to 36 months from the approval of a BTL project to plan for
       lease costs. Since 2005, there have been 39 proposed BTL projects of which 35 were
       rejected due to costs or other considerations; one is currently pending review; and,
       three were completed:

          • 	 A chief of mission residence in La Paz that was completed in 2005.

          • 	 A housing compound in Belmopan that included 16 staff residences, a chief
              of mission residence, and a deputy chief of mission residence that was com-
              pleted in 2006.

          • 	 A Radio Free Europe ofﬁce building in Prague that was completed in 2007.




90 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    There are several advantages to the BTL program. It is ﬁnancially attractive be-
cause it leverages private sector capital. It delivers services faster by outsourcing to
the developer the land acquisition, design, and construction function. It reduces the
risk for the Department because the developer assumes the risk of land acquisition,
construction quality, and property ownership. Additionally, the Department does
not need to accept or lease the project until it is completed and OBO has determined
that the property meets the Department’s requirements.

     The OIG team identiﬁed several potential drawbacks to successful BTL project
implementation.36 One of the drawbacks is that OBO provides little oversight to en-
sure that the intended outcome will indeed meet posts’ stated needs and to preclude
unnecessary project speciﬁcations and changes that could result in delays or cost
overruns that impact lease costs. Though the developer bears the costs (and risk) of
land acquisition and construction, proactive oversight of these projects if other real
estate options are not viable is the Department’s responsibility. Another drawback
noted was that it may be unclear to posts what the full annual operating expenses
will be (for the full term of the lease) and whether post or OBO is responsible for
certain expenses (routine maintenance and repair, taxes, grounds maintenance, fees,
insurance, etc.). While 15 FAM 633 describes responsibility for lease costs for nor-
mal long- and short-term leases, the nature of the BTL program can confuse posts
in that it has some similarities to OBO renovation and construction projects.

     Recommendation 38: The Bureau of Overseas Buildings Operations should
     provide closer oversight of Build-to-Lease projects to ensure that the intended
     outcomes meet posts’ stated needs and to preclude escalation of lease costs due
     to unnecessary project speciﬁcations or changes. (Action: OBO)


     Recommendation 39: The Bureau of Overseas Buildings Operations should
     provide posts with a clear accounting of the total lease costs (for the life of the
     lease) that posts are responsible for that include the base lease costs, fees, taxes,
     maintenance and other annual operating expenses for properties acquired under
     the Build-to-Lease Program. (Action: OBO)




36   See OIG report of the limited-scope inspection of Embassy Belmopan (report number ISP-
I-08-13, dated March 2008). While an A&E ﬁrm was contracted by OBO to oversee the BTL
housing project, due to FAR provisions the ﬁrm could not act on behalf of the government to
address construction issues but did issue reports to OBO on the status of the project. Since the
BTL project is not funded by OBO, a project manager was not assigned. However, Embassy
Belmopan felt that more frequent visits by OBO to address construction issues would have re-
sulted in a better product.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   91 .


                        SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





92 .   OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


             SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



       INFORMATION MANAGEMENT AND INFORMATION
                      SECURITY



     OBO’s new management has begun the arduous task of addressing numerous
problems within the Information Management (IM) division, which is emerging
from a seven-year period during which the prior division management exhibited a
failure to carry out the duties that support OBO’s mission, as well as a disregard for
customer service. Senior management allowed the behavior to persist and ﬂourish,
and all aspects of IM operations suffered as a result. (b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


    To begin to unravel IM’s problems, OBO’s Director Ad Interim began seek-
ing assistance and input from all Department elements. For example, DS provided
assistance in sorting out the security ramiﬁcations of some unapproved IT security
tools, hardware, and software that had been in use. To address the IT irregularities,
the Director Ad Interim established an independent internal security element to
review IM internal policies and activities. The Department’s Bureau of Information
Resource Management (IRM) appointed an individual to serve as interim director
of the IM division, and efforts are underway to complete consolidation of network
operations with IRM. In addition to these ongoing efforts, OBO has organized a
variety of advisory groups to assess the condition of IT services, determine require-
ments, and plan a path forward for meeting those needs. A signiﬁcant achievement
has already been made in improving cooperation and communication with customers
as evidenced by the widespread participation in committees to improve IT services
and capabilities.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   93 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


       Information Management Division

           IM has gone through numerous changes in management, organizational struc-
       ture, and responsibilities during the last six months. The OBO/IM division is au-
       thorized for 44 positions according to its stafﬁng pattern; however, the current staff
       includes 10 full-time employees, 7 PSC contractors, and 28 vacancies (including GS
       and PSC positions).

           OBO staff described morale as low and the working environment as extremely
       difﬁcult under the previous IM management. The previous IM director enjoyed a
       unique position in OBO, reporting directly to the OBO Director—an oddity among
       IT professionals. This reporting relationship, coupled with the previous Director’s
       esteem for the previous IM director, gave the opportunity for acting without over-
       sight. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)        Staff members were closely monitored and open com-
       munication and collaboration across disciplines was effectively stiﬂed. The previous
       IM director did not interact with or attend Department management meetings, nor
       was information shared on IT projects and contracts, resulting in few individuals
       fully understanding the IM operations.

            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2) The Department and OBO used the opportunity to improve IM operations
       and address areas requiring attention. As stopgap measures, IRM detailed an in-
       formation management ofﬁcer to OBO for 120 days as acting IM director. During
       the inspection, this ofﬁcer eventually departed and was replaced by another person
       detailed to OBO from IRM. The vacancy announcement for the IM director po-
       sition was in OBO/HR for processing at the time of this report. The arrival of
       new management has resulted in increased coordination and communication with
       all OBO elements. Whereas previously IM favored meeting the needs of execu-
       tive management over others, users are now able to request needed assistance and
       share their concerns regarding the capabilities of applications being used within their
       respective business units. IM started attending meetings and discussing with OBO
       management their action items and progress updates.



94 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)       In addition, the OIG team
identiﬁed several areas requiring additional attention. First, there is a lack of SOPs
within the division. The OIG team was provided with SOPs that included items
such as disposal procedures, IM services and request processes, and laptop con-
ﬁguration and management. However, the SOPs did not include helpdesk services,
ISSO responsibilities, or local Change Control Board (CCB) procedures, among oth-
ers.

     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


   Recommendation 40: The Bureau of Overseas Buildings Operations should
   develop standard operating procedures for its Information Management divi-
   sion to include, at a minimum, information systems security ofﬁcer responsi-
   bilities and local Change Control Board procedures for hardware and software
   submission and approval. (Action: OBO)


    The IM budget does not capture the full scope of resources that are necessary to
meet the IT requirements of the bureau, and the total IT cost is difﬁcult to ascertain.
Each division began including its own IT elements in budget submissions after it
became apparent to users that the IM division would not address their needs. Out
of these efforts to support legitimate business needs rose a major decentralization of
IT acquisition. With other divisions including IT items in their budget submission,
IT funding is not centrally managed, allowing for OBO potentially having insuf-
ﬁcient funds to meet requirements and funding of duplicated efforts. The Director
Ad Interim has ordered all IT contracts to be forwarded to IM, and the Ofﬁce of
Internal Review and Operation Research (IROR) is conducting a survey to ensure
compliance.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   95 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




          Recommendation 41: The Bureau of Overseas Buildings Operations should 

          consolidate all information technology resources for applications development 

          and support into one budget within the Information Management division for 

          their management and oversight. (Action: OBO)



       Applications
            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)


           Notable OBO-speciﬁc applications among the list (b) (2)(b) (2)(b) (2)(b) (2)
       include The Museum System, Information Resource Management Systems (IRMS),
       Digital Media Library System, Primavera, and AutoCAD. BMIS and Project Infor-
       mation Database (PID) are other applications being used, which will be discussed
       separately. The Museum System is one example of a commercial off-the-shelf prod-
       uct successfully integrated into OBO operations. More common are applications
       such as IRMS, a legacy application within OBO built on obsolete programming code,
       but still very much necessary for mission critical functions. IRMS consists of some
       thirty modules built in a version of PowerBuilder no longer supported and in need

96 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



of upgrading. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2) .


     The Digital Media Library System is an example of trying to ﬁt needs to tech-
nology rather than ﬁnding technology to ﬁt needs. It is built on a rather expensive
Artesia platform, but despite being in place for three years, has seen only limited use.
It was intended to be an integrated system to store and manage all media ﬁles within
OBO, but it was never conﬁgured correctly or given the three terabytes of neces-
sary storage space. Primavera is a project management software application uniquely
tailored to the needs of construction operations, as it tracks details beyond other
project management software. As such, it fulﬁlls a legitimate business need within
the CC division. However, OBO is now pursuing newer versions of Primavera with
expanded executive decisionmaking support capabilities, which will add yet another
project management tool at OBO. Another area where OBO is going to have to
apply sound implementation processes is in AutoCAD software. This is in place
throughout the architecture and engineering and CC operations. However, indus-
try standards are moving towards building information model 3D systems. Imple-
menting such solutions could stretch IM resources and have a signiﬁcant impact on
OBO’s IT infrastructure.

    Costly Applications, Unmet Requirements

    The OIG team reviewed two speciﬁc applications, BMIS and PID, during the
inspection, because of widespread complaints brought to OIG’s attention during the
survey. BMIS was envisioned to be a single integrated system supporting all manage-
ment levels, while PID began as a small database to store basic project information
but grew to be an expansive system. BMIS and PID cost OBO approximately over
$6 million each. BMIS has not fulﬁlled its intended purpose, resulting in staff using
IRMS and other legacy application to perform needed functions. (b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)


Building Management Information System

    OBO management envisioned BMIS as a single integrated information manage-
ment and operations system supporting all management levels with information
related to asset management, computerized facilities maintenance, project man-
agement, real estate, space management, and training. Such systems are typically
referred to as computer-aided facilities management systems and are intended to
provide comprehensive information about all aspects of a building, as well as allow-
ing functions such as remote maintenance.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   97 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





            However, BMIS is generally regarded as an expensive application that failed thus
       far to achieve those goals of software integration to assist OBO to fulﬁll its mission.
       There are small groups that have found it useful, such as security staff who can get
       a project number issued to order doors, or PE staff that have found certain schedul-
       ing functions to be useful. However, many groups continue to use IRMS and other
       legacy applications or more specialized applications such as Primavera for functions
       that BMIS promised to provide. OBO’s Information Technology Advisory Commit-
       tee (ITAC) wrote in its preliminary ﬁndings presentation on May 30, 2008, that:
              The implementation and deployment of [BMIS] has lagged far
              behind expectations…most OBO ofﬁces are not using the tool and
              are not being served…there is no clear guidance on what BMIS is
              to do…BMIS became “the system” with no deﬁnition of what “the
              system” is, or was supposed to do.
            BMIS has design ﬂaws which often render it unusable. For example, the OIG
       team observed OBO staff having considerable difﬁculty navigating a user interface
       that is not very intuitive. New menu screens of different sizes litter the user’s desk-
       top, rather than sequential menus that can be shuttled through. Relatively simple
       functions often require excessive clicks to perform. Reporting functions in BMIS do
       not allow users to deﬁne their own parameters—they can only view reports gener-
       ated from uniform parameters. If new report parameters are required, BMIS con-
       tractors must be tasked to create them. Since BMIS implementation does not extend
       to posts, any data from posts must be either uploaded through a feeder system such
       as WebRPA or input manually. However, WebRPA has some data entry ﬁelds that
       are incompatible with BMIS, so there is wasted effort and potential data integrity
       issues. In addition to data integrity issues raised through compatibility problems, it
       is also a concern from the perspective of access control. For a system that can route
       authorizations for action items and payment of funds, some OBO employees were
       surprised to learn that users from different organizational units can delete ﬁles from
       BMIS without any audit history of that action being taken.

           One of the causes of BMIS’s failure is the lack of a deﬁned process for IT proj-
       ect management. BMIS was conceptualized during the previous management regime
       and was pushed upon the users without properly gathering business requirements or
       identifying potential alternatives within the Department or industry. Divisions were
       given one week to map their business processes to user requirements and provide
       them to IM management. Many divisions found the request to be unclear and so
       provided incomplete submissions. Additionally, the bidding process for BMIS was
       ﬂawed.




98 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




    The BMIS contract was supposed to be renewed at the end of May 2008. The
OIG team reviewed documentation associated with the contracting of the BMIS
system and found some striking irregularities. The purpose of the project is poorly
deﬁned in the statement of work and does not differentiate the intent of the system
from other project management software in use within OBO. (b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

    (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


     Some discussions took place regarding the future of the application and its usage
within the organization. For example, ITAC concluded that OBO should prepare a
detailed scope of work and solicit for bids—mainly because the current implementa-
tion lagged and did not meet expectations. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2) The OIG
team concurs with these recommendations.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   99 .


                        SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




        Project Information Database

            The Planning and Real Estate division uses a system called PID that stores basic
        information on projects such as scope, budget, and project details. PID began
        as a small database with a simple interface for users but has now become a rather
        complex and unwieldy tool—another example of a database that outgrew its origi-
        nal intent. Built from the Access database application within the Microsoft Ofﬁce
        personal productivity suite, it became the de facto decision support system for OBO,
        tracking $17.5 billion worth of government assets. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2) .

             (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

             (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


100 .            OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                       SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


   Recommendation 42: The Bureau of Overseas Buildings Operations should
   review all existing software development contracts and ensure that require-
   ments are clearly deﬁned, sufﬁcient supporting documentation for invoices and
   statements of work are present, and that the continuation of the contract is
   necessary. (Action: OBO)


    Lack of Project Management

    OBO is in its current predicament of having numerous applications not meeting
the needs of the organization because they have not followed sound project manage-
ment principles. This resulted in some applications that were outright failures, wide-
spread use of legacy applications, ad hoc solutions developed throughout the bureau,
applications providing duplicative services, expensive tools, and a general lack of
integration of existing applications.

    A deﬁned project management methodology will ensure that applications are cre-
ated that support the mission and needs of the organization. Project management
methodology includes step-by-step procedures with sufﬁcient management oversight
and approval, such as documenting business processes and workﬂows, deﬁning user
and system requirements, determining whether alternatives are already present within
the industry or the Department, and soliciting contractor bids.

   Recommendation 43: The Bureau of Overseas Buildings Operations should
   implement and enforce a standard project management methodology to govern
   the development of software applications within the bureau. (Action: OBO)



Information Technology Consolidation Efforts

    In light of the improved coordination and management environment within
OBO, efforts redoubled to consolidate IT services for desktop support with IRM—a
Department-wide initiative mandated by the Secretary. Initially, OBO was sched-
uled for IT consolidation in the fourth quarter of FY 2008. However, when OBO’s


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   101 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        recent organizational changes presented an opportunity, OBO was moved up in the
        Department consolidation schedule.

             With IT consolidation, IRM will be responsible for desktop support to OBO to
        include, at a minimum, unclassiﬁed and classiﬁed desktop computers, ofﬁce auto-
        mation products; e-mail for all domestic users; common network infrastructures
        supporting desktop operations; and the Helpdesk function. OBO will maintain
        responsibility for the operations and maintenance support of their respective bureau-
        speciﬁc applications. OBO management hopes that the consolidation will resolve
        one of the main complaints from users, which is the lack of customer service and
        support from the Helpdesk.

            The consolidation was tentatively scheduled to be completed by the beginning of
        June 2008, for which OBO has completed the Discovery Report and Gap Analysis.
        However, the milestones are constantly changing due to issues requiring further dis-
        cussion. This includes the organizational structure of IM and staff placement. The
        staff is allocated between network operations management and applications support
        management branches. The acting IM director had developed a vision for the place-
        ment of IM staff, and it shows two employees being transferred to IRM and a po-
        tential reduction in the number of PSC contractors. IRM, however, has not agreed
        with any proposed stafﬁng structure, but the IT consolidation team recommended
        the transfer of 19 positions to IRM. The deputies within OBO are concerned that
        the new IM division will not have adequate stafﬁng or resources to advance OBO’s
        mission.

            Another area requiring further discussions between OBO and IRM for IT con-
        solidation efforts is the use of existing and surplus equipment. The OIG team was
        informed that OBO obtained more than $2 million in new IT equipment under the
        previous IM management. The majority of the equipment has never been used and
        remains in its original packaging. OBO and IRM representatives are working with
        Global IT Modernization to determine whether the equipment could be incorpo-
        rated into OBO’s Global IT Modernization refresh lifecycle, which would eventually
        save OBO funding. Once the MOA is signed between Global IT Modernization and
        OBO, they will review their inventory list to determine what equipment is available
        and can be integrated into a life cycle plan. Specialized needs for OBO will be deter-
        mined on a case by case basis.




102 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Information Technology Advisory Committee

     Responding to a dysfunctional IM ofﬁce, managers from numerous OBO ofﬁces
formed an informal working group to address business needs. After the arrival of
the Director Ad Interim, the working group was formalized as ITAC, and its func-
tions were expanded to include the rationalization of all OBO software applications.
Eventually the committee formed subcommittees to deal with applications, systems
of record, and records management. The primary objective of this committee and
its subcommittees was to determine what OBO’s requirements were regarding sys-
tems that would support business functions, what was currently in place, and what
changes needed to be made to bring IM functionality in line with business require-
ments. An additional committee made up of the deputy directors of each OBO
division oversaw these efforts. An additional effort underway is led by a retired
Assistant Secretary, with the focus of determining BMIS’s and other applications’ as-
sociation with the Post Administrative Software Suite.

    In general, the various groups represent a considerable step forward for a bureau
that did not have open communication for some time—the simple act of allowing a
free exchange of ideas and collaboration signals a marked shift in the right direction.
However, the OIG team attended many of the committee meetings and found over-
laps in responsibilities. In some cases the committees dealt with subjects of a techni-
cal nature that were beyond the sphere of knowledge of those present. As a result,
the OIG team suggested that the IM division be included in more of the proceed-
ings. The OIG team is also concerned that OBO is creating new forums to handle
issues that could be addressed through already established Department mechanisms
such as the local CCB.

    Initially, the intended result of ITAC was a report with details submitted by the
three subcommittees featuring formal recommendations on how to move forward.
When it became clear that ITAC was imposing an unnecessarily short deadline on
their activities in order to match the deadline of the IT consolidation efforts, the
OIG team advised them to take the necessary time to deliberate and do the job right,
rather than rush to match the schedule of an operation that is transparent to ITAC’s
efforts. As a result, the ITAC backed off from their original plan for more formal
recommendations and instead presented their ﬁndings in a more informal forum,
which resulted in positive discussions that revealed interconnections between the
subcommittees that will need additional consideration. Another outcome of the
proceedings was the suggestion to create a permanent body such as an IT steering
committee to continue to provide a forum for fostering communication between the
IM division and business units even after the business of the ITAC is concluded.



OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   103 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Records Management

            Records management was identiﬁed long ago as an area that needs improvement
        within OBO, and a subcommittee was established for the purpose of addressing it as
        part of the ITAC. The subcommittee conducted an assessment of OBO’s current
        records, records management practices, and technical requirements and has devel-
        oped recommendations for a path forward. The records management subcommittee
        quickly realized that there are multiple facets to any discussion of records manage-
        ment. The traditional role involves the determination of what records are ofﬁcial
        and what schedules are to be followed for retention and retirement of those records.
        However, the role is expanded when electronic media are introduced. Such issues
        include debates over whether or which forms of electronic media can be considered
        ofﬁcial records, such as e-mails. Also, it is debated whether the records management
        function includes the rationalization of the means of storage.

            OBO had little success implementing IT solutions designed to manage the vo-
        luminous data required to meet OBO’s mission. Several solutions were tried unsuc-
        cessfully, including regular network drives with hierarchical folders, NetApp ﬁlers,
        OBOLink, and OBO DataStor. Of these, OBOLink was most favored but was in-
        explicably shut down by previous IM management in favor of OBO DataStor, which
        has been widely criticized. None of the solutions adequately provided for data
        access or version control, minimized duplication of records or corruption of data,
        or were sufﬁciently economical with regards to storage space and other resources.
        In general, OBO’s data has been poorly managed, so much so that many employees
        turned to saving ﬁles on local drives—almost as much as network drives according to
        the records management subcommittee survey—or in some cases attaching ﬁles to
        emails via Outlook so that they can sort and query among their ﬁles. Files are stored
        in multiple locations and, as such, individuals are not aware of the latest versions of
        documents. Locating a particular ﬁle for a construction project, for example, can be
        extremely difﬁcult if not impossible. The OIG team conﬁrmed this reality in con-
        ducting its case studies, located in Appendix C of this report.

            OBO lacks well-deﬁned models for business process workﬂows and the data
        generated by them. OBO does not know if all ﬁles stored in a shared network drive
        should be considered ofﬁcial records or if an enterprise content management system
        is needed to manage version control and other metadata associated with electronic
        ﬁles. Additionally, OBO must assess whether records management extends to deter-
        mining business process workﬂows for the organization. An attempt was once made
        by a consultant under contract to capture such information, but that information is
        apparently lost or retained by the contractor. There is no comprehensive, or even
        high-level model of the workﬂows of the business processes within OBO. Such a


104 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




model would serve to identify the collection points of information and how data is
transferred among bureau entities. There is no comprehensive entity-relationship
diagram to serve as a basis for database work done within the bureau. Once such a
diagram is established, IT solutions could be considered for the purposes of either
data storage (in the case of NetApp ﬁlers) or enterprise content management (in the
case of OBOLink, OBO DataStor, or the oft-mentioned SharePoint server).

   Recommendation 44: The Bureau of Overseas Buildings Operations should
   develop workﬂow documentation of their business processes and build all as-
   sociated data models and entity relationship diagrams to support further expen-
   ditures on software solutions for managing bureau data. (Action: OBO)



Content Management of Web Sites

    Content management of OBO Web sites is another area in need of improve-
ment. Each OBO division has an assigned content manager who handles the updat-
ing of relevant web site content and coordination with IM as needed. The majority
of content managers mentioned that the process for updating content is tedious and
inefﬁcient. The process entails transferring data from the network to a standalone
workstation to make any necessary changes using web editing software, saving the
changes to a CD, opening a trouble ticket with the Helpdesk, and providing the CD
to the IM point of contact for uploading. The process can take as long as a week to
be completed, diminishing the accuracy of Web site content for signiﬁcant periods.
Content managers also experience problems with incorrect information posted due
to compatibility issues and limited capabilities in their Web sites. In the past year,
OBO was in the process of procuring software to allow for Web content manage-
ment; however, that purchase was cancelled due to its cost and potential alternatives,
so the process has remained the same.

   Recommendation 45: The Bureau of Overseas Buildings Operations should
   evaluate options and implement a Web site content management system. (Ac-
   tion: OBO)




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   105 .


                        SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED





106 .   OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


              SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                         FORMAL RECOMMENDATIONS



Recommendation 1: The Bureau of Overseas Buildings Operations should
  establish a mission statement and formal operating procedures for the conduct of
  Internal Review and Operations Research activities. (Action: OBO)

Recommendation 2: The Bureau of Overseas Buildings Operations should pro-
  vide Internal Review and Operations ofﬁce personnel with the requisite training
  to perform its oversight function. (Action: OBO)

Recommendation 3: The Bureau of Overseas Buildings Operations should con-
  solidate the ofﬁce facilities interior design personnel now in the Planning, Devel-
  opment, and Real Estate Directorate into the Design and Engineering Division of
  the Project Execution Directorate. (Action: OBO)

Recommendation 4: The Bureau of Overseas Buildings Operations should inte-
  grate the project-speciﬁc planning, development, and design functions for capital
  construction and major renovation projects under the Ofﬁce of Project Execu-
  tion. (Action: OBO).

Recommendation 5: The Bureau of Overseas Buildings Operations should estab-
  lish an ofﬁce of project coordinators to oversee each major construction project.
  These coordinators should have project management expertise and be given the
  authority, responsibility, and administrative resources to oversee each project from
  planning to commissioning. (Action: OBO)

Recommendation 6: The Bureau of Overseas Buildings Operations should con-
  duct a top-to-bottom review of the RFP process for capital projects with the goal
  of producing direct accountability for a streamlined, less complicated and time
  consuming planning stage that results in a timely design-build RFP document that
  contains clear, realistic and nonconﬂicting guidance to prospective bidders.
  (Action: OBO)

Recommendation 7: The Bureau of Overseas Building Operations, in coordina-
  tion with the Bureau of Diplomatic Security, should document and include the
  security best practices into the infrastructure of the embassy of the future.
  (Action: OBO in coordination with DS)




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   107 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Recommendation 8: The Bureau of Overseas Buildings Operations, in coordina-
          tion with the Bureau of Diplomatic Security, should validate the environmental
          protection requirements for new embassy compounds and then codify them into
          the Overseas Security Policy Board security standards. (Action: OBO in coordi-
          nation with DS)

        Recommendation 9: The Bureau of Overseas Buildings Operations should stream-
          line the number of internal and external working groups under a single uniﬁed
          coordinating ofﬁce to address current and future construction issues. (Action:
          OBO)

        Recommendation 10: The Bureau of Overseas Buildings Operations should estab-
          lish a nimble, time-sensitive process which solicits comments from agencies, bu-
          reaus, and posts; documents short- and long-term suggestions; and expeditiously
          incorporates those comments and suggestions into changes and improvements to
          the overall Capital Security Construction Program. (Action: OBO)

        Recommendation 11: The Bureau of Overseas Buildings Operations should es-
          tablish a comprehensive Washington-based program to coordinate, monitor, and
          document commissioning activities for all trades and activities associated with a
          construction project. (Action: OBO)

        Recommendation 12: The Bureau of Overseas Buildings Operations should
          establish and enforce a project documentation database that provides essential
          information from planning to commissioning in a readily retrievable format. This
          information should be made accessible to personnel within the Bureau of Over-
          seas Buildings Operations and other State Department entities that require the
          information in a read-only format. Key documentation presently maintained only
          by the PD in the ﬁeld should also be archived to this database. (Action: OBO)

        Recommendation 13: The Bureau of Overseas Buildings Operations should estab-
          lish a mandatory outline for a comprehensive Project Director’s project comple-
          tion report with an appropriate deadline for completing the report. (Action:
          OBO)

        Recommendation 14: The Bureau of Overseas Buildings Operations should update
          the 15 FAM 812.2 Fire Inspection requirement to include that posts submit an
          annual report of ﬁndings for ﬁre inspection. (Action: OBO)

        Recommendation 15: The Bureau of Overseas Buildings Operations should per-
          form ﬁre inspections at overseas posts annually using either appropriately trained
          post personnel or headquarters staff. (Action: OBO)



108 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




Recommendation 16: The Bureau of Overseas Buildings Operations should devel-
  op and implement an action plan for how best to provide the training, preventive
  maintenance, and service support to posts in areas of the world where such sup-
  port is not available to ensure that the facilities can be operated and maintained as
  intended, using cost sharing principles to the extent possible. (Action: OBO)

Recommendation 17: The Bureau of Overseas Buildings Operations should
  develop and implement a system for accurately identifying the costs of operating
  and maintaining new embassy compounds and legacy properties and then budget
  accordingly. (Action: OBO)

Recommendation 18: The Bureau of Overseas Buildings Operations should con-
  tinue working to eliminate Human Resources backlogs of personnel actions.
  (Action: OBO)

Recommendation 19: The Bureau of Overseas Buildings Operations should con-
  tinue working to fully staff the Human Resources ofﬁce and ensure that all staff
  receives the training and resources to perform their duties. (Action: OBO)

Recommendation 20: The Bureau of Overseas Buildings Operations should devel-
  op and begin implementing a plan to review and rewrite for accuracy the position
  descriptions of direct hire staff. (Action: OBO)

Recommendation 21: The Bureau of Overseas Buildings Operations should put in
  place procedures to ensure that each direct hire employee has an accurate and
  current performance appraisal on ﬁle. (Action: OBO)

Recommendation 22: The Bureau of Overseas Buildings Operations should
  conduct a review of its procedures for using personal services contractors to
  ensure that relevant government policies are scrupulously followed so that the use
  of personal services contractors does not detract from the career development of
  direct hire employees. (Action: OBO)

Recommendation 23: The Ofﬁce of Overseas Buildings Operations should estab-
  lish a mechanism for verifying that ﬁrst-line managers ensure travel is necessary
  and create a system for ensuring that trips are coordinated. (Action: OBO)

Recommendation 24: The Bureau of Overseas Buildings Operations should re-
  quire that the Construction and Commissioning division add a Value Added
  Tax item to its monthly Project Director’s progress report and that the Project
  Evaluation and Analysis division report Value Added Tax accomplishments at the
  monthly program performance review. (Action: OBO)



OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   109 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Recommendation 25: The Under Secretary for Management should establish a
          formal process to ensure that the Bureau of Administration and the Bureau of
          Overseas Buildings Operations establish written timelines for the submission of
          FY 2009 and future technical requirements packages along with target contract
          award dates; and, adjust contract award dates (into the next ﬁscal year if neces-
          sary) when technical requirements packages are submitted too late to conduct
          appropriate procurement procedures. (Action: M, in coordination with A and
          OBO)

        Recommendation 26: The Under Secretary for Management should ensure that
          the Bureau of Administration institutes procedures to monitor the timeliness and
          completeness of technical requirements packages; and, report back to the Under
          Secretary for Management and Bureau of Overseas Buildings Operation when
          packages are late. (Action: M, in coordination with A)

        Recommendation 27: The Under Secretary for Management should obtain revised
          contract award dates for FY 2008 projects from the Bureau of Administration
          that will allow for a proper acquisition process and then consider deferring appro-
          priate projects into the following ﬁscal year. (Action: M)

        Recommendation 28: The Bureau of Overseas Buildings Operations should
          review and revise performance measures related to providing the Bureau of
          Administration request for proposal packages in a timely manner to ensure that
          the measures use the initial Master Procurement Integration Schedule (or other
          Acquisition Plan or service level agreement) that is coordinated with the Ofﬁce of
          Acquisitions Management as its performance benchmark and have clear thresh-
          olds for delinquent reporting. (Action: OBO, in coordination with A)

        Recommendation 29: The Bureau of Overseas Buildings Operations should en-
          sure that the work commitments of employees who have responsibilities related
          to timely request for proposal packages address performance measures for which
          they are responsible. (Action: OBO)

        Recommendation 30: The Bureau of Overseas Buildings Operations should con-
          solidate systems managing real property data, provide access to all stakeholders,
          and assign accountability for data reporting to Single Real Property Managers at
          U.S. overseas missions. (Action: OBO)

        Recommendation 31: The Bureau of Overseas Buildings Operations should reiter-
          ate to overseas missions that they provide the Bureau of Overseas Buildings
          Operations with a complete accounting of all annual operating expenses to in-
          clude all lease costs and building operating expenses for long-term leased and
          government-owned properties for inclusion in the annual Federal Real Property
          Proﬁle. (Action: OBO)

110 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




Recommendation 32: The Bureau of Overseas Buildings Operations should review
  those major rehabilitation projects where the project costs or repair needs costs
  far exceed the plant replacement values to determine if the repair needs costs and
  plant replacement values are accurate. If so, OBO should determine what alterna-
  tives to major rehabilitation projects (property disposal, build, and purchase or
  lease new property) should be implemented. (Action: OBO)

Recommendation 33: The Bureau of Overseas Buildings Operations should estab-
  lish clear and concise data collection and reporting criteria for the plant replace-
  ment value and the condition index elements. (Action: OBO)

Recommendation 34: The Bureau of Overseas Buildings Operations should raise
  the rental ceiling from $25,000 to the legal maximum of $50,000 in order to
  signiﬁcantly reduce the percentage of waivers requests. (Action: OBO)

Recommendation 35: The Bureau of Overseas Buildings Operations should
  streamline its lease waiver clearance and approval process to provide posts with
  timely decisions on lease waiver requests. (Action: OBO)

Recommendation 36: The Bureau of Overseas Buildings Operations should score
  Rental Benchmarking Initiative performance in accordance with agreed upon
  standards. (Action: OBO)

Recommendation 37: The Bureau of Overseas Buildings Operations should imple-
  ment remedial plans of action for posts that do not perform well under the Rent-
  al Benchmarking Initiative. (Action: OBO)

Recommendation 38: The Bureau of Overseas Buildings Operations should pro-
  vide closer oversight of Build-to-Lease projects to ensure that the intended out-
  comes meet posts’ stated needs and to preclude escalation of lease costs due to
  unnecessary project speciﬁcations or changes. (Action: OBO)

Recommendation 39: The Bureau of Overseas Buildings Operations should pro-
  vide posts with a clear accounting of the total lease costs (for the life of the lease)
  that posts are responsible for that include the base lease costs, fees, taxes, main-
  tenance and other annual operating expenses for properties acquired under the
  Build-to-Lease Program. (Action: OBO)

Recommendation 40: The Bureau of Overseas Buildings Operations should
  develop standard operating procedures for its Information Management division
  to include, at a minimum, information systems security ofﬁcer responsibilities and
  local Change Control Board procedures for hardware and software submission
  and approval. (Action: OBO)


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   111 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Recommendation 41: The Bureau of Overseas Buildings Operations should con-
          solidate all information technology resources for applications development and
          support into one budget within the Information Management division for their
          management and oversight. (Action: OBO)

        Recommendation 42: The Bureau of Overseas Buildings Operations should re-
          view all existing software development contracts and ensure that requirements are
          clearly deﬁned, sufﬁcient supporting documentation for invoices and statements
          of work are present, and that the continuation of the contract is necessary. (Ac-
          tion: OBO)

        Recommendation 43: The Bureau of Overseas Buildings Operations should imple-
          ment and enforce a standard project management methodology to govern the
          development of software applications within the bureau. (Action: OBO)

        Recommendation 44: The Bureau of Overseas Buildings Operations should devel-
          op workﬂow documentation of their business processes and build all associated
          data models and entity relationship diagrams to support further expenditures on
          software solutions for managing bureau data. (Action: OBO)

        Recommendation 45: The Bureau of Overseas Buildings Operations should evalu-
          ate options and implement a Web site content management system. (Action:
          OBO)




112 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                       INFORMAL RECOMMENDATIONS



Informal recommendations cover operational matters not requiring action by orga-
nizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.

Developing a vertical standard embassy design to the level of detail of the present
design models is problematic because these projects can be expected to vary widely
in zoning requirements, site conﬁguration, mission size, and organization.

Informal Recommendation 1: The Bureau of Overseas Buildings Operations
should consider developing only basic requirements for the Vertical Standard Em-
bassy Design using the design-bid-build method of delivery for these unique proj-
ects.

OIG heard allegations of irregularities in tracking employee time and attendance.
Some of the irregularities may be the result of timekeepers who are not familiar with
the electronic tracking system and managers who do not know their roles in time and
attendance oversight.

Informal Recommendation 2: The Bureau of Overseas Buildings Operations
should ensure that timekeepers are trained on the automated time and attendance
system as well as managers who must be familiar with the system and procedures to
fulﬁll their legal oversight responsibilities.

Bureau of Overseas Buildings Operations project executives (located domestically)
approve new embassy construction contractor invoices. Project executives are far
removed from the contractor’s work site and are responsible for coordinating with
on-site PDs (who are the contract ofﬁcer’s representatives) to ensure that invoice
information is accurate.

Informal Recommendation 3: The Bureau of Overseas Buildings Operations
should institute quarterly spot checks to ensure Project Executives have veriﬁed
invoice information with Project Directors before approving invoices.

The Bureau of Overseas Buildings Operations PDs regularly sign contract modiﬁca-
tions (called “ﬁeld modiﬁcations”) without ﬁrst checking with the bureau’s Financial


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   113 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Management Division to ensure that funds are available. Bureau of Overseas Build-
        ings Operations representatives stated that PDs coordinate with the CC division to
        determine if adequate contingency funds are available for contract modiﬁcations.

        Informal Recommendation 4: The Bureau of Overseas Buildings Operations
        should ensure that its process for certifying funds availability for ﬁeld modiﬁcations
        is consistent with 4 FAM.

        Field modiﬁcations are not usually recorded promptly in the accounting system nor
        made part of the contract. 4 FAM 084.4 and 4 FAM 087.2 both require the prompt
        recording of transactions having an effect on apportionment and funds control.

        Informal Recommendation 5: The Bureau of Overseas Buildings Operations
        should revise its ﬁeld modiﬁcation procedures to ensure prompt recording of trans-
        actions.

        Bureau of Overseas Buildings Operations cost estimators’ performance standards
        related to the major construction contracts are to be within plus or minus 10 percent
        of the competitive range. However, the section has not actually measured perfor-
        mance against those standards for the FY 2007 construction awards.

        Informal Recommendation 6: The Bureau of Overseas Buildings Operations
        should review performance standards related to the accuracy of Independent Gov-
        ernment Estimates and Construction Working Estimates and develop a benchmark
        timeline for measuring and reporting on those standards.

        Bureau of Overseas Buildings Operations cost estimators also lack some of the tools
        they need to generate accurate estimates including: a staff handbook listing all stan-
        dard forms and processes CMD staff should use to develop cost estimates; an updat-
        ed Standard Embassy Design template; and, an enterprise-wide estimating system.

        Informal Recommendation 7: The Bureau of Overseas Buildings Operations
        should develop a staff handbook of all standard forms and processes.

        Informal Recommendation 8: The Bureau of Overseas Buildings Operations
        should update the standard embassy design template for estimating costs.

        Informal Recommendation 9: The Bureau of Overseas Buildings Operations
        should determine whether an enterprise-wide version of a cost estimating system can
        be cost effectively implemented to meet industry standards.

        Since the Bureau of Overseas Buildings Operations’ VTA was discontinued, it has
        became apparent that many contract ofﬁcer representatives and assistant contract

114 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



ofﬁcer representatives do not fully understand how to approve invoices using the
correct line level fund cite.

Informal Recommendation 10: The Bureau of Overseas Buildings Operations
should arrange a refresher training session for all contract ofﬁcer representatives and
assistant contract ofﬁcer representatives on their responsibilities in reviewing and ap-
proving contractor invoices.

An individual responsible for overseeing one the Bureau of Overseas Buildings Op-
erations’ domestic contractors has not been delegated those responsibilities by AQM.
Additionally, that individual has not always certiﬁed hours worked on invoices. An
individual in a different ofﬁce without direct knowledge of the contractor’s hours
has been signing for the hours.

Informal Recommendation 11: The Bureau of Overseas Buildings Operations
should identify all designated contract ofﬁcer representatives located domestically
and ensure that they are cognizant of the scope and services that their contractors
are performing and are in the best position to oversee these contractors.

Given increased construction costs and the devaluation of the dollar, it is unlikely
the Bureau of Overseas Buildings Operations will be able to complete all 150 NECs
with $17.5 billion as originally envisioned. Although the bureau has requested an ad-
ditional funding for its FY 2008 program, it is unclear whether it has communicated
to Congress, OMB, and the other agencies how a more realistic cost escalation rate
would affect the NEC program in terms of how many of the 150 NECs are likely to
be completed with $17.5 billion.

Informal Recommendation 12: The Bureau of Overseas Buildings Operations
should provide Congress, the Ofﬁce of Management and Budget, and the tenant
agencies a more realistic forecast of how many new embassy compounds are likely to
be completed with $17.5 billion.

Other agencies have not been able to fully fund their CSCSP contributions. OMB
instructed the Bureau of Overseas Buildings Operations to make accommodations
to those agencies unable to make full CSCSP contributions in FY 2008.

Informal Recommendation 13: The Bureau of Overseas Buildings Operations
should ensure that its plan for dealing with other agency funding shortfalls is equi-
table and transparent.

Headquarters elements of other agencies are involved only tangentially in selecting
which facilities will be put on the top 80 list and built with CSCSP funding despite


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   115 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        legislative language that states “the program will include agency involvement in set-
        ting priorities.”

        Informal Recommendation 14: The Bureau of Overseas Buildings Operations
        should advise the Ofﬁce of Policy, Rightsizing, and Innovation and the regional bu-
        reaus on how and when headquarters elements of other agencies should be given the
        opportunity to comment on new nominations to the top 80 list each year.




116 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                PRINCIPAL OFFICIALS



Position                                                 Name


Director Ad Interim                                      Richard J. Shinnick
Internal Review & Operations Research
    Manager                                              Shirley Miles


Planning and Real Estate
    Managing Director                                    Jay Hicks
    Deputy Director, Planning                            Marcus Hebert
    Deputy Director, Real Estate                         Patrick McNamara
Strategic Planning Division
    Director                                             Alex Kurien
Project Development Division
    Director                                             David Barr
Project Evaluation & Analysis Division
    Acting Director                                      Richard Gausseres
Cost Management Division
    Director                                             Kathy Bethany
Planning Integration Division
    Director, Acting                                     Nick Retherford
Real Estate Evaluation Division
    Director                                             James W. Curtis
Acquisitions & Disposals Division
    Director                                             J. Keith Wilkie
Project Execution
    Managing Director                                    Joseph W. Toussaint
    Deputy Director                                      William Colston
Construction & Commissioning Division
    Director                                             Robert McKinnie



OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   117 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




        Design and Engineering Division
            Director                             William Miner
        Security Management Division
            Director                             Stephen Klein
        Special Projects Coordination Division
            Director                             Jaime Salcedo
        Facility Management Division
            Director                             Santiago Rich
        Operations
            Managing Director                    Adam Namm
            Deputy Director                      Vacant
        Area Management Division
            Director                             Roy Chavera
        Safety, Health & Environmental Management
            Director                             David Needham
        Fire Protection Division
            Director                             Bruce Sincox
        Art in Embassies Program
            Director                             Anne Johnson
        Resource Management Ofﬁce
            Managing Director                    Jurg Hochuli
            Deputy Director                      A. Ramsay Stallman
        Financial Management Division
            Director                             Jeff Reba
        Policy & Programming Division
            Director                             Isaias Alba, III
        Information Management
            Director                             Vacant
        Management Support Division
            Director                             Roberto Coquis
        Human Resources Division
            Director                             Carmen Montgomery
        External Affairs
            Manager                              Vacant


118 .         OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                      ABBREVIATIONS


A                              Bureau of Administration
A/E                            architecture and engineering ﬁrm
A/LM                           Bureau of Administration, Logistics Management
AM                             area management
AQM                            Ofﬁce of Acquisitions Management
ART                            Art in Embassies program
BMIS                           Building Management Information System
BOE                            building operating expenses
BTL                            build-to-lease program
CAA                            controlled access area
CAC                            compound access control
CC                             Construction and Commissioning Division
CCB                            Change Control Board
CI                             condition Index
CMD                            Cost Management Division
COR                            contracting ofﬁcer’s representative
COTR                           Contracting Ofﬁcer’s Technical Representative
CSCP                           Capital Security Construction Program
CSCSP                          Capital Security Cost Sharing Program
CWE                            current working estimate
DS                             Bureau of Diplomatic Security
DTRI                           Diplomatic Tax Relief Initiative
Department                     Department of State
FAC                            Facilities Management Division
FM                             facility manager/Facilities Management Program
FIR                            Fire Protection Division


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   119 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




        FRPP                          Federal real property proﬁle
        FS                            Foreign Service
        GAO                           Government Accountability Ofﬁce
        GSO                           General Services Ofﬁce
        GFMS                          Global Financial Management System
        Hqs RPA                       Headquarters Real Property Application
        HR                            human resources
        HVAC                          veating, ventilation, and air conditioning
        ICASS                         International Cooperative Administrative Support
                                      Services
        IGE                           independent government estimate
        IM                            information management
        IRM                           Bureau of Information Resource Management
        IROR                          Ofﬁce of Internal Review and Operations Research
        ISSO                          information system security ofﬁcer
        IT                            information technology
        ITAC                          Information Technology Advisory Committee
        LROBP                         Long-Range Overseas Buildings Plan
        M/MED                         Ofﬁce of Medical Services
        MSD                           Management Support Division
        M/PRI                         Bureau of Management, Ofﬁce of Management Policy,
                                      Rightsizing, and Innovation
        M&R                           maintenance and repair
        MOU                           memorandum of understanding
        NEC                           new embassy compound
        O&M                           operations and maintenance
        OBO                           Bureau of Overseas Buildings Operations
        OIG                           Ofﬁce of Inspector General
        OMB                           Ofﬁce of Management and Budget
        PAP                           project analysis package


120 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



PEA                            project evaluation & analysis
PD                             project director
PE                             Project Execution Division
PID                            project information database
POE                            post occupancy evaluation
PRE                            Planning and Real Estate Division
PRV                            plant replacement value
PSC                            personal services contractor
RBI                            rental benchmark initiative
RFP                            request for proposal
SCR                            standards change request
SED                            standard embassy design
SHEM                           Safety, Health, and Environmental Management
SOP                            standard operating procedure
USAID                          U.S. Agency for International Development
VAT                            value-added tax
VSED                           vertical standard embassy design
VTA                            voucher tracking system
Web RPA                        Real Property Application
WebWOW                         Work Orders for Windows




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   121 .


                        SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED





122 .   OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


              SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



        APPENDIX A: FUNDING AVAILABLE TO OBO IN
       FY 2007 FOR EMBASSY SECURITY CONSTRUCTION
                    AND MAINTENANCE



                                                                       Selected
Funding Description                                                     Details              Total
Worldwide Security Upgrades                                                                  $1,330,906
Worldwide Security Capital, CSCSP Funding                                                    $1,175,036
Operations, Leaseholds and Functional Programs                                                $800,727
  Functional Programs
     Planning & Development Division (PD)                               $12,991
     Real Estate Division (RE)                                           $6,667
     Project Execution Division (PE)
         Construction & Commissioning                                   $64,150
         Design & Engineering                                           $28,990
         Security Management                                            $17,458
         Historic Preservation Portfolio Program                          $465
         Special Projects Coordination Division                          $7,764
  Operations & Maintenance (OM)
     Area Management
         Major Rehabilitation Program                                    $80,454
         Leasehold Program                                              $353,816
         M&R - Post Routine Maintenance & Repair                         $31,533
         M&R - Special Maintenance Projects                              $24,448
         M&R - Staff Salaries & Support                                   $6,447
         M&R - Program Management                                        $10,537
     Art in Embassies                                                     $2,225
     Facilities Management                                              $66,542
     Fire Protection                                                      $7,945
     Post Communication                                                   $9,258
      Safety, Health & Environmental Management                          $3,810
  Information Management & Support (IMS)
     Information Management                                              $12,879
     Management Support                                                  $18,680
     Representation                                                         $25
  Headquarters                                                           $10,302
  Domestic Renovations                                                   $23,341
  Operations, Leaseholds and Functional Subtotal:                       $800,727




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008        123 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




                                                                             Selected
        Funding Description                                                   Details               Total
        Asset Management, Real Property Acquisitions                                                $594,475
        Supplemental Appropriations - Emergency Supplemental                                          $73,153
        Strategic Capital                                                                             $32,994
        Kosovo Supplemental                                                                             $652
        Kosovo Supplemental                                                                             $651
        Headquarters                                                                                    $520
        No Point Account                                                                                  $10
        Total Available Funding                                                                   $4,009,124*




124 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





   APPENDIX B: OIG CUSTOMER SATISFACTION SURVEY



On March 6, 2008, State 23375 was transmitted to All Diplomatic and Consular
Posts (ALDAC). The Director Ad Interim requested that chiefs of mission reply
by March 21, 2008, to 17 open-ended questions concerning three areas of OBO
programs and services (NECs and newly acquired buildings; housing; maintenance
and repair) and general questions (OBO-speciﬁc software; quality of communica­
tion between post and OBO; general comments). One Washington ofﬁce, replying
on behalf of its ﬁeld-based services, and a total of 122 posts from all six regional
bureaus responded by the deadline. The respondents included large missions with
constituent posts; medium and small missions; and posts with current and completed
major construction projects. Some of the respondents included observations from
prior postings, as well as the current post. Responses were thoughtful, with concrete
examples; many offered constructive suggestions for process improvements.

The numbers of the questions correspond to the paragraphs of the ALDAC cable.

New Embassy Compounds and Newly Acquired Buildings (questions 5 - 7b)

Twenty-ﬁve posts plus M/MED answered Question 5:
         If you are currently occupying one of the 53 capital projects
         completed since 2001, please describe your level of satisfaction
         with the new facility, including suitability of space and
         functionality of mechanical systems. Please address the positive
         attributes of the new facilities and areas that could be, or should
         have been, improved.
Posts praised the design and beauty of the new buildings. Compared to previous
facilities, many noted the NECs were well laid out, comfortable, well-equipped,
more efﬁcient, and technically advanced. Some posts limited their descriptions to
adequate, functional, and solid. Six respondents mentioned safety, with statements
ranging from “safer” to “vastly improved in security.”

Many respondents commented on unanticipated space issues in the NECs: lack
of space in the medical unit; insufﬁcient parking; inappropriate outdoor consular
waiting areas; no area for large town hall meetings; no bathrooms in controlled ac­
cess areas (CAA); small quarters for the Marine security guards; and insufﬁcient or
nonexistent warehouse and motor pool spaces. Tbilisi and Zagreb noted that the


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   125 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        new location was considered to be too far from the center of town which created
        problems for staff and contacts.

        Two posts, Luanda and Rangoon, noted there were no service double doors for
        bringing large-sized items into the building. Rangoon also noted several ergonomic
        concerns, including placement of door handles, mailboxes, windows, and bathroom
        water drainage. In Panama, where there are many retired American citizens with lim­
        ited mobility, the distance from the compound access control entrance to the com­
        pound buildings was long and dangerous to those using wheelchairs, walkers, and
        canes. Several posts wished there was more attention paid to energy conservation in
        planning and design.

        Five posts stated that advanced mechanical systems posed too great a maintenance
        challenge. Several stressed the need to create regional maintenance centers to assist
        local staff. Several posts noted that the infrastructure and mechanical systems caused
        “endless problems,” citing in particular air conditioning chillers and inadequate cool­
        ing and wiring for computers. Belmopan stated that it spent six months without an
        adequately functioning air conditioning system “as a result of an accelerated [con­
        struction] schedule.”

        There were numerous comments on the commissioning process, including the ﬁre
        suppression and building automation systems not being ready at move-in. Managua
        suggested the commissioning be overseen by a third party and not the PD. Mexico-
        Merida recommended that facilities managers be assigned from start to ﬁnish.

        Forty-ﬁve posts plus M/MED answered Question 6:
               If you have a current capital construction project underway, please
               describe your experiences in dealing with OBO during planning
               and design, site acquisition (if applicable), and construction and
               commissioning (if applicable). Please comment on the quality
               of communication between post and OBO. If current mission
               staff do not have personal knowledge of the project or do not
               have documents in post ﬁles to consult, please note that in your
               response.

        Planning and Design
        Posts generally saw a need for more input in planning and incorporation of its sug­
        gestions in the ﬁnal plan. Posts commented that communications with OBO were
        generally professional, but varied widely in quality and responsiveness as the project
        moved through different phases.



126 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




 Six commented speciﬁcally on communications with OBO during planning. Dubai
said that the site visits were well planned, but it was on its third planning manager in
two years. Nouakchott felt that OBO listened to post input on layout and design.
Kabul found planning open and honest. Manila had mixed feelings about communi­
cation during planning: post concerns were addressed but many queries went un­
answered, requiring phone calls to prompt a response. Berlin noted that its project
was not a SED and not part of the Capital Security Program; while it expected the
ﬁnished building to be impressive, it expressed concern about a lack of consultation
with post or the Bureau of European Affairs when, in response to a Congressional
budget cut, OBO conducted a quick redesign, which post felt had defects in logistics
and maintenance.

Seven respondents expressed concerns with design and space changes. Kampala
believed it needed a larger safe haven. Dubai noted difﬁculties in pressing for com­
mon-sense changes to the plan. Surabaya and Taipei stated that their respective
warehouses were eliminated without post knowledge. Suva felt that OBO showed
lack of ﬂexibility in considering future growth. Rome reported that its project for an
enhanced perimeter security fence and visitors entrance failed to include HVAC.

M/MED said that although its recommendations were accepted in the early planning
stages, during nearly every design meeting it discovered OBO did not use M/MED’s
recommendations.
Site Acquisition
Twelve posts were pleased with communications about site acquisition. Santo Do­
mingo said that OBO was actively involved at all stages. Bandar Seri Begawan felt
that “communication could not have been better.” Other posts commented on Real
Estate’s timely and professional advice, high level of communications, ﬂexibility,
and superlative work. Five posts were dissatisﬁed with the site acquisition process.
One post expressed concern over missed chances and communication breakdowns.
Another wished that land offered could have been bought when it was still inex­
pensive. Vientiane said that it had worked with OBO on a land exchange with the
Government of Laos for over a decade. Valletta recommended that negotiations for
purchase should be well-planned and that all pertinent negotiating details should be
shared with post, with a strategy agreed to prior to negotiations.


Construction and Commissioning
Four posts commented on construction and commissioning. One called the process
generally positive. Another said that it was not informed about construction tasks
and problems. Port-au-Prince suggested that there should be a mechanism for post
and OBO to work together to make small adjustments during construction. Ma­

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   127 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        nama did not want to commence a multi-million dollar chem/bio HVAC ﬁltration
        project without an experienced facilities manager on the ground.

        Eight posts commented on the role of the PD. Kingston praised its PD as a true
        professional, communicating at every step, and coordinating with all relevant mission
        components. Skopje, Jeddah, Johannesburg, and Bern, described the PD as doing an
        excellent job of disseminating information, coordinating the technical design, be­
        ing customer-oriented, keeping the post updated, and being available for questions.
        Some posts liked their PD but saw problems with the system. One recommended
        that the reporting relationship of the PD should be clearly established with the PD
        integrated into the post personnel structure. Kampala said that the design-build sys­
        tem left a signiﬁcant number of revisions for the PD and contractor. Kampala felt
        that OBO often did not respond to questions from the PD and that blueprint incon­
        sistencies caused delays. Berlin recommended that OBO establish an intranet site for
        quick answers with links to basic information about the building and its operation,
        i.e., technical manuals, furnishings (copies of purchase orders, photos of items, etc.),
        and art.

        Five posts commented on project delays. Surabaya was three months behind sched­
        ule after the U.S. contractor was sold. Libreville said that its contractor, on site
        11 months, had been unable to complete temporary facilities and was struggling
        through the rainy season. Khartoum was two years behind schedule because of the
        local political climate, and expressed concern that the current size of the project may
        be too small. Khartoum also felt that OBO should be more forthcoming with post
        on changing timelines so post could better plan for contingencies. Abuja reported
        that due to contractor performance issues, its annex building to house USAID might
        not be completed in the next two years and would not be large enough. Italy re­
        ported a two-year “ordeal” with its ﬁrst contractor. It recommended that American
        contractors that were awarded complex overseas contracts must be large enough and
        familiar with local conditions to do the job.

        Although Question 6 did not ask about maintenance, Kampala said that ceilings of
        lobbies and atriums were too high to change light bulbs and that the air conditioning
        in one wing was non-functional for three to four weeks. Bamako said that training
        on building systems is imperative prior to turnover and after.

        Thirty-seven posts plus M/MED answered Question 7A:
                If post is scheduled for a capital construction project for which
                the contract has not yet been let, was post given the opportunity
                to contribute input to the design and layout of space in the
                building(s)? If yes, did post provide that input?


128 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




Eighteen posts said that they had the opportunity to contribute to site selection and
the design phase. Eleven posts said they had not yet contributed as it was too early
in the process. Seven posts either had no or limited opportunity to contribute input.
Among these seven posts, Harare observed a lack of transparency and consultation
between post and OBO (notwithstanding the risks of operating in the current politi­
cal climate in Zimbabwe); Montenegro expressed doubts about the decisionmaking
process leading to site selection and purchase. M/MED observed that while it is
given the opportunity to contribute to layout and design, communication with OBO
has been laborious.

Twenty-six posts answered Question 7b:
         Has OBO requested post assistance in searching for a new site?


Twenty posts responded in the afﬁrmative. Two posts stated that the U.S. Govern­
ment already owns property on which construction will occur. Two posts received
land from the Government (one was a real estate exchange; the other given by the
host government).


HOUSING (questions 8 - 9)
One hundred and two posts answered Question 8:
         If post has used the waiver process either for size or cost, is it
         working efﬁciently and effectively for post? Are there any problems
         or issues post has raised with OBO regarding housing; how
         satisﬁed is post with the resolution?


Sixty of the respondents stated that the process was effective but cumbersome. The
most common issue was the lengthy processing time for lease waivers that had on
occasion affected posts’ ability to obtain housing that met the Department’s stan­
dards.

Thirty-two posts found the lease waiver program inefﬁcient and lease waiver cable
format cumbersome. Sixteen of the respondents in this group cited the following
concerns with the program:
    • 	 The Department imposed rental ceiling of $25,000 is arbitrary and not prac­
        tical.
    • 	 The legislated $50,000 rental ceiling is outdated in today’s volatile housing
        market.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   129 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




           • 	 OBO is overly bureaucratic and difﬁcult to work with.
           • 	 The lack of adequate housing at a number of posts is exacerbated by the lack
               of timeliness of OBO’s lease waiver process; it diminishes posts’ prospects in
               acquiring housing that meets the Department’s standards.
        Twenty-ﬁve posts had no comment and one post stated that its housing funds were
        provided by another organization.

        One hundred and two posts answered Question 9:
               Is post a participant in the Rental Benchmarking Initiative? If
               yes, is this process more efﬁcient than the waiver process? Has
               this initiative reduced the number of waiver requests submitted
               by post? Do the rental ceilings, determined by OBO local market
               surveys, realistically address local rental costs?


        Only 31 of 102 posts participate in the Rental Benchmark Initiative. Most posts
        stated that the new initiative makes it much easier to acquire leases within the rental
        ceilings and reduced the number of waivers required by the $25,000 rental ceiling.
        One post stated that the initiative was excellent in that it cut administrative delays
        tremendously but thought OBO should contact posts prior to conducting market
        surveys to identify those neighborhoods prohibited by the RSO for security reasons.
        A number of posts expressed concerns that the current ceilings will quickly be out
        of date due to ever increasing lease costs. At least one post stated that its benchmark
        would be outdated within six to 12 months. Several posts stated that they are bench-
        marked but still need to apply for a waiver because all housing lease costs exceed the
        $50,000 cap set by Congress. These posts believe the legislated $50,000 lease waiver
        requirement is outdated and the Department needs to revisit this mandate with Con­
        gress. Several posts stated the amount of paperwork has increased because posts
        must negotiate the benchmark rental ceiling with OBO and submit separate lease
        waiver justiﬁcations.

        Seventy-one posts responded that they are not RBI participants. Five of these posts
        appeared to have been benchmarked but are not yet participants and their comments
        are:
           • 	 By the time post received its market survey, the information was not reﬂec­
               tive of the current market.
           • 	 Two posts stated that all of their leases exceed $50,000 and lease waivers are
               mandatory.



130 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    • 	 One post stated that when it proposed rental ceilings other than those pre­
        sented in the RBI market survey, OBO counter-offered rental benchmarks
        lower than those post had submitted for recent lease waivers requests for
        rents exceeding $50,000.

MAINTENANCE AND REPAIR (questions 10 - 14)
Ninety-eight posts answered Question 10:
         Please list the three most critical maintenance and repair
         requirements, along with post’s estimate of the costs, for which post
         has been unable to secure funding from OBO. In post’s opinion,
         why has the funding not been forthcoming?


Nineteen posts either had no problems with funding for maintenance and repair re­
quirements or OBO fully funded their requirements. Four posts stated that they had
identiﬁed funding for maintenance and repair requirements, but had not submitted a
request to OBO at the time of the survey. Requirements most frequently cited were:
HVAC systems (mentioned by almost one quarter of the respondents); electrical,
ﬁre, and roof problems (each cited by thirteen percent of respondents); and potable
water (cited by ten percent). Fourteen percent of the respondents requested repairs
and/or upgrades to residences.

Posts that were on the Top 80 list or were in the construction phase of an NEC
believed that maintenance and repair funding was not available to them because they
would be moving in three or more years. One post stated that OBO was quite trans­
parent and brutally honest about the lack of funds available to OBO for mainte­
nance and repair. Jakarta stated that inﬂation alone has caused a 30 percent decrease
in spending power over the last three ﬁscal years; this, combined with the decline of
the dollar reduced the effectiveness of the maintenance and repair base.

One hundred and ten posts answered question 11:
         Please describe your post’s level of satisfaction with the services
         provided by (and communication with) the Divisions within OBO/
         OPS: namely Area Management (AM); Facility Management
         (FAC); Fire Protection (FIR); Safety, Health and Environmental
         Management (SHEM); and Art in Embassies (ART).

Area Management
Seventy-ﬁve posts rated AM services favorably (“satisﬁed” or “extremely satisﬁed”);
four of these posts singled out speciﬁc AM ofﬁcers for special praise. Many said

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   131 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        that communications with AM were excellent and the support that the ofﬁce pro­
        vided was helpful and constructive. Four posts pointed appreciatively to instances
        when their AM ofﬁcers advocated on their behalf for much-needed special projects
        and funding. Seven post posts were critical. One complained that its AM ofﬁcer
        dragged his feet on a special project at the deputy chief of mission residence, rec­
        ommending instead small, less costly and less effective cosmetic repairs. Another
        criticized its AM ofﬁcer for being unreachable and unresponsive to e-mail and other
        queries, and complained that information from that ofﬁce is sometimes contradic­
        tory. Because of constant stafﬁng changes in AM, one post described AM as “totally
        incompetent.” A hardship post felt strongly that its AM ofﬁcer constantly ques­
        tioned its requests and dodged answering its questions. It complained that routine
        M&R funding was sent late and only after multiple requests. Several posts expressed
        frustration with AM’s chronic shortage of funding and its inability to fund special
        projects. Many posts had given up submitting 7902 and 7911 requests because they
        believed they would not be funded.


        Facility Management
        Seventy-one posts rated FAC services favorably (“good” to “extremely satisﬁed”).
        Posts were generally pleased with the support provided by FAC and felt that the
        division was responsive to their needs. Eight posts viewed FAC responses as varied.
        One NEC post (Belmopan) was concerned about the lack of a permanently assigned
        FM, but praised FAC for resolving major punch list issues with the contractor and
        CC. Eight posts were not satisﬁed with FAC services. One post stated that FAC had
        not been supportive and was quick to point to other OBO ofﬁces to ﬁnd solutions
        to post issues. Another stated that there seemed to be a general inability to answer
        or return e-mails sent by post. A hardship post recounted the difﬁculties in get­
        ting timely FAC responses to its generator and uninterruptible power supply needs.
        Three posts expressed concern about the assignment of FMs, one calling the process
        opaque. Another described the difﬁculties in dealing with the FAC ofﬁce responsible
        for FM assignments and the long delays in getting responses; post received relief
        only when the chief of mission threatened to withhold country clearance for OBO
        personnel assigned to work on another project at post.


        Fire Protection
        Seventy-eight posts were satisﬁed with the services and support provided by FIR.
        They described the division as helpful, responsive, and service-oriented. Many
        expressed appreciation for the training programs and funding for equipment. One
        post complained about the delay in receiving ﬁre extinguishers, noting that it took
        more than a year to ship them to post. Another post stated that it had good com­
        munications with FIR but noted that budget shortfalls created unfunded mandates,

132 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




such as ﬁre extinguishers that have passed the hydrostatic test date but no money is
available to get them recertiﬁed, and shipped for testing or replacement. Another
post observed that an International Maintenance Assistance Program ﬁre alarm team
sent to post barely communicated with the post, provided no schedule, and did not
produce a ﬁnal report on work done.


Safety, Health, and Environmental Management
Eighty-four posts rated SHEM services favorably (“satisﬁed” or “extremely satis­
ﬁed”); many of the respondents characterized SHEM personnel as responsive,
helpful, and knowledgeable on their visits to posts. Posts expressed appreciation
for SHEM’s training programs; one post suggested that training times at post be
shortened from a week to two days to reduce costs. One small post found SHEM
requirements “somewhat onerous.” A few posts noted that while SHEM requires
fencing for pools, it fails to provide funding. One post expressed concern that it
could not get training for its Post Occupational Safety and Health Ofﬁcer assistant.


Art in Embassies
Sixty-three posts rated ART services favorably (“satisﬁed” or “extremely satisﬁed,”);
with many respondents characterizing it as professional, responsive, and helpful.
Three NEC posts, however, commented that ART had not consulted with post on
the types and styles of work selected for the NEC collection. One of these posts
stated that one of the pieces selected by ART is insensitive to the host nation’s cul­
ture.

Fifty-ﬁve posts answered question 12:
         Are there any outstanding issues that post has been unable to
         resolve with OBO divisions?
Twenty-one respondents listed 7902 projects as the main outstanding issue. The
majority of posts complained about disagreements among OBO ofﬁces over respon­
sibility for action and of a serious lack of funding. As one post stated:
         “Present budgetary constraints have resulted in both 7901 and
         7902 funding only becoming available in either small increments
         during the year [7901] or later in the year [7902] which makes it
         difﬁcult to plan ahead and complete projects and works in the most
         efﬁcient and timely manner….Post’s 7901 account has been cut
         38% since 2001 not considering inﬂation or dollar devaluations.
         With these included, the 7901 account is about 40% of the FY-2001
         level. We did get an increase last year, but estimated needs are
         about $1,100,000.”

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   133 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Nine posts put problems with NECs at the top of their lists. The main issue raised
        was maintenance:
               “OBO/PE/CC division gives promises to resolve the problems but
               in reality not much is done, e.g. Building Automation Systems,
               boilers, crumbling asphalt, cracking stucco, power monitoring
               system, safety railing in the atrium, leaking roofs, cracked
               windows, and many more problems.”
        One post added furniture and growth space to the maintenance litany of frustra­
        tions:
               “Not all occupied ofﬁce space was furnished by OBO, requiring
               the use of mismatched furnishings and furniture recycled from
               the old facilities that created a non-uniform look in the new
               facility. Space within the NEC buildings is inadequate for growth.
               Sophisticated systems are used where simple, less expensive, and
               easier to maintain systems would have sufﬁced. For example,
               automatic ﬂush mechanisms on toilets are about 4 times as
               expensive as manual valves and are difﬁcult to maintain. There
               were separate contractors for the NEC and the unclassiﬁed
               ofﬁce annex. Some critical interfacing systems were not properly
               designed or built; e.g. the secondary chill water system, and
               the ﬁber optic cable for the ﬁre alarm. The pump motors for
               this system keep burning out. Without a functioning secondary
               chill water pump the compound has no air conditioning. OBO
               has been unable to provide answers, suggestions, or solutions
               on this problem. The ﬁber optic cable conduit was used by
               both contractors and when a cable became inoperative a ﬁnger
               pointing game began. This issue is still not resolved…. Adequate
               parking was never included in the original compound design. The
               Construction and Commissioning Division of OBO needs to play
               a more active role in resolving problems and intervening with the
               contractor on Post’s behalf.”
        Two NEC posts highlighted their frustrations in dealings with OBO and the difﬁ­
        culty in getting divisions of OBO to take responsibility for post-occupancy projects
        or funding.
               “Our Chancery HVAC system has failed in each of the last 3 years.
               Repeated requests to OBO for assistance fell on deaf ears. Only
               after a front channel threat that the mission might be required to
               close during our 120 plus degree summers, did OBO ﬁnally move
               to address the issue. Unfortunately, bureaucratic inﬁghting and a
               failure of OBO to create single ownership for this project has lead

134 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



         to delay after delay and we are now faced with another summer
         where our overworked maintenance crew must pull off yet another
         miracle to keep us up and running. Post wishes that OBO would
         have seized upon the urgency of this project when it ﬁrst came
         to light. Instead, there have been countless days lost to deciding
         who will pay and who will be in charge and which OBO ofﬁce
         will be in charge of which part of the project. At one point in the
         fall of 2007, this OBO inﬁghting meant that OBO was literally
         going to break up the project to replace the HVAC in one building
         into multiple independent projects with separate contractors and
         separate timelines. This would have meant that duct work would
         have literally been left unﬁnished from one contractor to the next!
         In the end, post’s management section had to devote signiﬁcant
         time to playing mediator for OBO’s internal debate.”

         “Overall, OBO management of the entire project was shockingly
         inadequate. OBO Real Estate was closely involved initially in
         organizing this project but has since washed their hands of any
         responsibilities for how the project outcome was handled, and
         OBO Real Estate has said in so many words that dealing with the
         landlord is now totally Post’s responsibility. But when Post has
         attempted to have the landlord correct deﬁciencies, the landlord
         has gone to OBO and been told that the problems we brought up
         were not the landlord’s responsibilities. This does not strike us
         as OBO having responsibility for the operation of the lease and
         dealings with the landlord. Eventually these problems may be
         resolved but the lack of assistance we have gotten from OBO in
         addressing the issues with this compound has left an extremely bad
         impression of OBO and has gone a long way toward off-setting the
         good impression that the NEC compound, in general, conveyed.”
Several posts detailed problems with chancery construction projects or staff housing.
Several posts referred to problems with ﬁre and life support systems, generators and
voltage regulators. One post listed problems with leaking fuel tanks.

A total of 26 posts answered all or some of the four parts of Question 13:
         If post has taken occupancy of a NEC within the last three years,
         please evaluate the effectiveness of planning for operating and
         maintaining the new facility.
Several of the respondents technically occupy non-NEC properties (annexes, BTL,
major rehabilitations). Some took occupancy earlier than CY 2005 and some had not
yet taken occupancy. Seventeen of the 26 respondent posts took occupancy after
January 2005.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   135 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



        Twenty-two posts (which includes 12 of the 17 that took occupancy after January
        2005) answered Question 13 A:
                Were estimates of building operating expenses (BOE) provided and
                if so, were they accurate?
        Twelve of the 17 responses stated that either no estimates were provided or if they
        were, the estimates were not accurate. Two posts scheduled for occupancy in spring
        2008 reported that no estimates were received.

        Twenty-ﬁve posts answered Question 13 B:
                Was planning for maintenance stafﬁng (numbers of persons
                required and skill levels) sufﬁcient to meet post’s needs?
        The response was evenly divided. Some posts reported sufﬁcient advance notiﬁca­
        tion and time to hire the proper numbers and skill levels; others reported that they
        did not. Some posts noted that required skills were difﬁcult to ﬁnd in country.
        Kabul’s requirements are being met by an O&M contract with a U.S. ﬁrm.

        Twenty-four posts answered Question 13 C:
                Did post hire the required maintenance staff? If not, please
                explain why.
        Sixty percent of the respondents hired the required maintenance staff. Almost all
        of these respondents expressed concern at their inability to ﬁnd technically qualiﬁed
        applicants locally: some are still looking for better qualiﬁed staff; others are trying to
        learn on the job. Almost thirty percent did not hire the required maintenance staff
        for budgetary reasons. Tashkent discovered that it did not need all of the staff that
        was hired.

        Twenty-six posts answered Question 13 D:
                Were the contract-speciﬁed O&M products and services (training
                on new building systems; operations manuals; as-built drawings;
                diagnostic test equipment, spare parts and specialized tools; and
                maintenance plans) provided?
        The majority of posts reported that the contractor failed to deliver some or all of
        these products and services. The biggest complaint was the lack of contractor-pro­
        vided training. Other complaints included incomplete or nonexistent spare parts
        lists, no as-built drawings, and no computerized maintenance plans.

        Thirty-two posts answered Question 14:




136 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



         Are there any other issues that have complicated or impeded post’s
         occupancy of the NEC from an operations and maintenance point
         of view, ICASS funding issues or concerns, functionality of building
         systems, difﬁculties in ﬁnding qualiﬁed staff in country, etc.?
Responses ranged from the lack of locally available qualiﬁed staff to maintain com­
plex technical equipment to lack of warranty contracts for preventive and reactive
maintenance. Some posts noted the impact of ICASS budget reductions on the
NEC stafﬁng needs.

Posts in Africa, the Near East, South and Central Asia, and the Western Hemisphere
expressed concern about the lack of technically qualiﬁed staff, to hire or retain on
contract, with the required skills to address the new, complex NEC systems.

Kabul has an operation and maintenance contract, which relieves it of the burden of
ﬁnding technically qualiﬁed staff. Port-au-Prince identiﬁed and justiﬁed the need for
an operation and maintenance contract for the ﬁrst two years of occupancy while lo­
cal staff learned the systems; neither OBO nor WHA agreed to provide funding for
the contract. Managua is concerned that the reduced warranty period from one year
to eight months will complicate operation and maintenance for post and increase op­
erational costs. One post stated that all contracts for warranty and preventive and re­
active maintenance should be in place prior to issuing the Certiﬁcate of Occupancy.

A number of posts expressed concern that ICASS budgets did not keep pace with
the increased staff and utility costs in NECs and unclassiﬁed ofﬁce annexes. The
level and quality of maintenance services for both ofﬁce and residential space ap­
pears to be determined by available ICASS funds rather than need.


GENERAL QUESTIONS (questions 15 - 17)
Ninety-six posts answered Question 15:

How satisﬁed or dissatisﬁed is post with OBO-speciﬁc software applications?

In general, post responses focused on their use of WebWOW and WebRPA. Over
half of the respondents rated themselves as generally satisﬁed with the performance
of OBO-speciﬁc applications, while almost one quarter was dissatisﬁed. The re­
mainder was neither satisﬁed nor dissatisﬁed with the applications. However, among
those who rated themselves as satisﬁed, they generally qualiﬁed their comments as
“overall,” yet offered various criticisms, while those who were dissatisﬁed were quite
vehement about it. The one comment repeated throughout the survey responses
was the need for more training in the use of WebWOW, whether via user manuals or
online courses.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   137 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Eighty-seven posts, plus M/MED answered Question 16:
                Please comment on the type, quality, and frequency of
                communication with OBO ofﬁces and on their understanding of
                authority responsibilities at post.
        The majority of the respondents viewed communications with OBO favorably.
        Forty-three posts rated it as very positive, very good, or excellent. Twenty-three
        posts regarded it as satisfactory. Eight felt that it ranged from “outstanding to nearly
        hopeless.” Eight posts viewed their communications as poor or nonresponsive.
        M/MED, while pleased with communications about the design of health units, felt
        overwhelmed by the time and detail needed to maintain the level of communications
        with its small committee. Three posts expressed concern that OBO ofﬁces did not
        appear to understand the realities of the ﬁeld. One post, experiencing post-occupan­
        cy NEC systems problems, observed occasional ﬁnger pointing and blame-shifting
        among OBO ofﬁces. Several posts expressed concern about transparency in com­
        munications from OBO, commonly not informing post of decisions made in Wash­
        ington or doling out information only as needed by post.

        Twenty posts commented on OBO understanding of authority responsibilities at
        post. For the majority of posts, it was clear. Three posts cited instances of OBO
        personnel (two PDs and a FM) appearing ignorant of chief of mission authority,
        answering instead only to the previous OBO Director. One African post stated that
        post management would not allow the FM to travel in fulﬁllment of regional duties.

        Sixty-one posts plus M/MED answered Question 17:
                Please feel free to share any other comments or observations about
                OBO with OIG.
        Several posts included multiple topics in their comments or observations. The
        majority expanded on their responses to earlier questions. Several expressed ap­
        preciation for the opportunity to share their experiences. Twenty-three respondents
        commented on capital and non-capital construction projects, with observations rang­
        ing from initial planning and real estate acquisition through post-occupancy trafﬁc
        ﬂow, use, and maintenance issues. (Fifteen of the 23 respondents were NEC posts.)
        Sixteen expressed appreciation for the work of different divisions of OBO (Facili­
        ties Maintenance, Real Estate, Area Management, specialists in Operations). Fifteen
        respondents raised concerns about funding, including the availability of 7902 funds.
        Thirteen commented on real property (primarily housing – lease vs. purchase). Eight
        commented on communications between post and OBO, and internal communica­
        tions within OBO. Seven raised stafﬁng concerns, including training, career develop­
        ment and diplomatic status for facilities maintenance ofﬁcers.


138 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




Capital and non-capital construction projects
“We love our new buildings. But we are also gravely worried by them. If our prob­
lems were limited to questions of style or ﬁnish then we would learn to live with
them. If the problems were minor then we would work around them. But we fre­
quently discover signiﬁcant defects that reduce productivity or raise operating costs,
and occasionally run into problems that put our staff and buildings at risk.”

Eight of the 23 construction project respondents commented that better input from
post and from non-Department tenant agencies might have prevented costly ﬁxes
after occupancy. Five posts suggested that the Washington-based design process
should be more sensitive to local conditions and not impose ﬁrst world schedules
and technologies on non-ﬁrst world posts. Issues cited included the skills of lo­
cal labor; difﬁculties in locating and procuring spare and replacement parts for new
operating systems; and trafﬁc access from the main road. Three of the respondents
suggested standardization of: all NEC mechanical and control equipment; Building
Automated System software; and procurement of replacement materials meeting U.S.
speciﬁcations. Two of the ﬁve commented that greater efforts should be made to
incorporate money-saving locally-appropriate energy efﬁcient technologies into the
design and building systems. Two of the ﬁve stated that there appeared to be little
coordination between OBO and IRM and other agencies during the design phase.
With few exceptions, there appeared to be no provision for non-Department agency
communications and local area network requirements, including climate control for
server rooms. Design changes were made despite post- and agency-speciﬁc require­
ments. Desks were positioned without access to power, phone, and data connec­
tions.

“Sometimes it is necessary to spend more funds upfront during the design and
construction phases of the NEC in order to save money later on maintenance, to
maximize work efﬁciency, and to improve staff morale.”

Seven of the eight respondents commented on the need for 7902 projects after
occupying new buildings. Two of the seven stated that the contractor rushed the
project to meet the construction deadline, pressuring the PD to declare substantial
completion.

Two posts expressed concern that their Building Automation Systems did not func­
tion on occupancy, and, months after occupancy, were still not fully integrated with
all building systems

Five respondents commented on the site acquisition process. Three had positive
experiences; two summarized their experiences as “penny wise and pound fool­


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   139 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        ish”. Both expressed concern with the slow pace of the process, which ultimately
        increased costs to the U.S. Government and resulted in losing more desirable prop­
        erties. One of the respondent posts shared observations of a currently assigned
        American who had experience in prior postings with the land acquisition process
        for major construction projects; four speciﬁc examples were given, along with the
        statement, “although the site acquisition personnel themselves have generally been
        very professional, in my opinion, OBO’s methodology and decisionmaking process is
        seriously, seriously ﬂawed.”
        Funding
        In addition to the concerns expressed about costs to the U.S. Government result­
        ing from capital and non-capital construction projects noted above, ﬁve of the 15
        respondents raised concerns about availability of 7902 funds for non-NEC posts.
        Two respondents explicitly expressed concern that the resources allocated on NEC
        construction had a negative impact on maintenance funding for older buildings; this
        sentiment was implicit in the responses of three other posts. Two posts suggested
        that OBO take the lead in creating a funding matrix for maintenance which clearly
        distinguishes items funded by OBO, DS, and post. One post expressed concern that,
        during a time of funding constraints, OBO was intent on spending over $500,000
        for a project that post believed it did not need; post believed that money could have
        been better spent on additional seismically sound residential housing or an ICASS
        service provider annex. One post observed that the OBO policy of treating no-year
        funding as single-year funding was seriously affecting maintenance and repair of
        aged buildings, citing an example where failure to sign a contract for a maintenance
        project by September 30, resulted in a six-month delay of needed repairs because of
        a continuing resolution (which, actually, was not applicable to the project).
        Real Property
        Of the 13 posts that mentioned real property, four dealt with non-residential build­
        ings (two of which were NECs); and nine commented on housing. Two large mis­
        sions, with constituent posts, suggested the U.S. Government would achieve greater
        cost savings in less than ﬁve years by purchasing housing units in the capital and
        constituent post cities; in addition to the mid-or long-term savings, the units could be
        brought to U.S. safety standards. Two small posts participating in the RBI comment­
        ed that high rents made the benchmarks insufﬁcient. One post managing approxi­
        mately 100 short term residential leases, suggested that OBO create a comprehensive
        long range housing plan to deal with worldwide increased lease and make-ready costs.
        One post suggested that OBO create a short-term leased housing maintenance fund
        to ease the burden of negotiating with landlords on minor maintenance and repair
        issues costing less than $300.



140 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Communications
Three posts observed that ofﬁces in OBO appeared to not communicate with each
other. Two of the three stated that two or three different ofﬁces ask for the same
data; one stated that different OBO ofﬁces were planning projects at post, apparently
unaware of each other’s simultaneous projects. The third post was given contradic­
tory and confusing information on a project by two ofﬁces in OBO.

Two posts praised the customer-service oriented responses of OBO.

Two posts in the capital and non-capital construction projects section above com­
mented on poor coordination among OBO, IRM and non-Department agencies
during the design phase.

Two posts experienced slow response times to requests for action: one front chan­
nel cable on a lease produced action six months later; another post has received no
information on a FY 2008 security upgrade
Stafﬁng
Three respondents raised issues speciﬁc to FMs: lack of diplomatic status for in­
cumbents; increased career development opportunities in Washington; and greater
efforts to establish mechanisms for FMs to share concerns, lessons learned, improve
mentoring and team cohesion.

Two posts emphasized the importance of FMs being in place well in advance of
completion of a NEC, either when the building is topped off or 18 months prior to
completion.

Two posts commented on the need for training. One post observed that small posts
may not have the expertise to manage construction projects (creating statements of
work, ordering materials, letting bids, and supervising the projects). It suggested that
OBO set minimum standards for different types of projects and provide hands-on
assistance to ensure successful completion of the projects. The other posts sug­
gested that OBO create a structured continuing education training program for local
employed staff so that they are current on the latest technologies needed to run and
maintain new buildings.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   141 .


                        SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED





142 .   OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


              SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



        APPENDIX C: CASE STUDIES OF NEW EMBASSY
                       COMPOUNDS

          Project Case Study – NEC Abidjan (2002 project)

                Delivery method: Design/build SED based design
                Construction start date (LNTP): February 5, 2002
                Post occupancy: June 24, 2005
                Total project estimated cost from CWE: $86,524,000
                Total cost at completion (PPR): $77,834,767
                Contract modiﬁcations/costs: 8 Mods, $2,155,784




Project Description

    This project consists of design and construction of a new ofﬁce building, GSO,
and MSGQ on the 8.6 acre Riviera site. The project will be accomplished through
the design/build method of delivery, using OBO’s SED approach through full and
open competition.

    The new ofﬁce building is a seven-story reinforced concrete building that in­
cludes two walkout basement levels, four main levels, and a mechanical penthouse at
the roof level. The MSGQ is a two-story reinforced concrete building.

    No PAP was provided by OBO for this project.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   143 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Issues and Lessons Learned

           Project issues were taken from the OIG worldwide survey, an OIG Inspection
        report dated March 2008, and the POE. The most signiﬁcant and systemic issues are
        summarized as follows.
           • 	 Planning/Design Issue: The mechanical system has gone through several
               phases of reconﬁguration. There has been a complete redo of the heat ex-
               changer, the water pump was replaced, the water tank was repaired
               and redone, and larger sections of the roof were repaired or redone.
           OBO Comment: The contractor worked on pending problems at the water tank
        and rooﬁng in accordance with the contract requirements and in response to their
        warranty responsibilities.
           • 	 Maintenance Issue: Post has no local technical expertise in country to
               maintain and repair the HVAC system – the chiller system. The building
               is uninhabitable without the cooling system, so it is a risky situation when
               half of the system goes down. Post has closed the building for half a day
               due to a problem with the water supply to the cooling system.
            OBO Comment: The NEC chillers are water cooled. This parallels the local
        commercial buildings which also have chilled water systems (airport, hotels). There
        appears to be some in-country skilled labor available to service this equipment. Ser­
        vice and maintenance contracts are the responsibility of post per 15FAM162.1
           • 	 Post recommends that OBO develop regional maintenance centers to
               provide training and technical assistance to local staff for the new techno-
               logically advanced infrastructures that are being built in third world coun-
               tries. The skill level available locally for maintenance stafﬁng does not
               match the needs of the new technology. This year OBO contributed funds
               to the ICASS target to train maintenance staff. This is rather expensive
               since such training is not available locally. Post hired maintenance staff
               available in the local market.
           • 	 Estimates of building operating expenses were not provided.
           • 	 OBO states the goals of the POE process are: “Decrease NEC costs with
               out sacriﬁcing performance, and improve functionality while remaining
               cost-neutral.” The extended period between occupancy and POE goes
               far beyond normal adjustment to a new building. The projected cost sav-
               ings accrued to the Capital Construction Program could have been realized
               sooner, perhaps as early as the FY 2008 SED.



144 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    • 	 Ten preliminary SCRs were produced for inclusion in the annual SCR up-
        date to the SED process. One was suggested by the management ofﬁcer
        and nine were suggested by the FM in their replies to ePOE surveys.


         1.      	 Rightsize ﬁtness room — more space may be necessary.

         2. 	      Provide more visual screening for privacy at restrooms.

         3. 	      CACs — use durable materials in high trafﬁc areas; design service
                   CAC sally port to clear height of mobile cranes and emergency
                   vehicles.

         4.      	 Vehicular trafﬁc — provide for pedestrian safety with speed signage;
                   trafﬁc lights; protect hydrants w/bollards; pavement, sidewalks and
                   curbs to minimize catchments from soil erosion.

         5. 	      Improve seating and shading to consular clients waiting outside the
                   compound perimeter wall.

         6. 	      Increase capacity of electric conduit risers to anticipate future expan-
                   sion.

         7. 	      Standardize maintenance and safety design for exterior window
                   cleaning.

         8. 	      Atrium/gallery — provide for safe maintenance to lighting and sen-
                   sor devices.

         9. 	      Install irrigation pipe markers to alert ground crews.

         10. 	     Provide shading to protect fuel pumps.


Contract Issues

    The contract ﬁle shows no signiﬁcant design/build changes in the pre-award
phase of the contract. The eight contract modiﬁcations included administrative ac­
tions, a time extension of 109 calendar days for time lost for civil unrest, and funding
for changes to security mitigation, mail screening, isolation, etc,




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   145 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Customer Satisfaction

            The spaces are generous and more than adequate. The facility is beautiful; it is
        state of art and provides an excellent working environment for the employees. How­
        ever, it is an overwhelming maintenance challenge for the maintenance crews who
        have not been trained to work on the building systems.

            Operations and maintenance products and services were provided. The contrac­
        tors provided familiarization to building system training and showed the embassy
        staff how to operate the building system. They also provided operations manuals
        and as-built drawings. However, the embassy staff is not properly trained to main­
        tain and repair the building systems.

            No diagnostic test equipment was received but some spare parts and specialized
        tools were provided.


        Commissioning

           No commissioning information could be found in OBO ﬁles with regard to the
        commissioning effort of this project.

            OBO Comment: Commissioning was completed in accordance with contract
        requirements. All documents and deliverables were handed over to the FM.




146 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



          Project Case Study – NEC Abuja (2002 project)

                Delivery method: Design-Bid-Build
                Construction start date (LNTP): November 14, 2002
                Post occupancy: July 22, 2005
                Total project estimated cost from CWE: $69,514,000
                Total cost at completion (PPR): $74,535,898
                Contract modiﬁcations/costs: 38 Mods, $4,229,089




Project Description

     The NEC in Abuja, Nigeria is a 9-acre lot located at 1075, Diplomatic Drive,
Central District, in the diplomatic section of the city. China and Ghana, among
others, have already constructed missions in this area. The British government
purchased the adjacent plot to the west of the NEC, but has not started construc­
tion. The Syrian Government owns a plot on the west side of the NEC, but has not
started construction. The site gently slopes to the west. Along its northern bound­
ary, the site also slopes rather steeply northward. The north boundary is the main
east thoroughfare leading out of the City of Abuja. The south boundary is Diplo­
matic Drive. This is a suitable site for a United States Embassy.

    No PAP was provided by OBO for this project.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   147 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




        Issues and Lessons Learned

            Project issues were taken from the OIG worldwide survey, the PD’s comple­
        tion report, an OIG inspection report dated March 2008, and the POE. The most
        signiﬁcant and systemic issues are summarized as follows.
           • 	 This is a design-bid-build project that was bid twice. The contract for the
               ﬁrst design was 40 percent higher per square foot than the construction
               cost of the Abu Dhabi NEC. The contract amount exceeded the con-
               struction funding available. An attempt was made to negotiate a cost
               reduction by reducing the project’s scope. However, this attempt was
               not successful, and the contract was terminated for the convenience
               of the government. To award the contract before September 30, 2002,
               a decision was made to redesign the project with a signiﬁcantly reduced
               scope using the original architect. The consulate and public affairs sec-
               tions’ wing, one of the two CAC facilities, the building’s stone cladding,
               and the perimeter wall around the east half of the project site were deleted.
               The west half of the third ﬂoor was left unﬁnished. The descoping
               resulted in a $15,000,000 cost reduction. This amount was sufﬁcient to
               award the project.


            OBO Comment: The Abuja annex project was funded in FY 06. This project
        included completion of the third ﬂoor tenant ﬁt-out space in the existing chancery.
        The annex building contained a cafeteria and incorporated all of the requirements of
        the rightsizing program.


           •		 Planning and Design Issues: The short redesign and review timelines
               caused problems throughout the construction phase. Indicators of the
               magnitude of these problems were the 608 requests for information that
               were received by OBO. Two hundred and forty-four potential changes
               orders were also received of which 184 became contract modiﬁcations.
               There were three problems that signiﬁcantly affected the project:
               1. 	     The differing site conditions associated with the foundation design.
                        This situation was not a result of the short redesign period.
               2.     	 Some ofﬁces required specialized construction personnel to ﬁnish
                        the work. This oversight cannot be attributed to the short redesign
                        period.
           •		 There were also numerous design and omission errors associated with
               the HVAC duct system, including the omission of HVAC ductwork secu-

148 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




         rity details. This oversight was not discovered until the second accredita
         tion team visit, which was too late to economically correct this error. Nu-
         merous return air ducts were omitted. Additional HVAC ducts, security
         bars, and security grills were continuously being added throughout the
         ﬁnishing phase of the project. The design did not included auxiliary cool-
         ing for the ﬁrst ﬂoor telephone room and the second ﬂoor unclassiﬁed
         computer room. In the event of a chiller failure, temperatures within these
         rooms, especially during the dry season, could become too hot to operate
         the equipment and the Embassy could be without telephone and computer
         service.
    •		 Maintenance Issues: A number of security doors lack lock cores. Service
        and utilities have not been upgraded. The post has to operate on genera-
        tors 24 hours a day because of poor quality power within the Republic
        of Nigeria. The mission had problems with the air conditioning chiller
        and vehicle barriers. In addition, there was no operational imminent dan-
        ger notiﬁcation system for nearly two years. The stairwells do not
        have lock cores on day gates that are installed between controlled
        access area and non-controlled access area ﬂoors. Chillers haven’t worked
        for two years. The generators were not much better, but there are three of
        them so there is enough backup to continue operations. Elevators are a
        problem and the roof is waterlogged.
     OBO Comment: Post recently switched to commercial power in an attempt to
test the reliability of the city electrical service. The chillers have had issues, chiller
#1 was retroﬁtted by the manufacturer in response to defective parts and was cov­
ered under warranty. Chiller #2 suffered signiﬁcant damage to the condenser tubes
as a result of rapid refrigerant loss caused during maintenance at post. After a study
by the chiller manufacturer and OBO in response to the systemic chiller issues, it was
determined that an air cooled chiller was more suitable for the Abuja environment.
This air cooled chiller was incorporated into the annex project. We are unaware of
any documented issues or problems with the elevators. The roof was under warran­
ty and the NEC contractor has made the contractual repairs. Rooﬁng problems were
addressed by the manufacturer and the contractor in recognition of poor workman­
ship and in response to its obligations under the extended warranty program. CC
and the Bureau of African Affairs are not aware of generator problems.

Contract Issues

    The rush to bid this project before the end of the ﬁscal year caused considerable
problems with the project. A total of 38 contract modiﬁcations consisting of 244
requests for equitable adjustments and 156 requests for proposals were recorded.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   149 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        This resulted in an increased cost to the government of $4,229,089 and a contract
        extension of 71 days.


        Customer Satisfaction

             In 2005, Embassy Abuja moved to an 8.55-acre NEC. The NEC offers a mod­
        ern and functional working environment but is too small to accommodate all person­
        nel.

            In general, this facility provides a relatively modern and pleasant working envi­
        ronment, but one which has a number of serious problems. At the time of occu­
        pancy, the third ﬂoor was not completed, there was no cafeteria, and several manage­
        ment sections had to be housed outside in containers because there was no space
        inside the building. The third ﬂoor is currently under construction and once com­
        pleted, should alleviate some of the overcrowding in certain management sections,
        but post will still need to utilize containers for ofﬁce space and the cafeteria.

             Since completion of the NEC, post had repeated problems with poor construc­
        tion techniques affecting both infrastructure (leaky roof, leaky fresh air ducts, un­
        suitable air ﬁlters, and rusty doors) and mechanical systems (inadequate fuel system,
        chillers, water treatment and chill water systems, and air conditioning system pres­
        sure). The Embassy has experienced repeated problems with the chillers, genera­
        tors, and roof. Post has been unable to resolve these problems either on its own or
        through OBO.

            USAID is anxious to see OBO become more ﬂexible in the face of chang­
        ing requirements such as the President’s Emergency Plan for AIDS Relief which is
        doubling in size. Ofﬁces being built like Abuja do not have enough space for the
        required staff.


        Commissioning

           No commissioning information was available in OBO ﬁles or the PD’s report.

             OBO Comment: Commissioning was completed in accordance with contract
        requirements. Tools, diagnostic equipment, and spare parts appeared adequate. De­
        tails on preventative maintenance and warranties are included in the O&M Library
        left at post.




150 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




               Project Case Study – NEC Phnom Penh (2002 project)

                   Delivery method: Design/build SED based design 

                   Construction start date (FNTP): July 31, 2003

                   Post occupancy: December 12, 2005

                   Total project estimated cost from PAP: $68,823,000 

                   Total cost at completion (PPR): $71,590,502

                   Contract modiﬁcations/costs: 17 Mods, $1,271,965





Project Description

     This project consists of the design and construction of a NEC, to include an
ofﬁce building, a general services ofﬁce support annex, an unclassiﬁed annex build­
ing for USAID (to be implemented in the future), a Marine security guard residence,
CAC facilities and site perimeter security facilities. The project will be accomplished
through the design/build method of delivery, using OBO’s SED approach through
full-and-open competition. A design/build RFP will be issued in June 2002, with
contract award to an American design/build-contractor in September 2002. Using
the SED approach, the project design adaptation period is approximately six months,
to include a value-engineering study. The construction period is approximately 28
months. Funding for the project was obtained in FY 02 as part of the Security Capi­
tal Program. Funding is comprehensive for all proposed facilities except the USAID
annex. The USAID annex is proposed for funding in FY 03.



OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   151 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Issues and Lessons Learned

            Project issues were gleamed from the PD’s completion report, an OIG inspec­
        tion report dated August 2007, OIG interviews, and the post’s lessons learned tele­
        gram. The most signiﬁcant and systemic issues are summarized as follows.
           •		 There was a delay in receiving certiﬁcation for the new ofﬁce building. It
               caused a delay in the beginning of construction but a claim was not ﬁled.
            OBO Comment: Reasons for the delay were never given but certiﬁcation was
        not received until late July or early August 2003, about 1 month after the contractor
        was ready to start driving piles. There was an approximate one month idle period
        while awaiting receipt of certiﬁcation. The contractor never submitted a claim.
           •		 Planning/Design Issue: Several visits were conducted by tenant agencies
               during the latter stages of the project. Agency representatives prepared
               punch lists for corrective action that needed to be made to certify the space
               for their use. Most of the items presented were not in the contract. How-
               ever, change orders were issued to cover the tenant needs. Some agency
               representatives indicated that they were not afforded the opportunity to
               make comments during the project’s design stages.
           •		 Planning/Design Issue: A request was made by IRM for relocation of
               the lower roof antennas about one year into construction because the
               antenna pads as installed were too close to the south wall of the roof
               maintenance shed and would not allow aiming of the antennas to the
               necessary azimuths. Modiﬁcations to antenna pads, ladders, and conduits
               were made. Not only was this a ﬁnancial burden, but the antennas, en-
               closures, and some of the conduits are visible from ground level and
               unsightly. Problems with installation of the large antenna and safety railing
               continue to plague post in concluding the installation effort.
           • 	 Planning/Design Issue: Two posts requested changes that were imple-
               mented on this project. The ﬁrst was to add two bathrooms in the CAA.
               The second change was to expand two separate conference rooms in the
               unclassiﬁed area into a single large conference room. These changes were
               implemented after referral to the highest levels of OBO.


            OBO Comment: The Ambassador raised the issue of installing two bathrooms
        on the second ﬂoor CAA with General Williams. The change was approved and
        implemented as a contract modiﬁcation. The same is true for the consolidation of
        two conference rooms into one. This comment was originally developed from les­
        sons learned on the Tunis NEC.

152 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    •		 Planning/Design Issue: Review of plans and communication with post
        during planning stages is neither systematized nor sufﬁcient in frequency.
        The 35 percent design review at post was also not particularly helpful as
        the contractor could only describe in detail the exterior and landscape
        plans. During this phase, post never had the impression that they were
        customers. OBO did its work without reference to the ultimate consumer
        of its products.
    •		 Planning/Design Issue: The maintenance ofﬁce is half the size necessary
        due to substantial hiring of 14 staff. While post management is directed to
        submit space planning several years in advance of construction, predicting
        future maintenance needs without an understanding of the new building
        systems is simply not possible.
    •		 Planning/Design Issue: Post was very happy with the number of confer-
        ence rooms designed into the NEC; however, outside of the multipurpose,
        not a single unclassiﬁed conference room seated over 16 people. Post was
        able to resolve the issue with OBO during construction by combining two
        conference rooms into a single room seating 30-40 people.
    •		 Planning/Design Issue: Post and OBO agreed to purchase a six-acre site
        for its NEC. Although the site is in a prestigious location, post personnel
        would have been better served in the long run if the standard ten-acre site
        was chosen. Post would have received a maintenance/motor pool/ware
        house and recreation center all on one compound.
    •		 Planning/Design Issue: Covered parking. Post possesses ten armored
        vehicles worth more than $750,000 but lacks covered parking. Carports
        to protect armored vehicles from destructive and intense sunshine in tropi-
        cal countries are needed.
    •		 Planning/Design issue: All outlets in the NEC are three-pronged American
        style. This requires Post to purchase unattractive and potentially hazardous
        adapters for all outlets. Telephones should be installed outside of CAA
        access door for use by locally employed staff and visitors to gain entry
        into the space. The pillar in the middle of the front ofﬁce is large, much
        larger than the building plans show, and it disrupts the ﬂow of the ofﬁce.
    OBO Comment: OBO believes that post has now changed all plugs to ﬁt the
U.S. standard NEMA receptacle. OBO does not believe that the strip receptacles
were dangerous or ever caused a problem.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   153 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           •		 Planning/Design Issue: The doors into the CAA are hazardous. People
               stand in front of the doors to enter their code or put away their phones
               and can be hit by someone exiting. The cell phone storage space and key-
               pad should be further from the door or there should be a window in the
               door so people can see if someone is standing there.
           •		 Maintenance/Installation Issue: Post continues to be plagued by hardline
               door problems. Although staff from engineering services centers in both
               Bangkok and New Delhi repeatedly visited the embassy to repair, realign,
               and adjust the doors, door closures, and hinges, the doors still do not func-
               tion properly. Based on information from OIG’s compliance section,
               OBO has ﬁnally conceded to replace these doors.
           •		 Planning/Design Issue: There is a one-year moratorium on NEC changes,
               but the Ofﬁce of the Legal Attache had to do some modiﬁcations to its
               area to correct a design that did not meet speciﬁcations.


        Contract Issues
            A review of the design-build construction contract ﬁles was hampered by a lack
        of pertinent ﬁles available for review; only a small portion of ﬁles were found. A
        price negotiation memorandum and a determination of responsibility determina­
        tion were not found in the contract ﬁles. Nevertheless, the contract award process
        does not indicate any substantial scope changes were necessary from the original
        PAP scope. The awarded contract scope of work substantially matched the in­
        tended scope of the PAP. The scope and magnitude of the construction contract
        modiﬁcations during the course of the construction were numerous, but generally
        were reﬂective of ordinary types of design and construction changes necessary to
        complete the facilities in accordance with the customer’s requirements, code compli­
        ance, and OBO standards. Although the nature of the many changes indicated that
        a variety of interior layout changes were necessary to meet customers requirements
        during construction, many were not of a substantial nature and could be considered
        as normal organizational reﬁnements.

        Customer Satisfaction

            The entire mission, except for the Peace Corps and the warehouse, has moved
        into the new compound. This modern facility is a welcome change from the jumble
        of houses occupied previously. In a city with embassies shuttered behind high im­
        posing walls, this NEC is surrounded on most sides by a three meter anti-climb fence
        that is secure yet open and inviting to our many guests.



154 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     The Bureau of East Asian and Paciﬁc Affairs complained to the OIG team that
the bureau was surprised to learn that electric bills rose by over $1 million per year,
and some agencies expressed dissatisfaction about higher overall ICASS costs. Some
of those costs were inevitable because there was an almost doubling of ﬂoor space
and there was additional security lighting on a larger compound. OBO advised the
Bureau of East Asian and Paciﬁc Affairs and other agencies in general terms of the
likely additional costs in moving to a new compound. However, there still appears to
have been confusion and miscommunication with some agencies.

   OBO Comment: Electrical bills increased to about $1 million per year after oc­
cupying the NEC. This was with use of commercial power. Post is now operating
generators on a 24/7 basis. Annual costs at the old embassy were between $300,000­
400,000. Thus cost increase by $600,000-700,000, not $1 million.


Commissioning
    The PD completion report states the commissioning activities were conducted
according to the commissioning schedule developed by OBO and incorporated into
the contractor’s detailed project schedule. This proved to be a very effective tool
in coordinating the numerous commissioning requirements. All training has been
conducted and closeout documents have been received. The facilities maintenance
ofﬁcer would like to see more attention given to the training process conducted by
the contractor. While the contract requirements have been met, the facilities main­
tenance ofﬁcer believes that most of the training will take place through hands-on
operation of the building systems. Spare parts and as-built drawings were handed
over according to the requirements of the contract.

   The WebWOW system has been populated although it is still not user-friendly.
The facilities maintenance ofﬁcer indicated that he would prefer to populate the soft­
ware program with his own in-house forces after receiving data from the contractor.

    No commissioning information was available from OBO ﬁles. The PD’s report
did contain some commissioning information.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   155 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                  Project Case Study – NEC Astana (2003 project)

                  Delivery method: Design/build SED based design
                  Construction start date (LNTP): November 5, 2003
                  Post occupancy: September 29, 2006
                  Total project estimated cost from PAP: $89,872,000
                  Total cost at completion (PPR): $80,255,165
                  Contract modiﬁcations/costs: 38 Mods




        Project Description

             This project consists of the design and construction of a new embassy complex,
        including a new ofﬁce building, support annex, warehouse, MSGQ, ambassador’s
        residence, and CAC facilities. The Government of Kazakhstan moved its capital
        from Almaty to Astana and created a master plan for the development of the new
        capital city. The U.S. Embassy was located in Almaty with over 200 U.S. Govern­
        ment employees housed in poorly constructed Soviet-era buildings in an extremely
        high seismic risk zone. The entire capital city section of Astana is not developed and
        has no supporting infrastructure such as paved roads and utilities. However, the
        Government of Kazakhstan gave written assurances that the utility infrastructure
        will be in place to support the NEC project and that the utility and infrastructure will
        be provided at no cost to the U.S. Government.




156 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Issues and Lessons Learned
    Project issues were gleamed from the PD’s project completion report, an OIG
post inspection report, and OIG interviews. The most signiﬁcant and systemic is­
sues are summarized as follows.
    •		 Planning and Design issues: A major oversight in the Space Requirements
        Program was not including a heated garage in the original planning
        documents. A recreation center was planned but not built with the origi-
        nal contract. Car parking for the consular CAC was neither included in
        the design nor has been constructed. The carport for the MSGQ was not
        a good design for the harsh weather in Astana. A drivers’ room was not
        identiﬁed or planned for at the new ofﬁce building. Several other features
        were not included, such as a special room in the Consular CAC, the CAC
        vestibules, the Television Receive-Only antenna, and the door bell and the
        breezeway for the chief of mission residence.
    OBO Comments: Consular parking—The city provides buses and bus stops
near the consular CAC. A drop off lane was provided for easy access. Parking is
available near the consular entrance across the street or along the road. The heated
garage is funded and in the construction phase now. The open MSGQ car park was
to be addressed as a post follow-on project or rectiﬁed as soon as the heated garage
is completed.
    •		 Washington Support: One of the problems with Washington support was
        that there were two project executives over the life of the project with little
        or no overlap. The project executives did a very good job but were over
        worked and had too many projects to support. Personnel get reassigned
        and leave the job for various reasons, such as higher priority tasks or better
        positions elsewhere. More well-deﬁned job descriptions might alleviate
        some of this discontinuity.
    •		 OBO reviews in Washington took too long. Sometimes OBO Astana
        waited over ﬁve months to receive a submittal answer back from Washing-
        ton.
   OBO Comment: No delayed submittals, if any, impacted the critical path of
construction.
    •		 Planning Issue: The contractor wanted the utilities and streets in place for
        his use during construction, but this did not happen. The contract stated
        that the contractor would work with local authorities to accomplish this
        work. It is recommended that items of this nature and importance be
        more ﬁrmly established prior to the commencement of construction.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   157 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




             OBO Comment: OBO Astana went to great lengths to work with local authori­
        ties and the contractor to coordinate utilities and roads. In the end, this did not delay
        the contractor because Fluor was not ready for connections when the utilities were
        not in place.
            •		 Permits, zoning issues: The location of the perimeter wall was an issue.
                Normally the outer edge of the footings projects beyond the outer face
                of wall; however, this edge has to be within the property line unless
                the adjacent property owner permits the foundation to be built beyond the
                property line. The design drawings show the depth of footing at one
                meter below grade. More importantly, however, the speciﬁcation was to
                comply with the International Building Code which stated that, with the
                exception of a permafrost condition, the footings should be below the
                frost line. In Astana the site information stated that this was a depth of
                two meters, though some installations in the city construct to a depth of
                three meters.
            •		 Construction Issues: The speciﬁcation was poorly executed for the pave
                ment. The pavement speciﬁcation had the option to use AASHTO or
                local authority standard. The design is based on AASHTO, but the
                materials that the contractor proposed to use were local materials that did
                 not meet AASHTO standards. OBO directed the contractor to use a lo
                cal standard design with local standard material. As of now there is
                no design submitted based on local standard, but the work is done with lo
                cal standard material. OBO has not accepted this work at this point in the
                project.
            •		 Construction Issues: Originally the pilings were supposed to be precast
                concrete, which was the contractor’s design. Local pile manufacturers are
                said to be using Russian-made steel in the precast piles which was not
                acceptable to OBO. The contractor changed this to steel piles. The
                change affected the progress of work. The pilings were eventually changed
                to steel.
            •		 Construction Issues: The initial submittal for rebar was rejected by an
                OBO reviewer. The speciﬁcation was not readable, and the material was
                suspect. Eventually another reviewer yielded and approved the use of local
                Russian rebar. The rebar installation was successful. OBO made a com-
                ment about use of Russian-made steel in foundations directly below CAAs.
                Turkish steel was used to start with, but Russian steel was subsequently
                used in the project.




158 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




    •		 Forced Entry/Ballistic Resistant Doors: The stainless steel cladding on
        the doors is part of accepted design, but it gives operational problems that
        could have serious security implications. Cladding is coming loose and
        preventing the door from closing after opening.
    OBO Comment: The cladding on the doors was rectiﬁed in the ﬁeld. A prob­
lem was found later that the contractor installed the closers wrong and the doors
worked properly once this was corrected. However, cladding on the doors is difﬁcult
to manage in the construction process and operationally in the future.

    • 	 Design Issue: The aluminum cladding on the exterior security windows was
        not detailed well in the design drawings. The set screws for changing glazing
        were not speciﬁed for Muntin frame windows and could not be enforced.

    OBO Comment: The aluminum cladding on the ﬁrst level became an anti-
climb issue and this was rectiﬁed in the ﬁeld by angling the cladding down at the bot­
tom of the window. Set screws were given by the contractor at a later time.
    •		 Planning Issue: Sub-grade preparation data for footings was missed in the
        contract (design) geotech report. This caused delays in construction of the
        perimeter wall.
    • 	 Planning and Design issues: The quantity of air that was speciﬁed for all
        the server rooms was inadequate. This happened on other NECs. Some
        of the rooms were designed without heating coils in the variable air
        volumes, which resulted in lower temperatures than was called for in the
        design of those rooms. The original design did not call for the standby
        boiler to be rated to be rated for 100 percent capacity for the heating of
        the buildings. The design was modiﬁed to correct this omission. The
        original design did not include the electrical panels in the CACs that were
        required to support the technical security system installation in the NEC.
        The design was modiﬁed to correct this omission. The original design of
        electrical panels did not have enough breakers that were required to sup­
        port the technical security system installation the NEC. The design was
        modiﬁed to correct this omission. The lighting ﬁxtures that were selected
        for the atrium are outdoor mounted lights and look horrible in the atrium.


    OBO Comment: An additional stand alone unit was provided in the unclassi­
ﬁed server room for cooling. Variable air volumes with reheat coils were provided by
the contractor in the end. The light ﬁxtures in the atrium submittal meet the speci­
ﬁcation and are technically acceptable but not the proper application for an interior
space. They possibly could be painted the same color of the wall and look better.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   159 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




           • 	 There is a one year moratorium on NEC changes, but the Ofﬁce of the
               Legal Attache had to make some security modiﬁcations in order to meet its
               speciﬁcations.

        Contract Issues

            The Astana project’s pre-award changes were minimal. However, the project
        report notes that a planned recreation center was not built. The report’s lessons
        learned section also describes a number of other necessary items missing from the
        original planning including a heated garage, a car park, and special room for the
        Consular CAC, CAC vestibules, a door bell and breezeway for the chief of mission
        residence, a drivers’ (motor pool) room, and surrounding walls for the MSGQ’s park­
        ing area.


        Customer Satisfaction

            The U.S. Embassy was among the ﬁrst foreign missions to relocate from Almaty
        to Astana. The U.S. Embassy took advantage of the unique opportunity to project
        a positive external image of the United States through the “Transparent Design of
        the Atrium” and “Decorative Kazakh Stone Detailing” that blends well with the local
        architecture. The proximity of the NEC to the new government center and other
        embassies enables this image to be read throughout the City of Astana.

             The NEC offers a pleasant, modern, and functional working environment for
        mission employees and visitors. The compound includes a new ofﬁce building, chief
        of mission residence, Marine house, warehouse and general services annex, and a
        utility building. Plans are underway to build a $750,000 heated garage and a $750,000
        recreational facility on site.

            A two-year maintenance service agreement was included as part of the new em­
        bassy construction contract. A private ﬁrm, at a cost of $1 million per year, provides
        this service. The FM is the COR on this contract. The maintenance agreement was
        modiﬁed recently to include snow removal. There are no contractor performance
        issues.

              The Embassy has a highly qualiﬁed maintenance staff, and virtually all identiﬁed
        post-construction problems have been corrected. With OBO’s support and funding,
        the embassy completed a landscaping/dust abatement project for the grounds. OBO
        continues to provide support and funding to improve the compound and quality of
        life.


160 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Commissioning
   No commissioning information was available in OBO ﬁles or the PD’s report
provided to OIG. OBO advised that a more complete report is now available that
contains the commissioning documentation.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   161 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                  Project Case Study – NEC Bamako (2003 project)

                     Delivery method: Design/build SED based design
                     Construction start date (LNTP): December 7, 2003
                     Post occupancy: November 17, 2006
                     Total project estimated cost from PAP: $71,634,000
                     Total cost at completion (PPR): $65,905,675
                     Contract modiﬁcations/costs: 24 Mods, $2,729,397




        Project Description

             The project scope is to design and construct a NEC, including a new ofﬁce
        building, GSO annex, Marine Security Guard residence, warehouse, and CAC facili­
        ties. The scope includes site planning to accommodate a future USAID facility. The
        completed Embassy compound will accommodate all Department as well as tenant
        organizations except Peace Corps, Centers for Disease Control, and the National
        Institutes of Health, which received waivers.

             Embassy Bamako operated from three separate locations. All facilities except the
        warehouse were located in the downtown business district. The old Chancery had
        limited setback on two sides. All of the facilities were structurally deﬁcient and over­
        crowded and did not meet current Department security or setback standards. This
        is especially problematic since the downtown areas are known for their high crime
        rates.



162 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Issues and Lessons Learned

   Information was gleamed from post’s lessons learned telegram, the OIG world­
wide survey, the PDs’ project completion report, and OIG interviews.
    •	 Planning Issues: Provide clear and detailed deﬁnition of the interface be-
       tween phases in the RFP, especially for site work and temporary facilities
       and access. If there is an ongoing construction project on the same
       compound, make sure that the interface is clearly spelled out in both
       contracts. The RFP should provide adequate space for temporary
       facilities and construction activities around the new ofﬁce annex on exist-
       ing compounds. Any scope transfers between contractors on the same site
       should be done formally through contract modiﬁcations to both contracts
       immediately upon conclusion of negotiations.
    OBO Comment: The Bamako Follow-on Project was to address the speciﬁc
statement of work that was incorporated into the master plan, but purposely was left
out so that the phased construction work of the NEC and new ofﬁce annex could
be completed ﬁrst.
    •	 Planning Issues: OBO technical people need to perform a detailed review
       of bid pricing to ensure that they are making the right comparisons, and
       major pieces of equipment (such as chillers) cannot be claimed to be left
       out of the proposal.
    •	 Planning and Design Issues: Accurate existing equipment heat load for the
       server rooms are required so that air conditioning can be properly deigned.
       More air conditioning for the security electrical closet was needed.
    •	 Maintenance Issues: Post lacks sufﬁcient competent mechanical main-
       tenance staff to maintain the technical systems of this compound. During
       training several trainers reported that the level of technical competence was
       not high. Post needs to provide additional training to their staff to bring
       them to the journeyman level. Post does not have adequate
       after-hours maintenance staff on the compound. Alarms are routinely ig-
       nored. Several failures of the site security lighting system were unknown
       to the maintenance staff because they had no one who was competent on
       duty after hours to observe and report these problems.
    •	 Design Reviews: The Fire Protection Engineering branch must do a better
       job reviewing the main ﬁre and life safety elements of design, such as-
       egress paths and the ﬁre water riser. The SED HVAC smoke control
       sequence of operations needs to be corrected. It contains some important
       errors and ambiguities.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   163 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



            •	 Design Issue: Travertine was used as the ﬂooring material in the lobby.
               This is a soft stone that is prone to damage and staining. The stone needs
               to be sealed yearly. The health unit lacks two laboratory spaces. Any medi-
               cal facility that performs laboratory testing on bodily ﬂuids must have both
               a wet and a clean lab. Post had to retroﬁt an ofﬁce, in an ad hoc manner,
               to provide sufﬁcient separation. The NEC and new ofﬁce annex do not
               have enough bathrooms.
            OBO Comment: The health unit was designed per the Space Requirements Pro­
        gram and therefore through the approved rightsizing program. Further, M/ MED
        was afforded the review during the OBO Integrated Design Review. Bathrooms
        were adequately designed per the International Building Code to meet the number of
        building occupants.
            •	 Planning and Design Issues: Post II is not useful. The back door of the
               chancery was designed without sufﬁcient audio and video connections to
               allow control of the doors from Post I. Making the back door useful to
               the GSO and utility areas in back of the chancery is a technical ﬁx beyond
               post’s ability.
            •	 Planning and Design Issues: No eyewash or shower stations were included
               in the facilities shop areas. No purpose-built weapons of mass destruc-
               tion decontamination area exists. The reception desk was not wired for
               systems or telephone. The plumbing shop was built without plumbing.
               No welding shop was included in the plan, despite a clear, previously stated
               need; however, it will be added by OBO this year. No storage for danger
               ous stock (paints, solvents, etc.) was provided. No area for storage of dan-
               gerous disposals (motor oil, solvents, batteries, etc.) was provided. Desk
               space for facilities shop foremen was provided in the chancery, far from the
               shops and shop workers.
            OBO Comment: The original NEC Space Requirements Program did not
        include the items listed in this bullet. As the need was identiﬁed and the process fol­
        lowed for right sizing, OBO is providing these items in the follow on work project.
            •	 Planning and Design Issues: The high arcade in front of the chancery and
               annex is attractive but functionally useless and difﬁcult to maintain. Post
               has pointed out to visiting value engineers that the expense of the arcade
               would have been better spent on kitchens, multipurpose room, bathrooms,
               or a solar power project.
            OBO Comment: The point is noted, and canopies serve a purpose. The future
        challenge will be determining a canopy that meets the requirements from protection
        of elements, security and budget.

164 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    •	 Maintenance Issues: The CAC gates were poorly designed and installed.
       The massive anti-ram gates are difﬁcult to maintain in good working order
       even when they are perfectly installed. Post’s were installed with signiﬁ-
       cant defects. The Potable Water System was installed improperly and
       leaked profusely and continuously for over a year. The water main con-
       nection in the utility building blew open, causing massive ﬂooding.
       Post found that the pipe used by the contractor was a local non-sanitary
       type of material and not up to speciﬁcation. Post continues to discover
       faults with the Building Automation System. Part of the chancery is still
       lacking complete control over the air handling system. Building Automa
       tion Systems from different providers are installed in the NEC and new
       ofﬁce annex. Attempts to make them talk to one another will be difﬁcult
       and time-consuming.


    OBO Comment: This was a systemic program issue that OBO recognizes. The
gates are to be replaced in the already awarded follow-on project. The leaks and
the failure on the on the potable water system pipes were a contractor installation
problem which the contractor addressed under warranty. The Building Automation
System was installed per contract requirements; it requires extensive training to oper­
ate. This issue appears to have been resolved. Further, software upgrades have been
installed


    •	 Operations and Maintenance Issues: Estimates of building operating
       expenses were woefully low. Post’s electricity bill is enormous and grow-
       ing. Planning for maintenance stafﬁng was insufﬁcient at ﬁrst, but post
       has since hired the required maintenance staff. Contractor-provided
       training was completely insufﬁcient. It was performed in accordance with
       a delivery schedule that did not change even when NEC occupancy was
       delayed by six months. Training was cursory and superﬁcial. Spare parts
       were barely adequate and are swiftly being drawn down. Provided diag-
       nostic test equipment is insufﬁcient. Maintenance equipment was largely
       missing and had to be improvised by Post. With few or no qualiﬁed
       employees in technical ﬁelds available in Mali, training should have been
       a top priority. Post accurately predicted the NEC and new ofﬁce annex util-
       ity costs and budgeted for them. Post knew their increased staff
       costs and budgeted for those too. But post’s ICASS budget was cut, mak-
       ing it difﬁcult to do anything but pay the staff and the utility bills. It has
       put post in a terrible ﬁnancial bind.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   165 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



             OBO Comment: A stafﬁng study was conducted to determine the number of
        operations and maintenance personnel necessary to operate the NEC. The NEC
        contractor did conduct training in accordance with contract requirements. The issue
        lies with ﬁnding suitable qualiﬁed local employees.

        Contract Issues
            This project involved a number of signiﬁcant design/build changes which oc­
        curred in the last weeks before contract award. The proposed costs by four contrac­
        tors for both design and build portion of the contract were well above the indepen­
        dent government estimate, which is listed as $51,934,229 for the design build portion
        of the contract, and $56,347,500 for design-build with all options. After reviewing
        a variety of cost reduction options by OBO (e.g. elimination of the warehouse,
        GSO annex, landscaping, and cuts in the new ofﬁce building size), other signiﬁcant
        steps must be taken to reduce costs and improve the chances of awarding these
        projects within the IGE. Accepted cost reduction steps were sent to the bidders on
        9/26/2003. The revisions included:
           1. 	 Reduce the size of the proposed chancery building from 8736 m2 to the
                SED medium size of 6400 m2 without reducing the programmed popula-
                tion.
           2. 	 Increase the period of performance from 24 to 28 months.
           3. 	 On 09/29/2003 a fax acknowledging the amendments and awarding the
                contract in the amount of $49,700,000.
        Customer Satisfaction
             Post loves their new buildings. But post is also gravely worried by them. If
        post’s problems were limited to questions of style or ﬁnish, then they would learn
        to live with them. If the problems were minor, then they would work around them.
        But post frequently discovers signiﬁcant defects that reduce productivity or raise
        operating costs and occasionally run into problems that put the staff and buildings at
        risk.

             Post’s level of satisfaction with the NEC and new ofﬁce annex is mixed. Gener­
        ally speaking, the ofﬁce and other functional spaces are reasonably suitable but there
        are glaring omissions. Post is unsatisﬁed with the functionality of mechanical sys­
        tems.

            The NEC and new ofﬁce annex are beautifully situated, striking buildings that
        stand out all the more among the generally poorly-designed and constructed build­
        ings in Bamako, including the old, ugly, and unsafe former quarters. Ofﬁce spaces
        are adequate and well-furnished. Initial doubts by many employees about cubicles


166 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




were quickly overcome by the cubicles’ improved functionality and by post’s train­
ing and efforts to assist the adaptation process. Lighting and electrical power supply
is very good. Systems connections are abundant and generally well planned. The
physical relationship between ofﬁces and utility and common areas was well-planned.
The consular section is particularly well-adapted to post’s uses.

    Descoping issues: Post understands that a large multipurpose room, acces­
sible from the outer lobby of the chancery, was part of the original plan, but it was
unilaterally dropped for budgetary reasons. Had post been asked, they might have
suggested alternatives for cutting rather than eliminating the only large interior meet­
ing space (in a country with difﬁcult outdoor conditions for ten of twelve months a
year).

    Descoping issues: The NEC kitchen was also cut down to save money. Post
was told not to worry because a kitchen would be added to the then-unﬁnished new
ofﬁce annex. No such additional kitchen was built. There are insufﬁcient alterna­
tives to eating on the compound and the over-stretched cafeteria kitchen is heading
toward customer service and hygienic disaster with several hundred customers daily
served from a space that should not feed more than a hundred.

     Descoping issues: The recreation center was removed from the plans at some
point to save money. Post was allowed to keep the old MSGQ as a recreation center
in lieu of a NEC facility. But making the old Marine house into a recreation center is
an expensive and time-consuming proposition. Renovation of the old Marine house
may save OBO a little money but in the long run will cost the U.S. Government
plenty.

Commissioning
   No commissioning information was available in OBO ﬁles and the OIG was not
provided a PD’s report for the NEC project.

    OBO Comment: Commissioning was completed in accordance with contract
requirements. All documents and deliverables were handed over to the FM.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   167 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




                Project Case Study – NEC Freetown (2003 project)

                     Delivery method: Design/build SED based design
                     Construction start date (LNTP): January 6, 2006
                     post occupancy: December 4, 2006
                     Total project estimated cost from CWE: $ 61,957,000
                     Total cost at completion (PPR): 58,063,858
                     Contract modiﬁcations/costs: 3 Mods, No cost




        Project Description

            This project consists of the design and construction of a NEC, including a new
        ofﬁce building, general services ofﬁce annex, warehouse, and CAC facilities. The
        project also provides space for a future annex building for USAID and a MSGQ.
        The project execution schedule is 730 days, including time for design-build acquisi­
        tion, with six months for design and 21 months for construction, and is planned for
        completion in FY 05. The project is funded at $60.2 million.

            The new embassy site occupies about 20 acres and is located adjacent to Leices­
        ter Peak, south of Freetown, Sierra Leone, in the area known as the South Ridge Hill
        Station. Leicester Peak, at an elevation of 595 meters, and three small rural villages
        are the primary landmarks and settlements in the immediate area of the NEC.




168 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




Issues and Lessons Learned

    Project issues were gleamed from the PD’s project completion report, an OIG
inspection report, and OIG interviews. The most signiﬁcant and systemic issues are
summarized as follows.
    •	 The lack of a reliable water source to support the NEC’s daily demand
       for 9,000 gallons is a major operational problem which requires a long-
       term solution. Of this amount, about 6,000 gallons are required just for
       the water-cooled chillers of the air conditioning system.
    OBO Comment: The original geotechnical reports alluded to groundwater
being available by drilling a deep water well into an aquifer. After the contract was
awarded and construction began, the NEC contractor drilled to the depth identiﬁed
in the geotechnical report. Unfortunately, groundwater was not found. A change
order was issued to drill deeper, but proved unsuccessful. A solution was found
through the assistance of post and the international community, where water is
trucked to facilities around the area that have this similar issue.
    •	 Planning/design issue: OBO needs to replace the water-cooled chillers with
       air-cooled units to save water and improve reliability.
     OBO Comment: Due to both the systemic chiller problems and water shortag­
es, OBO initiated a worldwide initiative to replace certain water-cooled chillers with
air-cooled chillers. Freetown was identiﬁed as a recipient. The two existing water-
cooled chillers were augmented with an air-cooled chiller. Installation is currently
underway.
    •	 The FM and General Services Ofﬁcer must consistently deal with issues
       — big or small — to keep the building operating. It seems post is always
       not too far away from a disaster.
    OBO Comment: The operations and maintenance of a NEC is a serious and
challenging issue. OBO has recognized the complexities of the systems being
installed and the limited availability of trained quality maintenance personnel. FMs
are now more involved in the NEC and commission process to ensure at least a 6­
month handoff period occurs before post occupies the facility.
    •	 Maintenance costs are higher in the new NECs. The Department of
       Defense was shocked. It would have been nice if OBO had alerted it that
       its ICASS bill would increase substantially. It is now increasing its ICASS
       budget request if a new NEC is being built.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   169 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




            OBO Comment: NEC maintenance costs have been well identiﬁed as an issue
        that needs to be addressed. During the Integrated Design Review process, tenants,
        to include the Department of Defense, were notiﬁed of their increased costs and
        were billed for furniture orders 8 months prior to move in.

        Contract Issues
            Descoping on Freetown was discussed in the September 24, 2003, memorandum
        from the Designing and Engineering Division to OBO’s Director. At that time, the
        Design and Engineering Division suggested that a planned recreational facility for
        Freetown be eliminated from the ultimate construction plan; however, the solicita­
        tion was not amended to reﬂect this, though it was amended to add four months
        (from 24 to 28) to the performance period and a reduction of the building size per
        the new space requirement standard. The contract ﬁle shows that descoping of the
        recreational facility was an issue; however, the notice to proceed was delayed, and the
        contracting ofﬁcer requested on February 8, 2004, that the contractor provide a cost
        proposal to omit the recreational facility.

            No modiﬁcations were made to reﬂect this change, however, and the contracting
        ofﬁcer informed on May 2, 2008, that the recreational facility and a pool were com­
        pleted for the project. The project ﬁnished with a funding surplus of $1,980,539.

             OBO Comment: At one time, the recreational facilities were considered for
        omission. Post formally objected. OBO responded by keeping the recreational
        facilities in the NEC package.


        Customer Satisfaction
           The OIG inspection report of Freetown dated, March 2008, noted that Embassy
        Freetown is now located in an attractive and functional NEC that provides sufﬁcient
        ofﬁce and utility space for all current mission operations.

             Post’s Comments: Our working environment is much more professional mak­
        ing us more professional. The functionality, layout, and structure of the new facili­
        ties have increased the opportunity for more activities and representational functions
        at the NEC, when compared to the previous facilities. From the GSO standpoint,
        this is huge. Hosting events here rather than at residences allows us to set up and
        break down more easily. Sierra Leone doesn’t offer facilities for hosting events so we
        always have to rely on our own resources. The atrium here at the embassy is perfect
        for events.




170 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    The NEC has enhanced the ability to conduct and facilitate consular activities.
The collocation of staff has increased the efﬁciency of the mission and has elevated
the overall level of customer service.

    We are up the hill, literally. We are no longer in close proximity to government
ofﬁces, Non-Governmental organizations, and businesses. Without reliable phone
service, this is a challenge. The distance is an issue as most staff must take several
taxies to get to work each day.

   The location, layout, and structure of the NEC have strengthened security in
comparison with the previous facility. No doubt we are safer.

    Commissioning
     It is imperative that the embassy have ready access to trained and qualiﬁed per­
sonnel who can maintain the critical elements of the HVAC system. OBO guidance
on NEC construction requires that the building contractor provide training to post
maintenance staff on all new critical building equipment and systems. The staff re­
ceived some training in basic maintenance of the chillers, but not enough to perform
diagnosis and repairs. In the long run, however, the lack of in-house repair capability
will require that post bring in a private contractor, which could prove a very expen­
sive proposition.

    No commissioning information was available in OBO ﬁles or in the PD’s report.

    OBO Comment: Commissioning reports and spare parts were handed over to
post. The issue was that there was no formal handover mechanism as identiﬁed by
the GAO.

    OBO Comment: Commissioning was completed in accordance with contract
requirements. All documents and deliverables were handed over to the FM.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   171 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                  Project Case Study – NEC Kingston (2003 project)

                  Delivery method: Design/build SED based design
                  Construction start date (LNTP): November 12, 2003
                  Post occupancy: May 4, 2006
                  Total project estimated cost from PAP: $71,896,000
                  Total cost at completion (PPR): $64,987,409
                  Contract modiﬁcations/costs: 33 for a credit of $2,264,488




        Project Description

            This project consists of the design and construction of a NEC, including a new
        ofﬁce building, a marine security guard residence, a utility building, and CAC facilities
        on the property known as “Bamboo Pen.” The project also provides for a future,
        but not funded, USAID annex.

             The NEC property is 9.2 acres and already incorporates the existing GSO ware­
        house/motor-pool shops/commissary. The site also includes two former residences
        that are currently being used by the American school, which will be demolished to
        make room for the new ofﬁce building and USAID annex. The new ofﬁce building
        will be designed using the SED model on the property per the site utilization study.
        Present operations are divided between three buildings in the New Kingston area of
        the city. None of the buildings meets current Department standards.



172 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



Issues and Lessons Learned

   Project issues were gleamed from the PD’s project completion report, the OIG
worldwide survey, the OBO/OMB 2007 NEC Survey, and OIG interviews. The
most signiﬁcant and systemic issues are summarized as follows.
    • 	 Planning/Design Issue: The building permit was issued by the Jamai-
        can authority with three conditions; no access from Bamboo Avenue shall
        be allowed until a scheme illustrating and describing the limited and re-
        stricted access from Bamboo Avenue is submitted and approved by the
        planning authority. No occupation of the development shall be allowed
        until a scheme for parking is submitted to and approved by the
        planning authority. No occupation of development of the site shall be al-
        lowed until a scheme for management and accommodation of trafﬁc gen-
        erated by this development is submitted and approved by the planning
        authority.
    • 	 Planning/Design Issue: The design for CAC 2 failed to take into account
        realistic assumptions for moving large numbers of people, i.e. 1,000 or
        more per day, quickly and efﬁciently through security screening and into
        the compound.
    • 	 Planning/Design Issue: The failure to provide cover for applicants who
        are exposed to the elements while waiting outside the CAC has been a pub-
        lic relations disaster that is exploited frequently by critics of the U.S.
        government who use it as an example of the low regard they say the
        U.S. government has for Jamaicans. Applicants who have been waiting out
        doors frequently arrive for their interviews wet, dehydrated, and disgrun-
        tled.
    • 	 Planning/Design Issue: The oversized outdoor "consular garden" area and
        the covered booths are much larger than they need to be and rarely have
        the large number of applicants than were apparently contemplate. By con-
        trast, the indoor waiting areas are much smaller than needed to hold
        applicants waiting for the various stages of processing (enrollment, biomet-
        rics collection, and interviewing), which reduces efﬁcient movement of
        persons into the building.
    • 	 Planning/Design Issue: The doorway and anteroom where applicants
        enter the consular section is also poorly designed and reduces efﬁciency.
    • 	 Planning/Design Issue: As designed and constructed, there was no line
        management system for directing applicant trafﬁc in the waiting area, as
        is standard at consular sections of this size. Post was obliged to purchase a
        Q-matic system separately and retroﬁt it into the existing space.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   173 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           • 	 Maintenance costs are higher in the new NECs. In Jamaica, ICASS costs
               tripled. The Department of Defense was shocked. It would have been
               nice if OBO had alerted the Department of Defense that its ICASS bill
               would increase substantially. The Department of Defense is now increas-
               ing its ICASS budget request if a new NEC is being built.
            OBO Comment: The PD did, in fact, inform the ICASS council and the man­
        agement ofﬁcer that ICASS costs would increase substantially. The PD also provided
        cost information to the ICASS council for use in developing ICASS cost projec­
        tions and the ICASS council presented pro-forma cost information to the council
        members for planning purposes. The proper venue for notifying individual agencies
        of increased ICASS costs is the post ICASS council since they have the necessary
        information at their ﬁngertips while OBO Washington does not.


           •	 Design/Planning Issues with Security features: Closed circuit TV camera
              coverage is inadequate in areas. Door locking hardware is inappropriate on
              many security doors. Post One’s closed circuit TV monitor and
              other equipment conﬁgurations are inadequate. There is no TG Guard
              system installed.
           •	 Design/Planning Issues with the MSGQ: No privacy fence is installed.
              The gym is entirely too small. There are no locks on bedroom doors.
              There is poor drainage around the MSGQ, and there are dangerous water
              ponds in the rear of the Marine house with no fence around them to keep
              children out.
            OBO Comment: There are retention ponds in the vicinity of the MSGQ that
        are supposed to be dry in their normal state and only retain water for a short time
        during heavy rain. Since they are shallow and should normally be dry, no fence is
        required for safety reasons. If the ponds are holding water, the FM should clean the
        drains.

           • 	 Design/Planning Issues: Modiﬁcation 004 deleted the exterior stonework
               and instructed the contractor to redesign the exterior facade of the new
               ofﬁce building, MSGQ, CAC 1, CAC 2, CAC 3, and the utility building.
               The deletion of the stone required the contractor to decrease the tolerance
               of the concrete superstructure of the areas where the stone was replaced
               with stucco.


        OBO Comment: OBO believes the PD report on this issue is not correct.



174 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    • 	 Design/Planning Issues: The rooﬁng materials were changed to a conven-
        tional top membrane system with no formal substitution request. Because
        the rooﬁng system is designed with the membrane adhered directly to the
        concrete roof slab and the top membrane system requires the membrane
        to be placed on top of two layers of rigid insulation, there was a 6” to 8”
        difference in the position of the membrane. At this point in the construc-
        tion, the structure was topped out and all scuppers and parapets were
        installed. This caused many of the rooﬁng details to be redesigned on site
        with little or no review by OBO.
    OBO Comment: OBO believes the PD report on this issue is not correct. A
review of the contract rooﬁng speciﬁcation reveals that no mention is made of the
system. The system that the contractor proposed, and eventually installed, was re­
viewed by FAC and found to be in compliance with the terms of the contract. Since
Kingston was a design/build contract, coordination of the rooﬁng details was the
responsibility of the contractor. Further, the roof was accepted at completion by the
Firestone representative who issued the warranty.


Contract Issues
    The contract ﬁle does not provide evidence of signiﬁcant descoping or changes
in the design/build prior to award. However, a number of documents in the ﬁle are
discussed below to impart a sense of the timeline involved in this solicitation and
award.

    09/08/2003: Correspondence from one contractor (representative of cor­
respondence from other bidders) including its submission of bid proposal. This
includes an amendment to the solicitation (number 6) but nothing indicates large
changes in the scope of the project.

     09/12/2003: Determinations and ﬁndings, signed by contracting ofﬁcers, noting
award to the contractor mentioned above, based on the lowest bid received. This
document lists all bids and compares them with the IGE. Of the six bids received,
all were above the IGE; two bidders were discovered to have mistakenly added VAT
costs in the project. When eliminated, and after more discussion with the four re­
maining vendors (those in the competitive range) the contract was awarded.

Customer Satisfaction
    Overall, the facility provides an excellent ofﬁce atmosphere. It is functional and
provides the employees with a modern, secure environment. Its systems work and
respond well. The consular section’s level of satisfaction with the consular elements



OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   175 .


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




        of the NEC, however, is generally low. The space designed for consular operations
        is deﬁcient in many respects and is far less suitable than it should be for the opera­
        tions post conducts.

            The Post has been dealing with the PD for the Kingston new ofﬁce annex. He
        has been a true professional and communicates every step prior to initiating it. He
        has been great to work with and ensures post is informed of every action being
        taken. He has also demonstrated a greater interest in post’s needs and a greater
        ﬂexibility in addressing them than was the case with the NEC project. He actively
        coordinates with all relevant mission components to ensure a smooth transition to
        embassy responsibility.

            The previous Marine house was far better suited for hosting both internal em­
        bassy recreational and representational activities than the current fortress allows.
        Post lost a facility that was conducive to guests attending and gained a formal site
        that is not equipped with the same features and is far more restrictive for entry. The
        new Marine barracks is nothing more than a barracks.

            The location of the new facility is not a terrible inconvenience; the location is in
        a residential part of the city, some distance from the business center (where the old
        embassy was located) and from government ofﬁces.

            The location, layout, and structure of the NEC have strengthened security in
        comparison with the previous facility. The previous facility was a security nightmare.
        Post has gone from one extreme to the other. Now it has maximum security without
        the expense of diplomatic image. The old facility was not at all secure.

            The NEC is a beautiful building and a vast improvement over the old one. Based
        on what post sees at the new USAID building, the whole process might be improved
        through more collaboration between OBO and personnel in the ﬁeld. It is always
        good to ground-truth designs with actual end users (even to deal with the ﬁne tuning
        of small issues during construction).



        Commissioning

            OIG inspection team comment: The OBO PD’s project completion report
        was extremely well done. It contained all of the relevant information for the project
        including scanned copies of all commissioning and accreditation activities and all
        project contract modiﬁcations.



176 .           OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



             Case Study – NEC Accra (2004 project)

             Delivery method: Design/build SED based design
             Construction start date (LNTP): October 22, 2004
             Post occupancy: June 6, 2007
             Total project estimated cost from PAP: $92,409,610
             Total actual project cost (PPR): $78,131,421
             Change Orders/Cost: 5 modiﬁcations, $1,981,208




Project Description

    This project consists of the design and construction of a NEC, including a new
ofﬁce building, GSO annex, warehouse, Marine security guard residence, USAID
annex, and CAC facilities. The project execution schedule is 1,354 calendar days,
including time for design-build acquisition, and 30 months for design and construc­
tion. The project is planned for completion in December 2006. Funding for the
project is anticipated in the FY 04 budget in the amount of $111.6 million ($93.4
million for the NEC in OBO’s budget and $18.2 million for the USAID annex in
USAID’s budget).




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   177 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Issues and Lessons Learned

           Project issues were gleamed from the PD’s project completion report, the OIG
        worldwide survey, and OIG interviews. The most signiﬁcant and systemic issues are
        summarized as follows.
           •	 The NEC and USAID projects were funded and awarded at different times
              and to different contractors. This led to signiﬁcant issues during construc-
              tion and for post operations because equipment installed in the two build-
              ings was of different manufacturers and models.
           •	 Signiﬁcant design and construction issues stemmed from initial planning
              and RFP shortcomings. Inadequate mechanical space in the building and
              signiﬁcant changes in the technical security design resulted in contract
              modiﬁcations of $1,565,000. Inadequate attention to site conditions also
              resulted in a number of change orders. Changes in the telephone installa-
              tion and antenna placement caused signiﬁcant problems for the PD. A
              number of post-speciﬁc issues that should have been addressed in the
              planning phase of the project were also identiﬁed.
           •	 Design issues with generators, HVAC, and mechanical, electrical, and ﬁre
              alarm systems have a continual impact on post’s operations and mainte-
              nance efforts.
           •	 The initial planning survey and RFP did not give appropriate attention to
              the parking issues for the site (no street parking available) and the building
              did not provide sufﬁcient growth space.
           OBO Comment: Signiﬁcant attention was given to the parking issue both pre-
        and post-award. Parking was provided in accordance with standards and was not
        demonstrated to be inadequate (although post may be correct). Growth space was
        provided in the Space Requirements Program and in the building. It is possible that
        Accra is experiencing an unusual amount of growth.
           •	 The MSGQ lacked privacy because there was no privacy fence installed as
              speciﬁed in the 12 FAH-6 H-112.5 (a) on-compound housing standard.
           •	 The Federal Bureau of Investigation felt that there was a lack of commu-
              nication between the construction team, the OBO design team, and the
              tenant agencies. Budget-driven changes were not communicated to the
              tenant, and the tenant then had to renovate the space themselves. The
              Federal Bureau of Investigation sent a certifying team to post only to learn
              that the Federal Bureau of Investigations had been displaced and there was
              no space to certify.


178 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




    OBO Comment: Ghana and had an internal dispute with the Drug Enforce­
ment Administration about who was getting the space. We looked at it as “DoJ”
space and built it as designed.

Contract Issues
    OIG conducted a review of OBO’s design-build construction contract ﬁles
and RFP process. The acquisition process for SED projects has not progressed as
efﬁciently as should be expected. More information is in the contracts section of
this OIG report. The Accra project is a prime example of an RFP process that is
cumbersome and discourages more construction contractors from competing for
OBO work. In this project, which was a 2004 project and in the third year of a
SED RFP, the RFP process required ﬁve separate major amendments to the contract
documents with multiple rescheduling of the contractor bid submission date. The
original RFP was issued on 28 May, 2004, and ﬁve separate amendments were issued
thereafter that changed the bid date from 21 July, 2004 to 28 July, 2004 to 9 August,
2004 and ﬁnally to 23 August, 2004. Although amendment #5, which was a major
change to the functional relationship diagram for the facilities, was issued on 17 Au­
gust, 2004, the receipt of bids was not changed but was allowed to remain the same
date, 23 August, 2004.

    A major amendment like this would normally require added time for contrac­
tors to properly analyze before making a ﬁnal bid proposal. The Federal Acquisition
Regulation requires that any major amendment issued requires that contractors be
given 14 days before they must submit a bid. In this case, they were given only six
days to analyze and prepare a ﬁnal bid. This gives an unfair advantage to some con­
tractors that are more familiar with OBO work. The amendments included major in­
ternal space and square footage changes. The ﬁnal amendment #5 ﬁnally included a
changed functional relationship diagram that endeavored to resolve conﬂicts between
the Space Requirements Program and the blocking and stacking drawings.

    This process permits such changes, particularly late in the contracting RFP
process. There is a systemic ﬂaw in the RFP process that allows these types of
major design issues and space allocations to remain undetected right up until six days
before bid opening. This could create a great deal of uncertainty with contractors as
to the intended scope of the project and adds signiﬁcant risk to their proposals and
probably causes some contractors not to bid future OBO work. The scope and mag­
nitude of the construction contract modiﬁcations during the course of the construc­
tion for this project were not out of the ordinary; however, major changes again in­
cluded insufﬁcient space allocation for mechanical and circulation space and required
a major $1 million dollar modiﬁcation. These types of major changes should not
occur in the third year of implementing a standard design project and should have
been corrected before the RFP was issued.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   179 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Customer Satisfaction

             The facility provides vastly improved workspace. Communication between sec­
        tions has improved due to the relative proximity of ofﬁce and collocation of all par­
        ties on the compound. Air quality has signiﬁcantly improved. Travel between home
        and ofﬁce is reduced both in time and distance.

        Commissioning Activities
            The former PD, now assigned to OBO in Washington, provided detailed and
        complete commissioning ﬁles for this project. The ﬁles reside on the construction
        administration branch’s shared electronic folder. The PD uploaded them from CDs
        he brought back from the project. The ﬁles indicate that commissioning was accom­
        plished according to the plan. Nevertheless, commissioning activities were a signiﬁ­
        cant concern according to post. Better coordination of acceptance and accreditation
        teams was needed. Post noted that tools and diagnostic equipment, spare parts, and
        training were deﬁcient. Other problem areas were information on operating expens­
        es, warrantees, and funding for spare parts and tools.

            OBO Comment: CC policy has been that ﬁles for projects without claims are
        archived in accordance with CC guidebook requirements. Traditionally this made
        sense due to space constraints at OBO. Policy is currently being revised with the
        technology now available to maintain electronic archives in a cost effective manner.

            OBO believes post commissioning comments are somewhat inaccurate and
        misleading. Commissioning was completed in accordance with contract require­
        ments. Coordination of acceptance and accreditation teams went as well as possible
        (difﬁcult process). Tools, diagnostic equipment, spare parts, and training were also
        provided in accordance with the contract and appeared adequate. Warrantees and
        funding for spare parts and tools were provided.




180 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



         Project Case Study – NEC Belmopan (2004 project)

              Delivery method: Design/build SED based design
              Construction start date (LNTP): November 12, 2004
              Post occupancy: November 15, 2006
              Total project estimated cost (PAP): $58,108,000
              Total cost at completion (PPR): $57,206,592
              Change orders/cost: 3 Mods/2 REAs $1,313,452




Project Description
     The chancery compound is located on a 10-acre plot of land granted by the
government of Belize in the new capital city of Belmopan. Belmopan is a small city
about 52 miles from the much larger former capital, Belize City. The NEC is located
on Floral Park Drive in a mostly residential area. The compound consists of a chan­
cery building, a GSO annex, a utility building, a warehouse, and outdoor recreational
facilities. The site has three CAC points and a perimeter wall/fence. The compound
design is based on the OBO SED model and it conforms to Overseas Security Policy
Board security standards current as of the date of the contract, including the new
post communications standard. The chancery building was designed to meet the
physical and technical security requirements for a lock-and-leave post because there
are no U.S. Marine security guards.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   181 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Issues and Lessons Learned
            Project issues were gleamed from the PD’s project completion report, the OIG
        worldwide survey, OIG interviews, and an OIG Inspection Report. The most sig­
        niﬁcant and systemic issues are summarized as follows.
           •	 Descoping issues: Because the contract bids came in over the IGE, several
              things were descoped from the project. Interior space was reduced; the
              swimming pool and the irrigation system were removed. There is no indi-
              cation that the changes were fully coordinated with the stakeholders.
            OBO Comment: The swimming pool was removed from the project at post’s
        request and OBO concurrence. This decision was vetted through the Bureau and a
        decision memorandum was signed.
           •	 Inadequate project supervision: A PD with little support was assigned to
              this major NEC project for the majority of the construction work; for part
              of the time a PSC Construction Manager was also assigned. This lack
              of support caused major hardship for the PD and the project suffered
              from inadequate supervision.
            OBO Comment: As a direct result of Belmopan, the Department recognized
        the shortfall and approved hiring of seven additional FS Construction Engineers.
           •	 Design issues: The consular section has an inadequate and poorly conﬁg-
              ured waiting room, difﬁcult line of sight for American consular ofﬁcers,
              lack of client privacy at teller windows, and inadequate covered space for
              consular client overﬂow. The warehouse has only minimal provisions for
              climate controlled storage. Post felt the atrium space could be better
              planned; the cafeteria dominates the atrium space and gives the feel of a
              large lunchroom. The executive suite is undersized, the ambassador’s ofﬁce
              too small, and his bathroom too large. The CAA conference room is too
              small for Post.
           •	 HVAC and the Building Automation System were semi-operational and un-
              reliable for a three-to-four month period after move in. Not enough time
              for commissioning activities resulted in an open punch-list of about 2,500
              items. Training of embassy maintenance personnel was considered inad-
              equate.
            OBO Comment: The open punch list contained numerous noncontractual
        items as well as over 1500 patch and repair items.
           •	 Planning issue: OBO should have gotten ﬁrm commitments from local
              governments regarding infrastructure improvements such as paved streets


182 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



         around the NEC. There was a lack of planning for post housing needs in
         Belmopan. A costly build-to-lease housing project was initiated for post
         when the housing problem was ﬁnally noted during the NEC ground
         breaking visit by the OBO Director.
    •	 While the NEC was designed as a lock-and-leave facility, the design was
       not well coordinated for all disciplines. Fire alarms, certain building alarms
       and closed circuit television cameras should have been repeated to the CAC
       which is manned 24 hours a day.
    •	 Planning Issue: Concurrently with the construction of the NEC in Belmo-
       pan, and because of the lack of suitable housing in the city, there was an
       OBO build-lease project for 18 homes on a 14+ acre site about one-half
       mile north of the NEC. In the initial planning for the NEC, the question
       of housing for U.S Embassy employees should have been addressed. A
       more cost effective solution to the build-lease project may have been
       found.


Contract Issues

    The contract period was extended by two months to reduce cost. Descoping of
recreational facilities was also accomplished.

     OBO Response: A contract mod from a request for equitable adjustment added
time to the contract. This would not reduce. There was no descoping of recreation­
al facilities. In lieu of the swimming pool, a multipurpose court was added.

Customer Satisfaction
     The relocation of the mission to an NEC in Belmopan, 50 miles from the old fa­
cilities in Belize City, was a vast improvement in security as well as the quality and the
amount of space provided. The project gave a huge boost to the status and positive
perception of the U.S. Embassy in Belize. The space provided is adequate and leaves
room for some growth.

    The Art in Embassies program provided art to the NEC with virtually no con­
sultation with post. We would have preferred to be involved in the art selection
process from the beginning.

Commissioning

    Initially the mechanical systems, especially the HVAC and the Building Automa­
tion System that controls the HVAC, left a lot to be desired. The building was oc­


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   183 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        cupied for nearly six months before these systems were functioning to a degree that
        allowed post to feel comfortable in the environment and develop a degree of conﬁ­
        dence that it was likely to have a functioning facility from one day to the next. Post
        feels that this was a direct result of an accelerated construction schedule without
        sufﬁcient additional manpower on the part of OBO supervision or the contractor
        to make the new completion date realistic. As a result post had to endure a three­
        to-four month period when there was work going on in most parts of the complex
        by the contractor’s people while the mechanical systems were semi-operational and
        unreliable.

            Post initially had severe problems with the general contractor handing over the
        NEC in a semi-ﬁnished state. There was an open punch-list of about 2500 items,
        together with warranty claims that total, so far, nearly 140 claims.

             The training provided by the contractor was minimal. There were no training
        materials provided to the people who attended the classes, nor was there training
        material supplied to become a part of the Operations and Maintenance library to
        facilitate future training efforts.

           No commissioning information was available in OBO ﬁles or in the PD’s report.

            OBO Comments: The contractor provided training according to the terms of
        the contract and Division 1. This is documented in the turnover documents to the
        Facilities Manager at the time of signoff.

            Commissioning information is turned over to the FM and not typically kept at
        OBO especially if no claim is pending. Commissioning information was made avail­
        able to the ﬁrst and subsequent FM. Recommissioning was also done on systems
        that were deemed by OBO as insufﬁcient in testing and documentation. These com­
        missioning reports were turned over to the FM.




184 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                Project Case Study – NEC Managua (2004 project)

                Delivery method: Design/build SED based design
                Construction start date (LNTP): October 20, 2004
                Post occupancy: July 11, 2007
                Total project estimate cost from PAP: $83,589,000
                Total cost at completion (PPR): $77,051,779
                Contract modiﬁcations/costs: 49 mods, $7,597,825




Project Description

    This project consists of the design and construction of a NEC in Managua, Ni­
caragua, including a new ofﬁce building, gso annex, warehouse, marine security guard
residence, utility building, and CAC facilities. The project also provides for a future
building for the USAID.

     The project execution schedule is 1301 days, including time for design-build ac­
quisition, with six months for design and 24 months for construction, and is planned
for completion in October 2006. Project funding is anticipated in FY 04 in the
amount of $83.6 million for the NEC. The project was to be accomplished through
the design/build method of project delivery, using OBO’s SED approach through
full-and-open competition.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   185 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Issues and Lessons Learned
           Project issues were gleamed from the PD’s project completion report, the OIG
        worldwide survey, and OIG interviews. The most signiﬁcant and systemic issues are
        summarized as follows.
           •	 Major design changes consisted of changes in stafﬁng of various agen
              cies, particularly a substantial increase in Mil Group presence. Millennium
              Challenge Cooperation and global affairs were included in the Space Re-
              quire ments Program. The new ofﬁce building had used all of its spare
              capacity. Post suggested moving GSO to the ﬁrst ﬂoor of the annex
              building; this turned out to be an excellent solution for all, and there is now
              sufﬁcient growth capacity in both buildings.
           OBO Comment: Signiﬁcant design changes were the result of major stafﬁng
        changes in the Mil Group and USAID presence in Nicaragua, late in the planning
        and post-award stages of the project
           •	 Design/Planning Issues: Compound entrances that were not coordinated
              with the city caused problems with the service CAC. There were issues
              with inclusion of the existing Casa Grande in the plan. The ware house
              is too close to the service CAC. The fourth ﬂoor atrium can only be
              serviced through the CAA. Sun shades are horrible dust collectors and
              should be eliminated. There are “climbability” criteria problems with
              ledges wider than DS allows. The warehouse SED doesn’t show a con-
              trolled receiving area or laundry. The perimeter fence should be set back
              from the property line to provide a clear zone.
           OBO Comment: Warehouse proximity to the S-CAC does present some ma­
        neuvering/turning problem for large 40’ container trucks. The “climbability” issue
        was corrected during construction by providing beveled sills at all ground ﬂoor win­
        dows, and adding anti-climb grills at the NOB and utility building louvers.
           •	 OBO documents need to be better organized and written; this included
              package B.
           •	 Post’s role in design reviews needs to be emphasized more. Post had many
              issues that it would have liked to incorporate into the project at little or no
              cost.
           •	 The contractor made several design choices that were impractical and inef-
              fective including utility building location, storm water treatment, and the
              GSO and warehouse on the same new ofﬁce building HVAC system in-
              stead of on separate units.



186 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    OBO Comment: Maintaining a second, separate HVAC system for the GSO
and warehouse facility would have a higher life-cycle cost than the needed infrastruc­
ture to incorporate these buildings in the single NEC HVAC system.
    •	 The project did not include a large x-ray machine for the inspection of ma-
       terials. The equipment is important to prevent delays and should be
       included on all major projects.
    •	 The Ameristar Impasse Aegis II Anti-Climb security fence system was very
       fast and easy to install even over steep irregular terrain. The system is pre-
       painted and looks very good as well. However, post notes that the perim-
       eter fence is easily scalable.
    •	    Design Issues: Covered parking was not included in the project scope; at
         least some covered parking for key positions and some GSO vehicles
         should have been allowed. The construction of the CACs will make it
         nearly impossible for post to bring in large equipment. Post feels that not
         enough parking was provided. It appears the design of the trash transfer
         facilities was not properly coordinated with local procedures.
    OBO Comment: Additional covered parking was provided during construction
for key positions and some GSO vehicles. Fire trucks, mobile cranes and other large
construction equipment are able to enter through these facilities. On-site parking
provided for staff and ofﬁcial vehicles is adequate.
    •	 The “bullpen” style of the space in the political unit and in the political
       locally employed staff area is not conducive to much of the daily contact
       work. Many of the meetings are with Nicaraguans who are sensitive about
       their contact with the U.S. government. The lack of privacy for such con-
       versations in the “bullpen” requires locally employed staff to leave their
       workspace and go outside the building to have a private conversation via
       cell phone to schedule meetings. Assistant regional security ofﬁcers should
       have private ofﬁces; this applies to other sections as well.
    OBO Comment: The number of private ofﬁces provided meets the SRP re­
quirements. The new ofﬁce building includes four small conference rooms that are
intended for meetings.
    •	    Design/Planning Issues: The consular section lacks a separate waiting/in-
         terview space for American citizens which has led to some complaints
         from dual-national contacts that this creates an uncomfortable situation
         when they do American citizen-related business at the consulate. Indoor
         public space in the consular section is inadequate for its needs and work
         ﬂow is impaired with only one door for exits or entries and inadequate
         shelter for clients in line outside the CAC.

OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   187 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




            OBO Comment: The interior consular waiting area does include a separate,
        enclosed American citizens interview room; however access is through the common
        waiting area.
           •	 There was no planning for additional classiﬁed network capacity. The race
              tracks cannot handle any more lines and additional require ments already
              cannot be met until a new racetrack is installed. Not all ﬁber lines were
              checked and certiﬁed.
           •	 Design/Planning Issues: The space provided for the vehicle repair shop is
              inadequate for the safe and proper service to a vehicle and to meet post
              requirements. The warehouse layout, size, and design are inadequate and
              insufﬁcient.
           •	 The planning of the project focused only in the area occupied by the nine
              buildings that constitute the NEC and ignored the future development of
              the remaining 80 percent of the property that contains Casa Grande and
              Casa Chica (former chief of mission residence and scheduled for renova-
              tion in FY 09), the recreation area, and other ancillary buildings. No provi-
              sions or plans were made for future projects. This unique condition differs
              from the standard 10-acre compound found in other projects. A master
              plan for the entire compound would have resulted in lower costs for future
              renovations and projects.
           •	 Planning Issue: The fuel station in the area around Casa Grande is owned
              by Chevron, which limits the procurement of fuel to one vendor and poses
              the security risk of allowing entry to the fuel tanker inside the compound
              to reﬁll tanks. The cost and impact of removing and building a new fuel
              station meeting U.S. and local standards as part of the NEC project would
              have been lower and less traumatic to post operations if done during con-
              struction of the NEC.


        Contract Issues
            There was one major dispute on the project which was predicated on discrepan­
        cies in the bid documents. The Space Requirements Program and the blocking and
        stacking documents provided in the RFP misrepresented the actual new ofﬁce build­
        ing size. OBO Legal conceded the discrepancy and the request for equitable adjust­
        ment was settled for $ 4,349,730 and a 165-day contract extension.




188 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




Customer Satisfaction

    The NEC in Managua, Nicaragua, adequately meets the operational and func­
tional requirements for the mission. The beautiful facility is a landmark in the city
and without doubt the most modern building in the country. The ofﬁces and cu­
bicles are ample and, in general, provide a good work environment. In general, work
space for the employees is vastly improved; morale has soared among the employees
(even those who lost personal ofﬁces).


Commissioning
   The commissioning plan is very confusing and requires more deﬁnition. The
goal should be for an independent company to commission the site with only the
documentation resulting from the commissioning process.

    Mechanical system functionality is inadequate. The lack of a proper commis­
sioning process in this project has resulted in the current issues and requiring post’s
FM and his staff to spend time and energy troubleshooting, identifying, and cor­
recting design and installation deﬁciencies that should have been corrected before
occupancy.

    OBO should be more actively involved when the PD indicates that substantial
completion has taken place, in order to ensure that this determination is not in­
ﬂuenced by pressure from the contractor due to time constraints or budget. Post
should not be expected to move into a NEC until the building is, in fact, ready to be
occupied. If post had moved at the time OBO indicated, post would not have been
able to continue to function almost immediately as it did by delaying the move by
almost two months from the date set by the PD.

    OBO Comment: OBO acknowledges that the design/build contractor did not
execute the building systems’ commissioning processes in a well planned and timely
manner. Nevertheless, it is not uncommon for these complex, automated systems to
require troubleshooting and adjustments for some time following systems start-up,
functional testing/acceptance, and building occupancy.
    •	 Substantial completion was granted 18 July 2007.
    •	 NEC occupancy was indicated on or about mid-September 2007. All
       building systems were operational at this time, albeit, not all systems were
       fully commissioned and some architectural and landscaping features re-
       mained on the punch list. Also, all DS and Fire Protection Engineering
       Branch critical punch list items had been completed.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   189 .


                        SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



        •	 The new ofﬁce annex was not ready at this time (as it was awarded later
           and contract completion for the new ofﬁce annex was scheduled for mid
           October 2007. This was a signiﬁcant factor in Post not wanting to move as
           a signiﬁcant part of the GSO section was to occupy the new ofﬁce annex.




190 .      OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                 SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



             Project Case Study – NEC Panama (2004 project)

               Delivery method: Design/build SED based design 

               Construction start date (LNTP): October 20, 2004

               Post occupancy: June 30, 2007

               Total project estimated cost from PAP: $109,470,000

               Total cost at completion (PPR): $83,412,758

               Contract modiﬁcations/costs: 13 Mods, ($264,470)




Project Description

    This project consists of the design and construction of a NEC, including a
new ofﬁce building, GSO annex, warehouse, Marine security guard residence, utility
building, and compound access control facilities. The project execution schedule is
1,211 calendar days, including time for design-build acquisition, and is planned for
completion in January 2007.

    A site selection team went to post in April 2002. On June 14, 2002, OBO ap­
proved a decision memorandum authorizing the Acquisitions and Disposal Division
to negotiate and execute a conditional purchase agreement for the site. The site
area contains two hills (joined by a saddle) that dominate the property. The ultimate
NEC site was carved out of a larger area of 260,000 square meters.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   191 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Issues and Lessons Learned

           Issues were gleamed from the PD’s project completion report, the OIG world­
        wide survey, and OIG interviews. The most signiﬁcant and systemic issues are sum­
        marized as follows.
           •	 Communication/ Coordination: OBO'S comprehensive guidance, "The
              NEC process and post's role" (Cable Number 07 State 136139), high
              lights the importance of open communication between post, OBO, and
              the geographic and Diplomatic Security bureaus. Post recommends that
              this be stressed further and perhaps formalized by requiring the establish
              ment of a coordinating group. The planning of Panama's NEC did not
              take into consideration some ofﬁce/agency needs which required addition
              al change orders to provide important infrastructure. The building con-
              tractor should not make changes to speciﬁc requirements and designs with
              out consulting the agencies and ofﬁces which would be affected. Unau-
              thorized changes to Panama's NEC required additional costs to correct the
              deﬁciencies. Post information resource management staff felt there was
              little coordination between OBO, IRM, and other agencies during the ini-
              tial design phase that required considerable effort by post’s IRM staff to
              correct.
           •	 Design/Planning Issues: The Service CAC is the main entrance for
              vehicles and hundreds of people that access the Armed Services Post
              Ofﬁce which is located at an unreasonable distance from the CAC.
              Some people access the post ofﬁce with wheel chairs, walkers and canes.
              The path crosses foot and vehicle trafﬁc no less than three times.
              This safety feature should have been addressed in the planning stages.
           • 	 Design/Planning Issues: There is no access gate to 17 acres of the site.
               The perimeter is inaccessible by any vehicle in the rear and has been
               eroding since the day that ground was broken for the new facility. This
               area cannot be maintained without access.
           • 	 Design/Planning Issues: The initial design of the warehouse offered ex-
               cellent space utilization. However, during installation the plans
               were unilaterally changed resulting in a conﬁguration of racks that does
               not permit the warehouse manager to utilize space well.
           • 	 Design/Planning Issues: Government-owned vehicle parking for large
               vehicles has been a challenge. The lot is often ﬁlled to overﬂowing.
               There seems to have been no plan for parking the larger warehouse and
               post ofﬁce vehicles.


192 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    OBO Comment: There is plenty of parking for all sizes of government vehicles
– 60 spaces. U.S. government ofﬁcial vehicle parking was in accordance with the
Space Requirements Program.
    •	 Design/Planning Issues: The demark, main telecommunications ser-
       vice room, radio room, and all switch rooms were provided with un-
       ﬁnished concrete ﬂoors instead of static dissipative tiles required by
       many telecommunications providers. Desks were installed in some areas
       without access to power outlets, telephone, or data connections.
    OBO Comment: Static dissipative tiles were installed in the demark, and main
telecommunications service room during execution of the project.
    •	 Design changes were made despite speciﬁc requirements. For instance,
       although the contract called for 60-cycle transformers, 50-cycle units
       were installed despite post objections. The transformers were later re
       moved by the tenant agency and replaced with the proper transformers.
    OBO Comment: Installed transformers are 50/60 cycles. Removal was tenant’s
preference.



Contract Issues
    A review of the design-build contract and the price negotiation memorandum
summarizing the contract award process did not indicate any substantial scope
changes from the original PAP. The awarded contract scope of work substantially
matched the intended scope of the PAP. The scope and magnitude of the construc­
tion contract modiﬁcations during the course of the construction did not have any
major scope changes, but generally were reﬂective of ordinary types of design and
construction changes necessary to complete the facilities in accordance with the
customer’s requirements, code compliance, and OBO standards.



Customer Satisfaction
     Panama is very pleased with its NEC and the opportunity to ﬁnally consolidate
all ofﬁces and agencies at a single location. Space suitability in ofﬁces has been
greatly improved with the NEC. Most employees have adapted well to their new sur­
roundings and are pleased to be on one compound.




OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   193 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Commissioning
           Certiﬁcate of occupancy: The certiﬁcate of occupancy should not be issued
        prematurely nor should the physical move of the embassy into the NEC take place
        prematurely.

             Training/Maintenance: Maintaining primary building systems such as HVAC and
        generator systems is crucial. The difference between the smaller building systems
        that post’s staff is accustomed to and the advanced computer operated automated
        building systems is enormous. Extensive on-site training should be afforded to
        facilities management staff in addition to formal training opportunities. Post per­
        sonnel received familiarization training yet it lacked actual hands on training in some
        areas. As-built drawings were sent; however, the post engineer noted that they have
        not been completed. Spare parts, specialized tools, and plans have not been provided.
        However, post was allotted funding for spare parts and tools and has plans to pro­
        cure the missing equipment.

           No commissioning information was available in OBO ﬁles or in the PD’s report.




194 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



         Project Case Study – NEC Rangoon (2004 project)

                  Delivery method: Design/build SED based design
                  Construction start date (LNTP): January 10, 2005
                  Post occupancy: September 23, 2007
                  Total project estimated cost from PAP: $85,226,000
                  Total cost at completion (PPR): $74,134,573
                  Contract modiﬁcations/costs: 8 Mods, $1,240,811




Project Description

    This project consists of the design and construction of a NEC in Rangoon,
Burma including a new ofﬁce building, GSO annex, warehouse, MSGQ, utility build­
ing, CAC facilities, and an on-site sewage treatment facility. The project includes
demolition of existing buildings on the site. The site currently contains staff hous­
ing, which will be vacated. The project will include the ﬁrst two years of lease costs
of ten housing units, which will subsequently be picked up by the lease-hold account
as these are permanent relocations. The temporary relocation of the health unit
and MSGQ will be covered by the project, until these functions move back onto the
NEC. The contractor will secure, protect and renovate the existing historic Teak
House that is on the site.

    The U.S. government-owned chancery is a downtown ofﬁce building that can
never fully meet current security requirements because of its proximity to adjacent
buildings and the street.



OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   195 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



            OBO Comment: The service station constructed out of the project funds was
        off site, two blocks on U.S. government property and not on the NEC. The cost of
        the gas station was deleted from the contract. The project also include the running
        of a dedicated power line, by the local government, to supply more reliable power.

        Issues and Lessons Learned
            Project issues were gleamed from the PD’s project completion report, the OIG
        worldwide survey, an OIG inspection report in draft, and OIG interviews. The most
        signiﬁcant and systemic issues are summarized as follows.
           •	 Request for Proposal – Bridging: What is the construction standard, and
              what is the level of ﬁnish for representational, ofﬁce, and common areas?
              For the contractor it is hard to know what to bid on so to mitigate risk the
              bid is high. It is hard to argue what the contractor assumed in his bid. In-
              clude additive bid items for key systems.
           •	 Design/Planning Issues: Weather protection like the overhang for the main
              entrance should provide more coverage to provide weather protection dur-
              ing the monsoon season.
        OBO Comment: It is agreed that a better method could have been employed at
          the VIP drop off in front of the new ofﬁce building.
           •	 Design/Planning Issues: Get better, more user input. Have speciﬁc space
              requirements for key equipment above the RIP Key for agencies like De-
              fense attaché ofﬁce. Flexibility: Build in a couple of design blocks that can
              be added or subtracted right up to the RFP. Include an additive bid item,
              like operations and maintenance.
           •	 Design/Planning Issues: OBO needs to consider the local police at site to
              prevent unsightly guard shacks at the site. OBO should provide facilities
              that match the architectural plan. This is more important for third world
              countries.
           •	 Design/Planning Issues: OBO installed a Post 2 in the NEC but there are
              no Marine security guards to man the post.
           •	 Design/Planning Issues: Clearly state proper maintenance access require
              ments for all equipment. This is a problem when the equipment is raised
              or installed remotely.
           •	 Out of Date Equipment: Make sure equipment listed is current, such as
              which model of the Vivid X-ray is the correct one in the.
           •	 OBO architects put too much effort into their concept and limit project
              potential by forcing the contractor to follow the concept as the only solu-
              tion.

196 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




    •	 Design/Planning Issues: Provide a reasonable area in the CAA for secure
       support material storage.
    •	 Design Review: A 14-day submittal for OBO review is not reasonable.
       Submittal reviews not done at site cannot meet the 14 days since they have
       to go back to Washington. The review for these key items should be
       changed to 30 days in Division 1 and the contractor should send copies
       direct to the project executive at the same time as those submitted to site.
    •	 Have 35 and 90 percent design coordination drawings done in 3D for utili-
       ties. Require coordination drawings for the 35 percent design submittal
       since there is no 65 percent design review. It is too late to ﬁnd out with the
       90 percent design that the trees are following the duct bank or electrical
       and mechanical will not ﬁt at a particular crossing point.
    •	 Value engineering studies to be more effective need to review the generic
       SED each year and provide detailed comments. The VE team should
       suggest overall improvements in the SED to make it more useful and effec-
       tive contractually. It would be more beneﬁcial to have the same VE
       team review the OBO bridging documents. An example is Rangoon where
       the OBO team provided a design that shorts post by 84 parking spaces.
    •	 Art: Coordination drawings for artwork at 35 percent design submittal are
       needed to make sure life safety and other construction features do not
       interfere with art locations and detract from their value. Also art require-
       ments should be speciﬁed in the bridging documents.
    •	 Design/Planning Issues: The bedrooms at the MSGQ are too small, there
       is almost no storage space, the bathrooms are so small that the Marines
       must contort themselves to enter the shower stall or close the door,
       there is almost no space for entertaining, and the workout area is too
       cramped to accommodate much of the exercise equipment the Marines
       need to maintain their ﬁtness. The upholstery pattern of camouﬂage is
       also an unwelcome choice obviously made without consulting the Marines.
    •	 Atrium: The decorative columns create a narrow, claustrophobic environ-
       ment that makes it impossible to hold large gatherings in it, wasting that
       attractive and potentially useful space. Atrium lighting is also insufﬁcient
       and poorly designed; the ground ﬂoor is dim even during daylight hours.
    •	 Rangoon has a six-month rainy season, when heavy rains fall several times
       a day. The covered walkways for consular visitors and the projection out
       side the main entrance of the chancery do not extend fully to the CACs
       or car drop-off zone; visitors are exposed to glaring sun or monsoon rain
       at several points inside the compound.


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   197 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           •	 BOE estimates were not accurate. For example, the $2700 per day gen-
              erator fuel costs was not in the original BOE budget. OBO called the
              NEC substantially completed, yet the post had no city power for almost
              two months of initial operation. ICASS tenants were stunned by the in-
              crease in costs that were not factored into BOE pre-move estimates.
             OBO Comment: For over two years at post management meetings and country
        team meetings the ICASS costs increases were. The ﬁve generators are prime power
        and the embassy was designed to run primarily during duty hours on the generators.
        Furthermore, city power was delayed by the installer of the city power (the local util­
        ity power was available to the site just prior to the move in and it did take the con­
        tractor several weeks to remobilize). The NEC was substantially complete and fully
        operational.

           •	 While OBO is responsible for the repair of technical security systems in the
              embassy for a year or so after the certiﬁcation, OBO has made no plans to
              have its own technicians or contractors come to Rangoon for maintenance.
              OBO seems to want to push off their responsibilities to the ESC engineers
              and Seabees.

           OBO Comment: There is a one year warranty that when a part is identiﬁed as
        bad the contractor has to repair or replace the failed part.

        Contract Issues
            A review of the design-build construction contract ﬁles was hampered by a lack
        of pertinent ﬁles available for review, and only a small portion of ﬁles were found. A
        price negotiation memorandum or a determination of responsibility determination
        was not found in the contract ﬁles. Nevertheless, the contract award process does
        not indicate any substantial scope changes were necessary from the original PAP
        scope.

             The awarded contract scope of work substantially matched the intended scope
        of the PAP. The scope and magnitude of the construction contract modiﬁcations
        during the course of the construction were numerous, but generally were reﬂective
        of ordinary types of design and construction changes necessary to complete the fa­
        cilities in accordance with the customer’s requirements, code compliance, and OBO
        standards. However, there still remain a number of changes required after award
        to resolve space deﬁciencies and conﬂicts between the original Space Requirements
        Program and the ﬁnal space requirements as laid out in the block & stacking plans
        and the SED drawings.

            OBO Comment: There was 10 percent growth space, and there were spaces for
        military assistance that did not come. Post hired an additional Avian Flu agricultural


198 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




person and put them in the ofﬁce upstairs, then moved the Foreign Service National
from downstairs up to that ofﬁce. The Information Resources Center was not used
as post processed a collocation waiver after construction was started; there is a large
AID section (ﬁve private ofﬁces and a large open ﬂoor plan) that was constructed
with no AID staff.


Customer Satisfaction
    The NEC is a substantially safer facility than its predecessor and is one of the
most technically advanced buildings in Burma. The design has been praised by
passers-by, visitors, and embassy staff alike. Post appreciates the great efforts of the
many who helped provide an on-schedule and modern NEC.

    By most accounts, the NEC meets post requirements and is viewed favorably
though the MSGQ is inadequate and vehicle maintenance is hindered somewhat by
the height of the vehicle garage ceiling.

    The new site is some distance from town. It is in a nicer neighborhood away
from downtown. A decision was made to be in a safer place. Some say safety is
more important; others say the priority is to be close to the people. The project was
rushed.

    The Art in the Embassy program had limited appeal, some inappropriate art
(Buddha Head on a stick) slated for display in the front ofﬁce, and art that, accord­
ing to the viewers was childish and inappropriate for the representational areas where
they were placed. The colors of the front ofﬁce did not meet their expectations and
they felt like OBO should have more post involvement in the design process.

    Post learned ﬁrsthand this year that moving into a NEC is a monumental task,
requiring extraordinary amounts of work for many months before and after the
move. With more open communications and collaboration, the move would have
been even smoother, but people have quickly settled in. Post employees are happy in
their new home and look forward to working here for a long time to come.

    Review of plans and communication between OBO and post need to be more
frequent and more methodical during the planning stages. Workﬂow alterations and
changes in stafﬁng arose during the process, but post rarely had the impression that
it was the customer; OBO did much of its work without reference to the ultimate
consumer of its products.

    OBO Comment: The PD advised that he worked with post management on all
issues and had weekly DCM meetings until the new conceptual design activity can­


OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008   199 .


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        celled all individual agency head and section head meetings with the DCM except the
        mandatory consular affairs meeting. Additionally there was a weekly country team
        meeting and a weekly section and agency head meetings where updates were provid­
        ed and questions answered or researched after the meeting and provided to staff.

            OBO must resist the pressure to rush into new buildings. Contracts should be
        written so the contractor is given an additional 30-45 days to ﬁnish his punch list
        items after substantial completion is reached and before post moves in.

            OBO Comment: OBO believes the project was not rushed, it was 30 months
        duration from the notice to proceed which was issued on 13 January, 2005, and there
        was no rush to complete the project but it was completed on time. The contractor
        has 60 days to ﬁnish the majority of the punch list items after substantial comple­
        tion. During the 60 days all of the OBO and various technical installation teams for
        the various systems set up their systems to support post move in.

           This NEC is only eight months old. OBO will not fund annual maintenance
        contracts and they will not fund generator overhauls, nor will they purchase $100,000
        worth of air ﬁlter replacements. It all falls on ICASS to fund this.

            Cost analysis for the ﬁrst ﬁve-year period of a NEC should be developed during
        the planning phase once the facility dimensions are known. New facility ﬁve-year life
        cycle operational or maintenance costs that reﬂect larger ﬂoor space, greater utility
        consumption, generator fuel consumption, and other country-speciﬁc requirements
        need to be provided to Bureau budget ofﬁcers for budget out-year planning well in
        advance of the NEC going operational.

           OBO Comment: There is no doubt that the overall maintenance of the NEC
        should be reviewed, programmed and planned for by all parties.



        Commissioning
              The Project Director completion report, dated 3 December, 2007, provides com­
        missioning information for the project. It indicates that there is a 200-page punch
        list, and that post was provided all warranty information, operations and mainte­
        nance manuals, spare parts, and as-built drawings. It has received all contractual
        required training.




200 .          OIG Report No. ISP-I-08-34, Inspection of the Bureau of Overseas Buildings Operations, August 2008


                     SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





                Report of Inspection

       Bureau of Overseas 

       Buildings Operations



   Report Number ISP-I-08-34, August 2008




                            IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED





 SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED





 SENSITIVE BUT UNCLASSIFIED

